NO. ____________
IN THE

Supreme Court of the United States
____________________
LUKE T. WEST,
PETITIONER,
V.

UNITED STATES,
RESPONDENT.
____________________
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
____________________

APPENDIX
TO PETITION FOR WRIT OF CERTIORARI

____________________
CLAIBORNE W. BROWN
Counsel of Record
1070-B West Causeway Approach
Mandeville, LA 70471
(985) 845-2824
cwbrown@cwbrownlaw.com
Counsel for Petitioner

TABLE OF CONTENTS
Page (Appx.)
APPENDIX A: Decision under Review,
West v. U.S., 2019-2415
(Fed. Cir. 5/10/21)……………………………….. 1
APPENDIX B: Excerpts of Petitioner’s
Original Brief to the United States
Court of Appeals for the Federal
Circuit, No. 19-2415, R. Doc. No. 65…………..3
APPENDIX C: Excerpts of Petitioner’s
Reply Brief to the United States
Court of Appeals for the Federal
Circuit, No. 19-2415, R. Doc. No. 66…………..8
APPENDIX D: Opinion of the Court
of Federal Claims, West v. U.S.,
17-2052 (C.C. 7/26/19)………………………….. 12
APPENDIX E: Excerpts of Petitioner’s
Cross Motion and Memoranda in
Opposition to Motions filed with the
United States Court of Federal Claims
in the Proceedings Below………………………. 73
APPENDIX F: Excerpts of Unlawful
Command Influence Motion Hearing of
February 19, 2014 in the Case of
United States v. West…………………………… 111

i

TABLE OF CONTENTS
(continued)
Page (Appx.)
APPENDIX G: Excerpts of Unlawful
Command Influence Motion Hearing of
September 26, 2014 in the Case of
United States v. West:
SUMMARIZED TRANSCRIPT……………….. 127
APPENDIX H: Excerpts of Unlawful
Command Influence Motion Hearing of
September 26, 2014 in the Case of
United States v. West:
VERBATIM TRANSCRIPT……………………. 128
APPENDIX I: Excerpts of Trial
Testimony of November 18, 2014
in the case of United States v. West………….. 158
APPENDIX J: Relevant Correspondence
Regarding Actions of OJAG USN…………….. 163
APPENDIX K: Court of Federal Claims
Protective Order………………………………… 179
APPENDIX L: Judgment and Opinions:
West v. Rieth, et al., USDC EDLa
No. 15-2512………………………………………. 186
APPENDIX M: Constitutional and
Statutory Provisions……………………………. 225

ii

[APPENDIX A:

Decision Under Review]

NOTE: This disposition is nonprecedential.
United States Court of Appeals for the Federal
Circuit
______________________
LUKE T. WEST,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
______________________
2019-2415
______________________
Appeal from the United States Court of Federal
Claims in No. 1:17-cv-02052-LKG, Judge Lydia Kay
Griggsby.
______________________
JUDGMENT
______________________
CLAIBORNE W. BROWN, Claiborne W.
Brown, L.L.C., Mandeville, LA, argued for
plaintiff-appellant.
WILLIAM PORTER RAYEL, Commercial
Litigation Branch, Civil Division, United States
Department of Jus-tice, Washington, DC, argued for
defendant-appellee. Also represented by JEFFREY
Appx. 1

B. CLARK, STEVEN JOHN GILLINGHAM,
ROBERT EDWARD KIRSCHMAN, JR.
______________________
THIS CAUSE having been heard and considered, it
is
ORDERED and ADJUDGED:
PER CURIAM (MOORE, TARANTO, and
HUGHES, Circuit Judges).
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT

May 10, 2021
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Appx. 2

[APPENDIX B: Excerpts of Petitioner’s
Original Brief to the United States Court of
Appeals for the Federal Circuit, No. 19-2415, R.
Doc. No. 65]
[19-2415, R. Doc. No. 65, p.12]
STATEMENT OF THE ISSUES
(1)
Did the Trial Court err in applying the
standard set forth in the case of Matias v. United
States, 923 F.2d 831 (Fed. Cir. 1990) and Bowling v.
United States, 713 F.2d 1558 (Fed. Cir. 1983), in its
collateral review of the appellant’s general court
martial conviction instead of the more appropriate
general standard of review for evaluating an agency
decision under the Administrative Procedures Act?
(2)
In the Alternative, assuming the Trial Court
was correct in applying the Matias/Bowling
Standard in collaterally review appellant’s general
court martial conviction, did the Trial Court err in
not finding a fundamental violation under
[19-2415, R. Doc. No. 65, p.13]
Matias/Bowling to, at a minimum, justify the
exercise of its jurisdiction to remand the matter
under 28 U.S.C. § 1491(a)(2)?
(3)
Did the Trial Court err in applying the
doctrine of issue preclusion as to the issues of
whether appellant was falsely accused of sexual
harassment/and sexual assault, which application
was then used as a basis for upholding appellant’s
general
court
martial
conviction
under
Matias/Bowling?
Appx. 3

(4)
Did the Trial Court err in finding that the
names of the appellant’s accusers constituted
protected information under the Privacy Act, 5
U.S.C. § 552a?
[19-2415, R. Doc. No. 65, p.38]
SUMMARY OF ARGUMENT
A) Assignment of Error/Issue for Review No. 1:
The Trial Court was erroneous in applying the
standard provided in the cases of Matias v. United
States, 923 F.2d 821 (Fed. Cir. 1990) and Bowling v.
United States, 713 F.2d 1558 (Fed. Cir. 1983),
(“Matias/Bowling”) in its collateral review of
appellant’s general court martial conviction. In light
of the fact that appellant’s case did not undergo any
judicial appellate review under Articles 66 and 67 of
the U.C.M.J. and had only undergone administrative
appellate review under Article 69, the Trial Court
should have applied the general standard for
reviewing agency actions under the Administrative
Procedures Act. Under that standard, the decision of
the OJAG USN to uphold the conviction should have
been reversed on the grounds that the application of
the “West Standard” in appellant’s UCI motion and
the supplementation of the appellant’s record of trial
was a violation of RCM 1106 were both contrary to
law.
*

*

*

[19-2415, R. Doc. No. 65, p.39]
C) Assignment of Error/Issue for Review No. 3:
Appx. 4

The Trial Court erred in granting summary
judgment on the application of issue preclusion based
upon the December 22, 2015 order in the case of West
v. Rieth. First, the issue sought to be precluded, the
falsity of the sexual assault/sexual harassment
allegations against appellant, is an issue on the
merits which cannot be precluded on a judgment
pertaining to subject matter jurisdiction only.
Additionally, as applying to an issue on the merits,
the December 22, 2015 order did not afford
procedural opportunities for determining such issues,
such as the explicit denial of the appellant’s
allegations, the right for an evidentiary hearing, and
absent such a hearing, allocation of the appropriate
burden of proof upon the movant (summary
judgment).
[19-2415, R. Doc. No. 65, p.40]
D) Assignment of Error/Issue for Review No. 4:
The Trial Court abused its discretion in
holding that the identities of appellant’s accusers
constituted protected information under the Privacy
Act and DoD/USMC SAPR Program procedure such
that said information was subject to a protective
order. First, neither the Privacy Act nor DoD/USMC
SAPR Program procedures apply to information
independently obtained at appellant’s open and
public trial. Further, the Trial Court’s ruling on the
Privacy Act is unduly broad and constitutes
unconstitutional and potentially dangerous prior
restraint.

Appx. 5

*

*

*

[19-2415, R. Doc. No. 65, p.41]
ARGUMENT
*

*

*

[19-2415, R. Doc. No. 65, p.43]
Another significant consideration comes from
the jurisdiction afforded to the court of claims by 28
U.S.C. § 1491(a)(2). Section 1491(a)(2) affords the
court of claims in Tucker Act cases “the power to
remand appropriate matters to any administrative or
executive body or official with such direction as it
may deem proper and just.” Id. Given the power of
the service JAG to refer under U.C.M.J. Article 69 a
court martial to the service courts of appeal for
judicial appellate review; such an instruction by the
court of claims accompanying the Section 1491(a)(2)
remand would be “consistent with the statutory
scheme” and would be a permissible exercise of the
court’s jurisdiction. See Richey v. United States, 322
F.3d 1317, 1323 (Fed. Cir. 2003). In any event, one
can scarcely devise a more appropriate and less
intrusive means of collaterally reviewing a court
martial, limited to review under Article 69, than to
remand said court martial to the service JAG with an
order of referral to the service court of appeal,
thereby removing the jurisdictional barrier to
judicial appellate review and allowing that judicial
appellate review to proceed under U.C.M.J. Articles
66 and 67.
*

*

*
Appx. 6

[19-2415, R. Doc. No. 65, p.45]
This Court’s review of the actions of OJAG
USN as an agency under the standards above, while
stringent, would be considerably less stringent (and
less deferential) than the requirements as
contemplated in a review of a court martial having
undergone
judicial
appellate
review
under
Matias/Bowling. Under this appropriate standard,
appellant submits that setting aside his court
martial conviction, or, at a minimum, remand of
same to OJAG USN with instructions to refer said
court martial to the NMCCA for judicial appellate
review, is clearly warranted.

Appx. 7

[APPENDIX C: Excerpts of Petitioner’s Reply
Brief to the United States Court of Appeals for
the Federal Circuit, No. 19-2415, R. Doc. No. 66]
[19-2415, R. Doc. No. 66, p.8]
MAY IT PLEASE THE COURT:
In his Original Brief, Plaintiff-Appellant, Luke
T. West, (“plaintiff”) addressed four issues with
respect to the Court of Claims decision to deny his
motions, grant the Government’s motions and
dismiss his claims:
1) the Court of Claims
erroneously ruled that the Privacy Act prevented
plaintiff from identifying his accusers and their
testimony; 2) that plaintiff was prevented heretofore
from asserting that the sexual assault accusations
against him were false under the doctrine of issue
preclusion; 3) that the lower “arbitrary and
capricious” standard was the proper standard in
analyzing whether OJAG USN’s U.C.M.J. Article 69
review of plaintiff’s court martial conviction; and 4)
that plaintiff was still entitled to have his court
martial
vacated
even
under
the
strict
“Matias/Bowling Standard”.
As to issues two
(doctrine of issue preclusion) and four (application of
the “Matias/Bowling Standard”), plaintiff avers that
the circumstances warrant vacating of his court
martial
conviction
under
even
the
strict
“Matias/Bowling Standard” notwithstanding the
Government’s response. Further, the Government’s
arguments pertaining to the application of the
doctrine of issue preclusion do not warrant a
response from plaintiff herein.
Plaintiff does,
however, feel that further analysis is required as to
issues one (application of the Privacy Act) and three
Appx. 8

(application of “arbitrary and capricious” standard)
and hereby provides the following arguments in
reply.
*

*

*

[19-2415, R. Doc. No. 66, p.9]
ARGUMENT IN REPLY
*
*
[19-2415, R. Doc. No. 66, p.30]
III.

*

As a Matter of Statutory Interpretation;
the Collateral Review Standard of Matias
v. United States, 923 F.2d 831 (Fed. Cir.
1990) and Bowling v. United States, 713
F.2d 1558 (Fed. Cir. 1983) do not apply
and the Standard of Reviewing the
Affirming of Plaintiff’s General Court
Martial Conviction is the Standard of
General Agency Action Review Is
Applicable in this Case.

In the Original Brief to this Court, plaintiff
makes the argument that the appropriate standard
of review of plaintiff’s court martial conviction is the
general standard of review for agency decisions and
not the more rigorous standard of review under
Matias v. United States, 923 F.2d 831 (Fed. Cir.
1990) and Bowling v. United States, 713 F.2d 1558
(Fed. Cir. 1983) (“the Mattias/Bowling Standard”).
Plaintiff’s argument is largely based upon the
premise that, in plaintiff’s case, jurisdictional
restrictions under the U.C.M.J. prevented judicial
appellate review under Articles 66 and 67 of the
Appx. 9

U.C.M.J. and limited review to administrative
agency review under Article 69. By contrast, the
Mattias/Bowling Standard was applied in cases
where the plaintiff’s had been afforded the full
appellate review of military tribunals under Articles
66 and 67. Additionally, plaintiff noted the remand
jurisdiction of the Court of Claims under 28 U.S.C.
§1491(a)(2), which, coupled with the referral power of
OJAG USN to refer the case to the Navy Marine
Corps Court of Criminal Appeals (“NMCCA”) under
Article 69 of the U.C.M.J., would allow the military
tribunals, both NMCCA, and, if necessary, CAAF, to
acquire appellate review jurisdiction over plaintiff’s
court martial. See United States v. Arness, 73 M.J.
454 (C.A.A.F. 2014). Under such circumstances, it
would be out of place to impose essentially the same
high burden of Mattias/Bowling to both 1) a scenario
where a determination was being made merely to
establish the jurisdiction of the military tribunals to
permit appellate review; and 2) a scenario where,
jurisdiction having been established, those same
military tribunals had a full opportunity to conduct
appellate review. Put differently, when considered in
the context of the application of the remand power of
28 U.S.C. § 1491, independent of seeking collateral
review of his court martial conviction by the Court of
Claims at this point, plaintiff is alternatively seeking
to establish the jurisdiction to permit continued
direct appellate review by the military tribunals
under the U.C.M.J.
Clearly, the latter (mere
jurisdictional establishment for military tribunal
review) does not warrant the strict standards that
govern the former (actual review of the decision of
the military tribunal); especially where, as here, the
plaintiff anticipates a strong possibility that he
would be successful if those claims are presented to
Appx. 10

the military tribunals on direct appellate review
under U.C.M.J. Articles 66 and 67.
*

*

*

[19-2415, R. Doc. No. 66, p.33]
Finally, and most significantly, with respect to
the Government’s argument regarding the application
of the finality provision of U.C.M.J. Article 76 (as per
the cases of Augenblick under the standard of
Mattias/Bowling); said finality provision does not
apply in this instance as a matter of statutory
construction.
*
*
[19-2415, R. Doc. No. 66, p.36]

*

CONCLUSION
Based on the arguments previously provided
in his Original Brief and on the arguments in reply,
above; appellant herein submits that the decision of
the Trial Court, granting the Motion for Judgment
on the Administrative Record and denying his Cross
Motion for Judgment on the Administrative Record,
should be reversed. Specifically, appellant is entitled
to have his general court martial conviction set aside,
or, at a minimum, to have, pursuant to 28 U.S.C. §
1491(a)(2) said general court martial conviction
remanded to the OJAG USN with instructions that
the OJAG USN refer, pursuant to its power under 10
U.S.C. § 869, the general court martial conviction to
the Navy-Marine Corps Court of Criminal Appeals
for appellate review.
Appx. 11

[APPENDIX D: Opinion of the Court of
Federal Claims]
LUKE T. WEST, Plaintiff,
v.
THE UNITED STATES, Defendant.
No. 17-2052C
United States Court of Federal Claims
Reissued: September 4, 2019*
July 26, 2019
Military Pay; Motion For Summary Judgment;
RCFC 56; Motion For Judgment Upon The
Administrative Record; RCFC 52.1; Motion For
Relief From Protective Order; Collateral Estoppel.
Claiborne W. Brown, Counsel of Record, Mandeville,
LA, for plaintiff.
Daniel S. Herzfeld, Trial Attorney, Steven J.
Gillingham,
Assistant
Director,
Robert
E.
Kirschman, Jr., Director, Joseph H. Hunt, Assistant
Attorney General, Commercial Litigation Branch,
Civil Division, United States Department of Justice,
Washington, DC; Lieutenant P. Tyson Marx, Of
Counsel, Judge Advocate General Corps, United
States Navy, for defendant.
MEMORANDUM OPINION AND ORDER
GRIGGSBY, Judge
I. INTRODUCTION
In this Military Pay Action, plaintiff, Luke T.
West, challenges his general court-martial sentence
and conviction under Article 93 of the Uniform Code
of Military Justice ("UCMJ") and subsequent
Appx. 12

discharge from the military. See generally Am.
Compl. As relief, plaintiff seeks, among other things:
(1) to vacate the findings and sentence of his general
court-martial; (2)
Page 2
placement in retirement status; (3) the correction of
his military records, back pay and other benefits; or,
(4) alternatively, that the Court remand this motion
to the Navy Office of the Judge Advocate General.
Am. Compl. at Prayer for Relief; Pl. Mot. at 76.
The parties have filed cross-motions for
judgment upon the administrative record on the
issue of whether the United States Marine Corps
committed
errors
during
plaintiff's
general
court-martial and post-trial proceedings that would
warrant vacating his general court-martial
conviction. See generally Pl. Mot.; Def. Mot. The
government has also moved for summary judgment
on the issue of whether plaintiff is collaterally
estopped from arguing that certain individuals
colluded to falsely accuse him of sexual assault and
sexual harassment during the general court-martial
proceedings. Def. Mot. 18-22.
In addition, plaintiff has filed a motion for relief
from the Protective Order entered in this matter on
April 24, 2018. See generally Pl. Mot. for Relief. For
the reasons set forth below, the Court: (1) GRANTS
the government's motion for summary judgment; (2)
GRANTS the government's motion for judgment
upon the administrative record; (3) DENIES
plaintiff's cross-motion for judgment upon the
administrative record; (4) DENIES plaintiff's motion
for relief from protective order; and (5) DISMISSES
the amended complaint.
Appx. 13

II.
FACTUAL
BACKGROUND1

AND

PROCEDURAL

A. Factual Background
Plaintiff, Luke T. West, alleges that he was the
victim of "a coordinated leveling of false allegations
of sexual assault against" him while enlisted in the
United States Marine Corps ("Marine Corps") and
stationed at the Marine Forces Reserves located in
New Orleans, LA. Am. Compl. at ¶ 17. Plaintiff also
challenges his general court-martial conviction and
sentence under Article 93 of the UCMJ and his
subsequent discharge from the military. See
generally id. As relief, plaintiff seeks, among other
things: (1) to vacate the findings and sentence of his
general
Page 3
court-martial; (2) placement in retirement status; (3)
the correction of his military records, back pay and
other benefits; or, (4) alternatively, that the Court
remand this motion to the Navy Office of the Judge
Advocate General. Am. Compl. at Prayer for Relief;
Pl. Mot. at 76.
1. The Marine Corps Investigation
As background, plaintiff enlisted in the Marine
Corps on September 30, 1998. AR Tab 40 at 753.
Prior to his general court-martial, which resulted in
a reduction in rank to Lance Corporal, plaintiff rose
to the rank of Gunnery Sergeant. AR Tab 1 at 6
(sentence included a reduction in rank to E-3, Lance
Corporal).
In June 2013, the Finance Office at Marine
Forces Reserve received formal equal opportunity
complaints and unrestricted sexual assault and
Appx. 14

prevention response ("SAPR") complaints against
plaintiff from Sergeant ("Sgt.") E[* * *] P[* * *]; Staff
Sgt. R[* * *] A[* * *]; Lance Corporal B[* * *] H[* *
*]; and Staff Sgt. C[* * *] R[* * *]. AR Tabs 23-25,
34-35. These sexual assault and sexual harassment
complaints were referred to the Naval Criminal
Investigative Service ("NCIS") for investigation. AR
Tab 85 at 1741; see generally AR Tabs 16-16.2.
After the Article 32 investigating officer found
probable cause existed to send many of the charges
against plaintiff to a general court-martial, the
Marine Corps Convening Authority ("Convening
Authority") referred plaintiff to a general
court-martial on December 23, 2013, and charged
plaintiff with, among other things, sexual assault
and various violations based upon indecent
language. AR Tab 16.1 at 341, 343-48; AR Tab 155.1
at 3459. On February 20, 2014, one of the witnesses
against plaintiff, Staff Sgt. A[* * *], was approached
by Master Gunnery Sgt. Thomas, who handed her
140-pages of text messages between Staff Sgt. A[* *
*] and plaintiff and stated that she would be
embarrassed if these text messages came out at trial.
AR Tab 16 at 328. Staff Sgt. A[* * *] subsequently
testified that she felt pressure was being put on her
to testify in a specific manner in connection with
plaintiff's general court-martial. Id. And so, the
NCIS opened a new investigation into plaintiff for
obstruction of justice on February 26, 2014. AR tab
155.1 at 3565-66; see also AR Tab 96 at 2298-99; AR
Tab 155.1 at 3530.
On April 23, 2014, the Convening Authority
withdrew and dismissed the initial charges brought
against plaintiff without prejudice, based upon the
new investigation. AR Tab 16.1 at
Appx. 15

Page 4
349; AR Tab 155.1 at 3459-60. In July 2014, the
Marine Corps conducted a second investigation of
plaintiff's conduct, which resulted in new violations
of Articles 81 and 134 involving obstruction of justice
and conspiracy to obstruct justice. AR Tab 16 at
324-30 ("The new charges are Charge I [81 UCMJ:
conspiracy to obstruct justice] and . . . specification 3
under Charge VI [134 UCMJ: bringing discredit to
the armed forces and obstruction of justice]."); see
also AR Tab 85 at 1498-1501. The investigating
officer determined that there was probable cause to
move forward on the new charges against plaintiff.
AR Tab 16 at 325.
2. The General Court-Martial
On August 21, 2014, the Convening Authority
referred the new case against plaintiff to a general
court-martial, charging plaintiff with five violations
of the UCMJ, namely: (1) conspiring to obstruct
justice regarding the testimony of Staff Sgt. A[* * *]
in violation of UCMJ Article 81; (2) three
specifications of failing to obey lawful regulations in
violation of UCMJ Article 92; (3) four specifications
of maltreating subordinate Marines in violation of
UCMJ Article 93; (4) four specifications of assault in
violation of UCMJ Article 128; and (5) three
specifications of prejudicing good order and discipline
and bringing discredit to the armed forces, including
obstruction of justice, in violation of UCMJ Article
134. AR Tab 17 at 371-76; AR Tab 155.1 at 4261.
Specifically relevant to this dispute, plaintiff raised
several evidentiary and other objections prior to, and
during, the general court-martial proceedings related

Appx. 16

to the investigation and those proceedings. Am.
Compl. at ¶¶ 42-49.
a. Plaintiff's Unlawful Command Influence
Motion
First, prior to the general court-martial trial,
plaintiff moved to dismiss the criminal charges filed
against him based upon an actual or apparent
unlawful command influence ("UCI"). See Am.
Compl. at ¶ 42; see generally AR Tab 85. Specifically,
plaintiff raised four "interrelated factors" that he
argued demonstrated actual or apparent UCI,
namely, that:
(1) The Marine Corps Commandant's 2012
public statements (the "Marine Corps
Heritage Brief") regarding the frequency
of sexual assaults in the military had
created a political environment presuming
plaintiff's guilt instead of innocence;
(2)
The
Department
of
Defense
Instruction and Marine Corps Order
regarding the SAPR program effectively
required the Convening Authority to
presume plaintiff's guilt instead of
innocence, because those regulations
include protections to encourage sexual
assault victims to
Page 5
report without fear of reprisal, actions
taken under these regulations resulted in
the Convening Authority presuming
plaintiff's guilt, and the sexual assault
training improperly influences witnesses
and members venire (i.e. the jury);
(3) The Convening Authority ignored
Appx. 17

alleged, criminally false statements made
by the four victims and disparately
investigated and charged plaintiff instead
of the four victims that accused plaintiff;
and
(4) The members venire of the
court-martial would notice the disparities
in the investigation that resulted in
ignoring the alleged criminally false
statements of the victims and how
plaintiff was investigated and charged
despite the asserted lack of merit to the
charges against plaintiff.
See AR Tab 85 at 1502, 1534-1545.
On September 26, 2014, the military judge held
a pre-trial hearing regarding plaintiff's motion to
dismiss for UCI. AR Tab 155.1 at 3519. During the
hearing, the two NCIS investigators who
investigated the criminal charges brought against
plaintiff independently testified that they felt no
pressure to conduct the investigation. Id. at 3530,
3535-36. And so, the military judge denied plaintiff's
motion to dismiss. Id. at 3541-42.
b. Plaintiff's Motion To Suppress Text
Messages
Second, plaintiff unsuccessfully moved to
suppress certain text messages between himself and
Master Gunnery Sgt. Thomas upon the ground that
NCIS had obtained the text messages based upon an
unlawful search and seizure. See Am. Compl. at ¶
48(a); see generally AR Tab 81. After holding oral
argument on plaintiff's motion to suppress, the
military judge concluded that the authorization that
plaintiff gave to NCIS to search his cell phone "was
Appx. 18

limited by the agreement brokered between the
parties and by the court" to authenticate text
messages between plaintiff and Staff Sgt. A[* * *].
AR Tab 106 at 2560. But, the military judge
concluded that, NCIS had acted in good faith in
conducting the search and would have inevitably
discovered this evidence because NCIS Special Agent
("SA") Moss was actively pursuing leads that would
have led to these texts being uncovered. Id. at 2562;
AR Tab 155.1 at 3586-89. And so, the military judge
found the text messages to be admissible. AR Tab
155.1 at 3589.
Page 6
c. Voir Dire Questions Regarding Sexual
Assault
Third, plaintiff objected to the military judge's
exclusion of his proposed voir dire questions
regarding sexual assault. AR Tab 155.1 at 3611-12;
see also Am. Compl. at ¶ 48(c). During the voir dire,
the military judge instructed the members venire
that "[i]t is not a sexual assault case," but "there is a
slight hint of that in the record" because "some of the
assaults that are charged is touching somebody's leg
in a way you all might perceive as a type of sexual
connotation." AR Tab 155.1 at 3637-38. The military
judge also addressed the Marine Corps Heritage
Brief which addresses sexual assault. Id. at 3638.
The military judge informed the prospective
members venire that the Marine Corps Commandant
had specifically reiterated that, even in cases of
sexual assault, there is a "presumption of innocence
unless proven otherwise" and "whether or not a
Marine committed an offense and what shall happen,
will be determined on the facts presented to the
Appx. 19

court-martial." Id. at 3638-39. And so, the
prospective members venire affirmatively responded
that they would follow the judge's instructions to
fairly weigh the facts in this case and presume
plaintiff innocent until proven guilty. Id. at 3639.
d. Admission Of Text Messages
Fourth, plaintiff objected to the exclusion of
certain text messages between plaintiff and Staff
Sgt. A[* * *] during the general court-martial
proceedings. Am. Compl. at ¶ 48(d). During the
testimony of Staff Sgt. A[* * *], the prosecution
introduced several text messages between plaintiff
and Staff Sgt. A[* * *] as evidence of plaintiff's
maltreatment and obstruction of justice. AR Tab
155.1 at 3870-71, 3911-15; see also AR Tab 20 at 484
(providing the text messages as an exhibit). Plaintiff
also sought to offer into evidence an excerpt of six
pages of text messages between plaintiff and Staff
Sgt. A[* * *] to show that plaintiff had not
maltreated Staff Sgt. A[* * *]. Tab 155.1 at 4016-22;
see generally AR Tab 45. The military judge denied
plaintiff's request, finding that the six pages of text
messages that plaintiff sought to introduce were
either not relevant under Military Rule of Evidence
401, or "confusing, misleading, or wasting time"
under Military Rule of Evidence 403. AR Tab 155.1
at 3998, 4016-23.
Plaintiff was allowed however, to use the
subject text messages to attempt to refresh the
recollection of Staff Sgt. A[* * *] during the general
court-martial proceedings. Id. at 3932. But, plaintiff
did not move to have the entire 140-pages of text
messages entered into evidence
Page 7
Appx. 20

during those proceedings. Id. at 4208 ("Of the 140
pages of these text messages, [plaintiff's counsel]
sought admission to this court-martial of six pages.").
e. Redaction Of Privacy Act Covered
Statements
Fifth, plaintiff also unsuccessfully attempted to
admit the unredacted request mast statements of
Lance Corporal H[* * *] and Staff Sgt. R[* * *] to
show bias during the general court-martial. Id. at
4009-15; AR Tabs 41, 43-44 (providing the
unredacted statements as defense exhibits D, E, and
H); see also Am. Compl. at ¶ 48(e). During the
general court-martial proceedings, the military judge
requested that plaintiff use redacted versions of
these request mast statements that do not include
certain personal identifiable information and
information about "other people in the command"
that were irrelevant to plaintiff's general
court-martial. AR Tab 155.1 at 4010, 4015-16. And
so, the military judge admitted the redacted versions
of these statements into evidence. AR Tab 17 at 443;
see generally AR Tabs 34-35 (providing defense
exhibits OO and PP).
f. Relevance Objections
Sixth, plaintiff faced relevance objections to his
questioning regarding an interview conducted by
NCIS investigator SA Jeffrey Norton involving
Gunnery Sgt. Cesar Villegas. Am. Compl. at ¶¶
48(g)-(h). During the pre-trial hearing regarding
plaintiff's motion to dismiss for UCI, plaintiff's
counsel questioned SA Norton regarding Gunnery
Sgt. Villegas. AR Tab 155.1 at 3521-30. The military
judge sustained a relevance objection to request that

Appx. 21

plaintiff's questioning stay within the topic of UCI.
Id. at 3529; see also id. at 3525-27.
g. Closing Argument
Lastly, plaintiff objected to several matters
related to the closing arguments. Am. Compl. at
¶48(i)-(k). During the closing arguments, the
military judge interrupted plaintiff's counsel on three
occasions in response to objections by the
government and/or to clarify the facts in evidence.
AR Tab 155.1 at 4192-209. First, after the
prosecution objected to counsel for plaintiff's
statement that a witness "got up on that stand,
looked you in the eye, and they lied to you," the
military judge sustained the government's objection
to this statement because the "credibility of these
witnesses is a matter for these members and not for"
defense counsel. Id. at 4193.
Page 8
Second, plaintiff's counsel argued during closing
arguments that plaintiff could not have discredited
the Marine Corps and been guilty of maltreatment
by making certain statements at a basketball game,
because no one at the basketball game was in
uniform. Id. at 4205. Thereafter, the military judge
gave a curative instruction at the close of the
argument to the members that:
There's
no
requirement
for
the
government to prove that members of the
public observed the conduct per se and
there's certainly no requirement that
people are in uniform. But simply that the
conduct was of a nature to bring discredit
upon the armed forces.
Appx. 22

Id. at 4211-12; see also id. at 4205.
As a final matter, when plaintiff's counsel
referenced the 140-pages of text messages between
plaintiff and Staff Sgt. A[* * *], by stating that "[he
had] looked at those text messages. You haven't but I
have" and later referenced "[a]ll 140 pages" of the
text messages, the military judge interrupted and
ruled "[t]hat is [an] improper argument." Id. at 4191,
4208. The military judge also noted that plaintiff
sought to admit only six pages of the 140-pages of
text messages during the trial, and the military
judge only admitted two pages of text messages into
evidence. Id. at 4208-09.
At the conclusion of the trial, the members
venire found plaintiff guilty of: (1) conspiracy to
commit obstruction of justice under UCMJ Article
81; (2) maltreatment of Staff Sgt. A[* * *] under
UCMJ 93; (3) indecent language to Staff Sgt. A[* * *]
based on the same statement under UCMJ Article
134; and (4) obstruction of justice under UCMJ
Article 134. Id. at 4261. And so, the members
sentenced plaintiff to a reprimand, reduction in
paygrade to E-3, and 30-days confinement. Id. at
4379.
On February 13, 2015, the Marine Corp Staff
Judge Advocate recommended that the Convening
Authority approve the sentence adjudged. AR Tab 13
at 313. On February 20, 2015, the Marine Corp Staff
Judge Advocate served plaintiff with the
recommendation. AR Tab 4 at 12.
3. Plaintiff's Clemency Petition
On March 2, 2015, plaintiff submitted a
clemency petition under the Military Rules for
Appx. 23

Courts-Martial ("R.C.M.") 1105, asserting, among
other things, that: (1) a verbatim transcript of
Page 9
the general court-martial should have been created;
(2) he had largely prevailed in demonstrating that
the witnesses against him had "coordinated leveling
of false allegations of sexual assault;" and (3) the
military judge's exclusion of the 140-pages of text
messages between plaintiff and Staff Sgt. A[* * *]
was improper. AR Tab 6 at 14-23. On March 3, 2015,
the Staff Judge Advocate forwarded the clemency
petition and an addendum to the Convening
Authority recommendation that the Convening
Authority issue the action implementing the
adjudged sentence. AR Tab 3 at 10-11. And so, on
March 5, 2015, the Convening Authority approved
the verdict and sentence. AR Tab 1 at 6-7 (Art. 65(a)
of the UCMJ requires the record to be transmitted to
the Judge Advocate General when a service member
is found guilty).
4. Plaintiff's District Court Litigation
On July 9, 2015, plaintiff brought a civil action
against the witnesses that testified against him at
his general court-martial—Staff Sgt. A[* * *], Sgt.
E[* * *] P[* * *], Staff Sgt. R[* * *]—and Sgt. K[* * *]
J[* * *], in the United States District Court for the
Eastern District of Louisiana. See West v. Rieth, 152
F. Supp. 3d 538 (E.D. La. 2015), aff'd 705 F. App'x
211, 212 (5th Cir. 2017), cert. denied 138 S. Ct. 1546,
1547 (2018). In the district court litigation, plaintiff
alleged that these service members "conspired to
lodge false complaints and accusations of sexual
harassment and sexual assault against him." West v.
Rieth, 152 F. Supp. 3d 538, 541 (E.D. La. 2015), aff'd,
Appx. 24

705 Fed. App'x 211 (5th Cir. 2017), cert. denied, 138
S. Ct. 1546, 1547 (2018). The United States
intervened in the case to substitute the United
States as the named defendant pursuant to 28 U.S.C.
§ 2679 (the "Westfall Act."). Id. at 542, 544-46.
The district court held that plaintiff failed to
prove that the defendants' conduct was not within
the scope of their employment and later denied
plaintiff's motion for reconsideration. Id. at 544-46;
West v. Rieth, No. 15-2512, 2016 WL 952253, at *2
(E.D. La. Mar. 14, 2016). And so, the district court
dismissed the named individual defendants and
substituted the United States as the party defendant
in this case. Rieth, 152 F. Supp. 3d at 549. In doing
so, the district court noted that "[Mr.] West has not
submitted sufficient evidence to meet th[e] burden"
to establish that, as a factual matter, the allegations
against him were false. Id. at 545. The United States
Court of Appeals for the Fifth Circuit subsequently
affirmed the district court's decision to dismiss
plaintiff's claims. See Rieth, 705 F. App'x. at 213-14.
On April 16, 2018, the Supreme Court denied
plaintiff's petition for certiorari. West v. Rieth, 138 S.
Ct. 1546, 1547 (2018).
Page 10
5. The Article 69(a) Proceedings
On July 18, 2016, plaintiff requested appellate
review of his general court-martial sentence and
conviction by the Navy's Office of Judge Advocate
General, pursuant to UCMJ Article 69(a). AR Tabs
144-145; see also 10 U.S.C. § 869. In that appeal,
plaintiff raised 11 challenges, namely, that: (1) there
were missing items from the record of trial; (2) his
request for a verbatim transcript of the court-martial
Appx. 25

proceedings was denied; (3) the Convening Authority
issued the action improperly, because it allegedly did
so before the Staff Judge Advocate had an
opportunity to submit the addendum to its original
recommendation related to plaintiff's clemency
petition; (4) the military judge improperly excluded
the text messages between plaintiff and Staff Sgt.
A[* * *]; (5) the military judge gave prejudicial
instruction regarding those text messages; (6) the
military judge gave improper jury instructions
regarding the obstruction of justice charge; (7) there
was insufficient evidence to support the obstruction
of justice conviction; (8) there were improper
instructions during plaintiff's closing argument
regarding the indecent language charge; (9) plaintiff
met his burden of proof on his motions to dismiss for
UCI; (10) the military judge exacerbated UCI by
finding many of plaintiff's questions and arguments
regarding sexual assault to be irrelevant; and (11)
there was new evidence demonstrating UCI. AR Tab
144 at 2800-08; see also AR Tab 145 at 3168-79.
In December 2016, the Navy's Office of Judge
Advocate General determined that a verbatim
transcript of plaintiff's general court-martial
proceedings was necessary to evaluate plaintiff's
assignments of error. AR Tab 147 at 3216. On
February 27, 2017, plaintiff filed a mandamus case
against the Navy's Office of Judge Advocate General
to prohibit the Navy from preparing a verbatim
transcript. AR Tab 151.1.
On March 29, 2017. the Navy provided plaintiff
with a copy of the verbatim transcript of the general
court-martial proceedings and advised that plaintiff
and his counsel had 10 days to review the transcript.
See AR Tab 152 at 3448; AR Tab 153 at 3451. Shortly
Appx. 26

thereafter, the district court dismissed plaintiff's
mandamus case on April 6, 2017. AR Tabs 157.9-10.
On May 2, 2017, the Navy informed plaintiff that the
verbatim transcript had been authenticated and that
the military judge had certified the transcript for
addition to the record of trial. AR Tab 155.
Thereafter, on June 9, 2017, the Office of the Judge
Advocate General denied plaintiff's Article 69
request for relief. AR Tab 156.
Page 11
B. Procedural Background
Plaintiff commenced this Military Pay Action on
January 16, 2018. See generally Am. Compl. On April
24, 2018, the Court entered a Protective Order in
this matter. See generally Protective Order.
The government filed the administrative record
on April 30, 2018. See generally AR. On May 14,
2018, plaintiff filed motions to supplement the
administrative record and to strike portions of the
administrative record. See generally Pl. Mot. to Supp.
and Strike AR. On May 18, 2018, plaintiff filed a
supplemental appendix to his motions to supplement
and to strike portions of the administrative record by
leave of the Court. See generally Pl. App'x.
On June 1, 2018, the government filed a
response and opposition to plaintiff's motions to
supplement and to strike portions of the
administrative record. See generally Def. Resp. to
Mot. to Supp. and Strike AR. On June 8, 2018,
plaintiff filed a reply in support of his motions to
supplement and to strike portions of the
administrative record. See generally Pl. Reply to Mot.
to Supp. and Strike AR.
Appx. 27

On September 7, 2018, the government filed a
motion for judgment upon the administrative record
and a motion for summary judgment. See generally
Def. Mot. On October 19, 2018, plaintiff filed a
motion for relief from the Protective Order. See
generally Pl. Mot. for Relief. On November 5, 2018,
plaintiff filed a cross-motion for judgment upon the
administrative record and a response in opposition to
the government's motion for judgment upon the
administrative record and motion for summary
judgment. See generally Pl. Mot.
On December 17, 2018, the government filed a
response and opposition to plaintiff's cross-motion for
judgment upon the administrative record and a reply
in support of its motion for judgment upon the
administrative record and motion for summary
judgment. See generally Def. Resp. On February 8,
2019, plaintiff filed a reply in support of his
cross-motion for judgment upon the administrative
record. See generally Pl. Reply.
On February 28, 2019, the government filed a
response in opposition to plaintiff's motion for relief
from the protective order. See generally Def. Resp. to
Mot. for Relief. On March 15, 2019, plaintiff filed a
reply in support of his motion for relief from the
protective order. See generally Pl. Reply to Mot. for
Relief.
Page 12
On April 16, 2019, the Court issued a
memorandum opinion and order granting-in-part
and denying-in part plaintiff's motions to supplement
and to strike portions of the administrative record.
See generally West v. United States, 142 Fed. Cl. 717
(2019). On May 17, 2019, the government
Appx. 28

supplemented
generally AR.

the

administrative

record.

See

These matters being fully-briefed, the Court
resolves the pending motions.
III. LEGAL STANDARDS
A. Jurisdiction And Military Pay Cases
The Military Pay Act is a money-mandating
source of law that provides the Court with
jurisdiction under the Tucker Act. See Bias v. United
States, 131 Fed. Cl. 350, 354 (2017), aff'd in part and
rev'd in part on other grounds, 722 F. App'x 1009
(Fed. Cir. 2018) (citations omitted) ("[T]he Military
Pay Act . . . is a money-mandating source of law that
provides the court with jurisdiction."); see also 37
U.S.C. § 204. And so, the United States Court of
Appeals for the Federal Circuit has held that the
Military Pay Act is typically the applicable
money-mandating statute to be invoked in the
context of military discharge cases. See Martinez v.
United States, 333 F.3d 1295, 1303 (Fed. Cir. 2003)
("In the context of military discharge cases, the
applicable 'money-mandating' statute that is
generally invoked is the Military Pay Act, 37 U.S.C.
§ 204.").
The Federal Circuit has also held that, when
reviewing challenges to a court-martial conviction,
this Court possesses a "'narrow window of collateral
attack review'" and a servicemember must
"'demonstrate convincingly that in the court-martial
proceedings there has been such a deprivation of
fundamental fairness as to impair due process.'"
Matias v. United States, 923 F.2d 821, 826 (Fed. Cir.
1990) (quoting Matias v. United States, 19 Cl. Ct.
635, 641 (1990), and Bowling v. United States, 713
Appx. 29

F.2d 1558, 1561 (Fed. Cir. 1983)). In this regard, "the
constitutional claims made must be serious ones to
support an exception to the rule of finality." Bowling,
713 F.2d at 1561. And so, absent an allegation of an
express constitutional violation, a plaintiff must
demonstrate that the court-martial constituted a
"constitutionally unfair trial." United States v.
Augenblick, 393 U.S. 348, 356 (1969). In this regard,
the Supreme Court has held that, "apart from trials
conducted in violation of express constitutional
mandates, a constitutionally unfair trial takes place
only where the barriers and safeguards are so
relaxed or
Page 13
forgotten . . . that the proceeding is more a spectacle
or trial by ordeal than a disciplined contest." Id.
(internal citations omitted).
This Court weighs constitutional claims related
to the challenge of court-martial proceedings with
the "limited function" of determining "whether the
military tribunal gave fair consideration" to each
claim. Matias, 923 F.2d at 826 (citing Burns v.
Wilson, 346 U.S. 137, 144 (1953)); Matias, 19 Cl. Ct.
at 646 ("When an issue has been briefed and argued
before a military court, it has received full and fair
consideration, even if that court disposes of the claim
summarily with a statement that it did not consider
the issue meritorious or requiring discussion."). The
Court "does not have the authority to retry the facts
of a court-martial proceeding nor to act as a
reviewing court of the decision of the court-martial
tribunal." See Flute v. United States, 535 F.2d 624,
626 (Ct. Cl. 1976). Given this, merely contesting
whether the court-martial judge erred or acted
Appx. 30

contrary to law is insufficient, if the challenge does
"not rise to the constitutional magnitude required for
review." Tindle v. United States, 56 Fed. Cl. 337, 342
(2003). And so, the Court may review court-martial
convictions only where the alleged infirmities at the
court-martial rise to a constitutional level. Flute, 535
F.2d at 626.
B. RCFC 56
Pursuant to RCFC 56, a party is entitled to
summary judgment when there is "no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law." RCFC
56(a); see Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 247-48, 106 S. Ct. 2505, 91 L. Ed. 2d 202 (1986);
Biery v. United States, 753 F.3d 1279, 1286 (Fed. Cir.
2014). A dispute is "genuine" when "the evidence is
such that a reasonable jury could return a verdict for
the nonmoving party." Anderson, 477 U.S. at 248. A
fact is "material" if it could "affect the outcome of the
suit under the governing law." Id. The mere
existence of an alleged factual dispute will not defeat
an otherwise properly supported motion for
summary judgment if there is no genuine issue of
material fact. Id. at 247-48.
The moving party bears the burden of
demonstrating the absence of any genuine issues of
material fact. Celotex Corp. v. Catrett, 477 U.S. 317,
323, 106 S. Ct. 2548, 91 L. Ed. 2d 265 (1986). And so,
'"the inferences to be drawn from the underlying
facts . . . must be viewed in the light most favorable
to the party opposing the motion."' Matsushita Elec.
Indus. Co., Ltd. v.
Page 14

Appx. 31

Zenith Radio Corp., 475 U.S. 574, 587-88, 106 S. Ct.
1348, 89 L. Ed. 2d 538 (1986) (quoting United States
v. Diebold, Inc., 369 U.S. 654, 655, 82 S. Ct. 993, 8 L.
Ed. 2d 176 (1962)).
In making a summary judgment determination,
the Court does not weigh the evidence presented, but
instead must "determine whether there is a genuine
issue for trial." Anderson, 477 U.S. at 249; see also
Am. Ins. Co. v. United States, 62 Fed. Cl. 151, 154
(2004); Agosto v. INS, 436 U.S. 748, 756, 98 S. Ct.
2081, 56 L. Ed. 2d 677 (1978) ("[A trial] court
generally cannot grant summary judgment based on
its assessment of the credibility of the evidence
presented . . . .") (citations omitted). The Court may
grant summary judgment when "the record taken as
a whole could not lead a rational trier of fact to find
for the non-moving party . . . ." Matsushita Elec.
Indus. Co., Ltd., 475 U.S. at 587. The same standard
applies when the Court considers cross-motions for
summary judgment. Principal Life Ins. Co. & Subs.
v. United States, 116 Fed. Cl. 82, 89 (2014); see also
Estate of Hevia v. Portrio Corp., 602 F.3d 34, 40 (1st
Cir. 2010). And so, when both parties move for
summary judgment, '"the court must evaluate each
party's motion on its own merits, taking care in each
instance to draw all reasonable inferences against
the party whose motion is under consideration."'
Abbey v. United States, 99 Fed. Cl. 430, 436 (2011)
(quoting Mingus Constructors, Inc. v. United States,
812 F.2d 1387, 1391 (Fed. Cir. 1987)).
C. RCFC 52.1
Unlike a summary judgment motion under
RCFC 56, the existence of genuine issues of material
fact do not preclude a grant of judgment upon the
Appx. 32

administrative record under RCFC 52.1. Tech. Sys.,
Inc. v. United States, 98 Fed. Cl. 228, 242 (2011).
Rather, the Court's inquiry is whether, "given all the
disputed and undisputed facts, a party has met its
burden of proof based on the evidence in the record."
A&D Fire Prot., Inc. v. United States, 72 Fed. Cl.
126, 131 (2006); see also Bannum v. United States,
404 F.3d 1346, 1355-56 (Fed. Cir. 2005).
D. Collateral Estoppel And Justiciability
The Federal Circuit has recognized that "[t]he
doctrine of res judicata involves the related concepts
of claim preclusion and issue preclusion."
Phillips/May Corp. v. United States, 524 F.3d 1264,
1267 (Fed. Cir. 2008). The doctrine of collateral
estoppel—or issue preclusion—protects litigants
from the burden of relitigating an identical issue
with the same party and promotes judicial economy
by preventing needless litigation. Parklane Hosiery,
Inc. v. Shore,
Page 15
439 U.S. 322, 327 (1979); Blonder-Tongue Labs., Inc.
v. Univ. of Ill. Found., 402 U.S. 313, 328-329 (1971).
A party asking the Court to apply collateral estoppel
must establish that: (1) the issue at stake is identical
to the one involved in the prior proceeding; (2) the
issue was actually litigated in the prior proceeding;
(3) the determination of the issue in the prior
litigation must have been a critical and necessary
part of the judgment in the first action; and (4) the
party against whom collateral estoppel is asserted
must have had a full and fair opportunity to litigate
the issue in the prior proceeding. Dana v. E.S.
Originals, Inc., 342 F.3d. 1320, 1323 (Fed. Cir. 2003)
(internal quotation marks omitted) (quoting Pleming
Appx. 33

v. Universal-Rundle Corp., 142 F.3d 1354, 1359 (11th
Cir. 1998)); Banner v. United States, 238 F.3d 1348,
1354 (Fed. Cir. 2001) (citing Jet, Inc. v. Sewage
Aeration Sys., 223 F.3d 1360, 1365-66 (Fed. Cir.
2000)).
In addition, this Court has held that a claim
must be justiciable to survive a motion to dismiss.
See Houghtling v. United States, 114 Fed. Cl. 149,
156-57 (2013). In this regard, the United States
Supreme Court has held that justiciability depends
upon "whether the duty asserted can be judicially
identified and its breach judicially determined, and
whether protection for the right asserted can be
judicially molded." Baker v. Carr, 369 U.S. 186, 198
(1962); see also Murphy v. United States, 993 F.2d
871, 872 (Fed. Cir. 1993). And so, a controversy is
justiciable only if "it is 'one which the courts can
finally and effectively decide, under tests and
standards which they can soundly administer within
their special field of competence.'" Voge v. United
States, 844 F.2d 776, 780 (Fed. Cir. 1988) (quoting
Greene v. McElroy, 254 F.2d 944, 953 (D.C. Cir.
1958)); see also Antonellis v. United States, 723 F.3d
1328, 1334 (Fed. Cir. 2013); Adkins v. United States,
68 F.3d 1317, 1322 (Fed. Cir. 1995).
The question of justiciability is frequently at
issue when courts review military activities, and
courts have often held that decisions made by the
military are "beyond the institutional competence of
courts to review." Lindsay v. United States, 295 F.3d
1252, 1257 (Fed. Cir. 2002) ("Because 'decisions as to
the composition, training, equipping, and control of a
military force are essentially professional military
judgments,' the substance of such decisions, like
many other judgments committed to the discretion of
Appx. 34

government officials, is frequently beyond the
institutional competence of courts to review.")
(quoting Gilligan v. Morgan, 413 U.S. 1, 10 (1973));
Orloff v. Willoughby, 345 U.S. 83, 93-94 (1953)
("[J]udges are not given the task of running the
Army."); see also Murphy, 993 F.2d at 872; Voge, 844
F.2d at 780. But, even when the merits of a military
personnel decision are nonjusticiable, the process by
which the decision
Page 16
has been made may be subject to judicial review.
Adkins, 68 F.3d at 1323 ("[A] challenge to the
particular procedure followed in rendering a military
decision may present a justiciable controversy.")
(emphasis original); Murphy, 993 F.2d at 873. And
so, if the military chooses to introduce its own
procedural regulations, the Court may review any
violations of such regulations even if the underlying
decision is nonjusticiable. Murphy, 993 F.2d at 873.
In such circumstances, the Court "merely determines
whether the procedures were followed by applying
the facts to the statutory or regulatory standard." Id.
IV. LEGAL ANALYSIS
The parties have filed several motions that
require resolution by the Court. First, the
government seeks summary judgment in its favor on
the issue of whether certain witnesses at plaintiff's
general court-martial trial conspired to falsely accuse
him of sexual assault and sexual harassment, upon
the ground that plaintiff is collaterally estopped from
relitigating this issue. Def. Mot. 18-22. The parties
have also filed cross-motions for judgment upon the
administrative record on the issues of: (1) whether
the United States Marine Corps committed errors
Appx. 35

during plaintiff's general court-martial and post-trial
proceedings, that would warrant vacating plaintiff's
general court-martial conviction and sentence; and
(2) whether this matter should be remanded to the
Navy's Judge Advocate General. See generally Pl.
Mot.; Def. Mot. Lastly, plaintiff has moved for relief
from the Protective Order entered in this matter on
April 24, 2018. See generally Pl. Mot. for Relief.
For the reasons set forth below, plaintiff is
collaterally estopped from relitigating whether
certain witnesses falsely accused him of sexual
assault and sexual harassment and plaintiff has not
shown that his general court-martial and post-trial
proceedings were fundamentally unfair. And so, the
Court: (1) GRANTS the government's motion for
summary judgment; (2) GRANTS the government's
motion for judgment upon the administrative record;
(3) DENIES plaintiff's cross-motion for judgment
upon the administrative record; (4) DENIES
plaintiff's motion for relief from protective order; and
(5) DISMISSES the complaint.
A.
Plaintiff
Is
Precluded
From
Re-Litigating Whether Certain Witnesses
Falsely Accused Him During The Court-Martial
Proceedings
As an initial matter, while not dispositive of this
case, the undisputed material facts in this case make
clear that plaintiff is precluded from re-litigating the
issue of whether certain
Page 17
witnesses at his general court-martial conspired to
falsely accuse him of sexual assault and sexual
harassment. And so, the Court GRANTS the
Appx. 36

government's motion for summary judgment with
respect to this issue. RCFC 56.
In its motion for summary judgment, the
government persuasively argues that plaintiff is
precluded from litigating the issue of whether certain
servicemembers coordinated to falsely accuse him of
sexual assault and sexual harassment, because
plaintiff previously litigated this issue before the
United States District Court for the Eastern District
of Louisiana. Def. Mot. at 18-19. It is
well-established that the doctrine of collateral
estoppel—or issue preclusion—protects litigants
from the burden of relitigating an identical issue
with the same party and promotes judicial economy
by preventing needless litigation. Parklane Hosiery,
Inc. v. Shore, 439 U.S. 322, 331 (1979);
Blonder-Tongue Labs., Inc. v. Univ. of Ill. Found.,
402 U.S. 313, 328-329 (1971). To establish that
plaintiff is collaterally estopped from relitigating
whether certain witnesses conspired to falsely accuse
him of sexual assault and sexual harassment, the
government must show that: (1) the issue at stake is
identical to the one involved in the prior proceeding;
(2) the issue was actually litigated in the prior
proceeding; (3) the determination of the issue in the
prior litigation was a critical and necessary part of
the judgment in the first action; and (4) plaintiff had
a full and fair opportunity to litigate the issue in the
prior proceeding. Dana v. E.S. Originals, Inc., 342
F.3d. 1320, 1323 (Fed. Cir. 2003) (internal quotation
marks
omitted)
(quoting
Pleming
v.
Universal-Rundle Corp., 142 F.3d 1354, 1359 (11th
Cir. 1998)); Banner v. United States, 238 F.3d 1348,
1354 (Fed. Cir. 2001) (citing Jet, Inc. v. Sewage
Aeration Sys., 223 F.3d 1360, 1365-66 (Fed. Cir.
Appx. 37

2000)). The government has shown that each of these
elements is satisfied here.
First, there can be no genuine dispute that the
issue of whether certain witnesses conspired to
falsely accuse plaintiff of sexual assault and sexual
harassment during his general court-martial is
identical to the issue involved in plaintiff's prior
litigation before the United States District Court of
the Eastern District of Louisiana. In the district
court litigation, plaintiff alleged that four
servicemembers—Staff Sgt. A[* * *], Sgt. P[* * *],
Staff Sgt. R[* * *], and Sgt. J[* * *]— "conspired to
lodge false complaints and accusations of sexual
harassment and sexual assault against him." Rieth,
152 F. Supp. 3d at 541. The amended complaint in
this action similarly alleges that these same four
individuals made "false sexual assault claims"
against plaintiff during his general court-martial.
Am. Compl. at ¶ 42(b). A review of the docket for
Page 18
plaintiff's district court litigation also shows that the
issue of whether the aforementioned servicemembers
conspired to falsely accuse plaintiff of sexual assault
and sexual harassment was fully briefed by the
parties to that case and that the district court
determined that plaintiff failed to show that the
allegations lodged against him were false. Rieth, 152
F. Supp. 3d at 545. Given this, the undisputed
material facts show that the issue of whether certain
servicemembers conspired to falsely accuse plaintiff
of sexual assault and sexual harassment is identical
to the issue that plaintiff previously litigated before
the district court. Corrigan v. United States, 82 Fed.
Cl. 301, 307 (2008) (quoting United States v. Moser,
Appx. 38

266 U.S. 236, 241 (1924)) (explaining that, to
determine whether the issue is identical, this Court
must decide "'whether the point or question
presented for determination in the subsequent action
is the same as that litigated and determined in the
original action.'").
Second, the undisputed material facts also
make clear that the parties to the district court
litigation actually litigated the issue of whether
certain servicemembers conspired to falsely accuse
plaintiff of sexual assault and sexual harassment. As
discussed above, plaintiff alleged in the district court
litigation that Staff Sgt. A[* * *], Sgt. P[* * *], Staff
Sgt. R[* * *] and Sgt. J[* * *] "conspired to lodge false
complaints and accusations of sexual harassment
and sexual assault against him." Rieth, 152 F. Supp.
3d at 541. The government addressed this issue in its
motion to dismiss and to substitute the United
States as the defendant in that action. Id. at 542. A
review of the district court's decision on the
government's motion also shows that the issue of
whether certain servicemembers conspired to falsely
accuse plaintiff of sexual assault and sexual
harassment was resolved by the district court.
Notably, the district court held that "[Mr.] West has
the burden to establish that, as a factual matter, the
allegations against him were false" and the district
court ultimately concluded that plaintiff "has not . . .
[met] this burden." Id. at 545.
Plaintiff's argument that this issue was not
actually litigated before the district court is also
misguided. Pl. Mot. at 73-74. While plaintiff correctly
observes that the district court did not conduct an
evidentiary
hearing
before
granting
the
government's motion to dismiss and to substitute, it
Appx. 39

is well-established that an issue can be litigated and
decided by a court on a dispositive motion without
the need to hold an evidentiary hearing. See, e.g.,
Stephen Slesinger, Inc. v. Disney Enters., Inc., 702
F.3d 640, 645-46 (Fed. Cir. 2012) (affirming the
Trademark Trial and Appeal Board's dismissal for
collateral estoppel based in reliance on a district
court order for summary judgment in the previous
court action). The docket for plaintiff's district
Page 19
court litigation also shows that the district court
dismissed plaintiff's Bivens complaint against the
accused servicemembers with prejudice, again,
making clear that the issue of whether these
servicemembers falsely accused plaintiff of sexual
assault and sexual harassment was actually litigated
before the district court. West v. Rieth, No. 15-2512,
2016 WL 3459883, at *7 (E.D. La. June 24, 2016).
Given this, the Court concludes that the second
element of issue preclusion has also been satisfied in
this case. Corrigan, 82 Fed. Cl. at 309 (holding that
an issue is actually litigated if the issue was: (1)
appropriately raised, by the pleadings or otherwise;
(2) submitted for determination; and (3) determined
by the court).
The government has also shown that the
district court's determination regarding whether
certain servicemembers conspired to falsely accuse
plaintiff of sexual assault and sexual harassment
was a critical and necessary part of the court's
judgment in the district court litigation. Plaintiff
correctly argues that the district court addressed
issues related to scope of employment and
certification under the Westfall Act during the
Appx. 40

district court litigation. Pl. Mot. at 70; see Rieth, 152
F. Supp. 3d at 546. But, the district court also
specifically addressed and determined the veracity of
the accusers' sexual assault and sexual harassment
claims against plaintiff, before reaching a decision
regarding the Westfall Act certification. Rieth, 152 F.
Supp. 3d at 544 ("The Certification and the Alleged
Falsity of the Allegations"). Notably, the district
court held that, "to challenge the certification, . . .
[Mr.] West has the burden to establish that, as a
factual matter, the allegations against him were
false." Id. at 545 (emphasis omitted). Given this, the
Court agrees with the government that the issue of
whether certain servicemembers conspired to falsely
accuse plaintiff of sexual assault and sexual
harassment was a critical and necessary part of the
district court's decision.
Lastly, the undisputed material facts also make
clear that plaintiff had a full and fair opportunity to
litigate the issue of whether certain servicemembers
conspired to falsely accuse him of sexual assault and
sexual harassment during the district court
litigation. Plaintiff and the government fully briefed
this issue in connection with the government's
motion to dismiss and to substitute. Id. at 542 n.11.
Plaintiff was also represented by counsel during the
district court litigation and he currently retains the
same counsel in this case. Id. at 541. In addition,
plaintiff fails to show that he suffered any significant
procedural limitations during the district court
litigation. Pl. Mot. at 74-76. And so, the final element
of collateral estoppel—that plaintiff was afforded a
full and fair opportunity to litigate the issue—has
also been satisfied in this case.
Page 20
Appx. 41

Corrigan, 82 Fed. Cl. at 311 (holding that, to
determine whether plaintiff has had a "full and fair"
opportunity to litigate the issue, the Court must look
at: (1) whether there were significant procedural
limitations in the prior proceeding; (2) whether the
party had an incentive to litigate fully the issue; and
(3) whether effective litigation was limited by the
nature or relationship of the parties).
Because the undisputed material facts in this
case make clear that plaintiff is collaterally estopped
from relitigating the issue of whether certain
witnesses at his general court-martial trial conspired
to falsely accuse him of sexual assault and sexual
harassment, the Court GRANTS the government's
motion for summary judgment on this issue. RCFC
56.
B. Plaintiff Has Not Shown That Any Of
The Alleged Errors During The Court-Martial
And Post-Trial Proceedings Constitute Such A
Deprivation Of Fundamental Fairness As To
Impair His Constitutional Due Process Rights
Turning to the merits of the parties'
cross-motions for judgment upon the administrative
record, the record evidence in this case shows that
any errors that occurred during plaintiff's general
court-martial and post-trial proceedings did not
constitute such a deprivation of fundamental
fairness as to impair plaintiff's constitutional due
process rights. And so, the Court GRANTS the
government's motion for judgment upon the
administrative record and DENIES plaintiff's
cross-motion for judgment upon the administrative
record on this issue. RCFC 52.1.

Appx. 42

In his cross-motion for judgment upon the
administrative record, plaintiff identifies several
alleged errors during his general court-martial and
post-trial proceedings that he contends show that
these proceedings involved such a deprivation of
fundamental fairness as to impair his due process
rights. Pl. Mot. at 43-54. Specifically, plaintiff
alleges: (1) pervasive witness tampering; (2)
concealment of exculpatory evidence; (3) the
"obdurate refusal" of the military judge to
acknowledge an obvious UCI; (4) the articulation of
an erroneous legal standard for evaluating UCI; (5)
prejudicial comments during closing arguments; (6)
the charging of a frivolous case; and (7) the existence
of an apparent attempt to prevent review of
plaintiff's UCI claim. Pl. Mot. at 43-53. Plaintiff also
alleges that the Marine Corps and the Navy failed to
give full and fair consideration to his UCI claims
during the post-trial review and Article 69 appeal
process and that the Navy failed to afford him
appellate review by the Navy-Marine Corps Court of
Criminal Appeals. Id. at 54-61. And so, plaintiff
requests that: (1) the Court vacate the
Page 21
findings and sentence of his general court-martial;
(2) placement in retirement status; (3) the correction
of his military records, back pay and other benefits;
or, (4) alternatively, that the Court remand this
motion to the Navy Office of the Judge Advocate
General. Id. at 76; Am. Compl. at Prayer for Relief.
The government counters in its motion for
judgment upon the administrative record that the
Court should deny plaintiff's claims because plaintiff
has not demonstrated that any of the errors alleged
Appx. 43

in this case constitute such a deprivation of
fundamental fairness as to impair his constitutional
due process rights. Def. Mot at 22-38. The
government also argues that plaintiff's request for
reinstatement in the military is non-justiciable and
that plaintiff's claim for back pay must be limited to
the term of his enlistment. Id. at 39-40. And so, the
government requests that the Court deny all of
plaintiff's claims and dismiss this matter. Id. at 40.
It is well-established that this Court weighs
constitutional claims related to plaintiff's challenge
of his general court-martial and post-trial
proceedings with the "limited function" of
determining "whether the military tribunal gave fair
consideration" to each claim. Matias, 923 F.2d at 826
(citing Burns v. Wilson, 346 U.S. 137, 144 (1953));
Matias, 19 Cl. Ct. at 646. In so doing, the Court "does
not have the authority to retry the facts of a
court-martial proceeding nor to act as a reviewing
court of the decision of the court-martial tribunal."
See Flute v. United States, 535 F.2d 624, 626 (Ct. Cl.
1976). And so, plaintiff must show that that the
alleged infirmities during his general court-martial
and post-trial proceedings rise to a constitutional
level for the Court to review his court-martial
sentence and conviction. Id. For the reasons set forth
below, plaintiff makes no such showing in this case.
1. Plaintiff Received Full And Fair
Consideration Of His Motion To Dismiss For
Unlawful Command Influence
As an initial matter, the administrative record
in this matter shows that the Marine Corps gave full
and fair consideration of plaintiff's motion to dismiss

Appx. 44

the general court-martial due to an actual or
apparent UCI. See Matias, 923 F.2d at 826.
In his motion for judgment upon the
administrative record, plaintiff argues that the
presence of UCI during his general court-martial
proceedings constitutes "fundamental errors" in
those proceedings that warrant vacating his
conviction for seven reasons. Pl. Mot. at 43-54.
Specifically, plaintiff argues that: (1) the Marine
Corps engaged in witness tampering; (2) the
Page 22
Marine Corps concealed exculpatory evidence; (3) the
military judge refused to acknowledge an obvious
UCI; (4) the military judge articulated an erroneous
legal standard for UCI; (5) there were prejudicial
comments during the closing arguments; (6) the
Marine Corps filed a frivolous case against plaintiff;
and (7) there was an apparent attempt to prevent
review of plaintiff's UCI claims. Id. But, as shown
below, none of the errors alleged by plaintiff related
to his motion to dismiss for UCI are substantiated by
the evidentiary record in this case. And so, the Court
must deny this claim.
a. Plaintiff Has Not Shown Evidence Of
Witness Tampering
First, plaintiff's claim that the administrative
record "is replete with evidence of witness
tampering" and witnesses "being coerced to testify
falsely against [him]" is belied by the record
evidence. Id. at 45. Plaintiff argues that witness
tampering occurred in connection with his general
court-martial proceedings because two of the
witnesses against him —Staff Sgt. A[* * *] and
Gunnery Sgt. Villegas— "were potential targets of
Appx. 45

[an] obstruction of justice investigation[]." Id.
Plaintiff also argues that Staff Sgt. A[* * *] met with
the Marine Corps SAPR office before making formal
allegations of sexual harassment and obstruction of
justice against plaintiff. Id.
To support these allegations, plaintiff points to,
among other things, the testimony and witness
statements of Staff Sgt. A[* * *] and Gunnery Sgt.
Villegas during the NCIS's investigation of plaintiff's
conduct and during the general court-martial trial.
Id.; see AR Tab 59 at 1246-50 (Staff Sgt. A[* * *]
testimony); AR Tab 85 at 2021-22 (Staff Sgt. A[* * *]
statement to NCIS); AR 85 at 2032 (Gunnery Sgt.
Villegas statement to NCIS). But, plaintiff's
allegations of witness tampering
are not
substantiated by this evidence.
A careful review of the record evidence does not
reveal any evidence to support plaintiff's claim that
the Marine Corps tampered with any of the
witnesses that testified against plaintiff during the
general court-martial proceedings. See AR Tab 52 at
1066-67 (Lance Corporal H[* * *] explaining her
interactions with Sgt. P[* * *] and Staff Sgt. A[* * *]
after the Halloween incident occurred); AR Tab 59 at
1246-50 (Staff Sgt. A[* * *] detailing her
conversations with the SAPR office); AR Tab 155.1 at
3528-30 (SA Norton explaining that Gunnery Sgt.
Villegas was not under investigation for obstruction
of justice). Rather, the witness testimony cited by
plaintiff shows that Staff Sgt. A[* * *] and Gunnery
Sgt. Villegas
Page 23
provided voluntary and truthful statements to NCIS
in connection with the investigation of the sexual
Appx. 46

assault and sexual harassment claims lodged against
plaintiff. See, e.g., AR Tab 85 at 2032; see generally
AR Tab 56.
Plaintiff's allegation that witnesses were
"coerced into testifying falsely against [him]" during
the general court-martial proceedings is also
unsubstantiated. Pl. Mot. at 45. As discussed above,
the United States District Court for the Eastern
District of Louisiana has previously determined that
plaintiff failed to show that any of the witnesses
against him during the general court-martial
proceedings falsely accused him of sexual assault
and sexual harassment. Rieth, 152 F. Supp. 3d at
545. And so, plaintiff has not shown that witness
tampering occurred in connection with his general
court-martial proceedings.
b. Plaintiff Has Not Shown That The
Marine Corps Concealed Exculpatory Evidence
Plaintiff's allegations that the NCIS agents
involved in the investigation that led to his general
court-martial concealed witness statements that
would
have
exonerated
him
is
similarly
unsubstantiated. Pl. Mot. at 46. Specifically, plaintiff
alleges that NCIS SA Jeffrey Norton "falsely
attributed inculpatory statements [regarding the
sexual assault and sexual harassment allegations
against plaintiff] to two . . . witnesses, Jacob Coby
and Jessica Geddies." Id. But, a review of the
statements and trial testimony of these witnesses
shows that Mr. Coby and Ms. Geddies provided
generally consistent testimony regarding whether
they saw plaintiff dancing with one of his accusers.
Compare AR Tab 144.13 at 3055 (SA Norton
interview summary with Mr. Coby) with AR Tab 17.2
Appx. 47

at 421-23 (Summary of Mr. Coby's court-martial
testimony) and AR Tab 64 at 1284 (Mr. Coby's
statement to defense counsel); compare AR Tab
144.14 at 3056 (SA Norton interview summary with
Ms. Geddies), with AR Tab 64 at 1283, (Ms. Geddies'
statement to defense counsel) and AR Tab 17.2 at
434-36 (Summary of Ms. Geddies court-martial
testimony), AR Tab 155.1 at 4057 ("I don't recall
making th[e] statement [that I observed [plaintiff
trying to dance with H[* * *]].").
Plaintiff's claim that the Marine Forces Reserve
prosecutor improperly blocked SA Norton from
re-interviewing another witness —Mr. James
Rieth— regarding certain text messages between
himself and plaintiff similarly lacks evidentiary
support. Pl. Mot. at 46. The record evidence shows
that, during the general court martial proceedings,
SA Norton testified
Page 24
that he was told by a supervisor that it was "not
necessary" for him to re-interview Mr. Rieth
regarding the subject text messages. AR Tab 144.12
at 3040-41; AR Tab 155.1 at 3524-25. But, SA Norton
and the other special agent involved in the NCIS
investigation also testified that they did not feel any
pressure from the Marine Corps to conduct the
investigation in a certain manner. AR Tab 155.1 at
3530, 3535-36.
Plaintiff's claim that the SAPR office prevented
Staff Sgt. A[* * *] from being re-interviewed by NCIS
regarding the text messages between herself and
plaintiff is also unsubstantiated. Pl. Mot. at 46. The
administrative record shows that SA Norton testified
that he did pursue another interview with Staff Sgt.
Appx. 48

A[* * *] because she declined his requests for a
second interview. AR Tab 155.1 at 4070-1 ("If they
declined to be interviewed, they declined to be
interviewed. I mean the Court can order them to
testify."). A review of the witness statements that
plaintiff identifies as being exculpatory and
concealed by the Marine Corps also reveals that
these statements pertain to charges for which
plaintiff was found not guilty.2 AR Tab 1 at 2-4; AR
Tabs 64-65; AR Tab 144.13 at 3055-56. Given this,
the Court finds it difficult to conclude that the
alleged concealment of these statements could have
led to a "fundamental deprivation" of plaintiff's due
process rights. Matias, 923 F.2d at 826. And so,
plaintiff has not shown that the Marine Corps
concealed evidence during his general court-martial
proceedings.
c. Plaintiff Has Not Shown That The
Marine Corps' Case Was Frivolous
The Court is also not persuaded by plaintiff's
argument that his general court-martial involved a
frivolous case. Pl. Mot. at 52-53. In his cross-motion,
plaintiff argues that the reason the sexual assault
and sexual harassment charges brought against him
were dropped by the Marine Corps was to avoid the
consequences of his motion to dismiss for UCI. Id.
But, as the government observes in its motion for
judgment upon the administrative record, the
Marine Corps' decision to drop the sexual assault
and sexual harassment charges brought against
plaintiff was a prosecution decision that fell within
the discretion of the military prosecutor. Def. Resp.
at 17-18 (citing United States v. Argo, 46 M.J. 454,
463 (C.A.A.F 1997)). The record

Appx. 49

Page 25
evidence also makes clear that the case brought
against plaintiff was not frivolous. While plaintiff
correctly observes that he was found not guilty of the
majority of the charges lodged against him during
the general court-martial proceedings, it is
undisputed that plaintiff was convicted of service
discrediting conduct related to comments that he
made at a basketball game and certain text messages
that plaintiff sent to Staff Sgt. A[* * *]. AR Tab 1 at
3-5. Plaintiff was also convicted of attempting to
obstruct justice in connection with the investigation
that led to his general court-martial. Id. And so,
plaintiff simply has not shown that the charges
brought against him were frivolous.
d. The Military Judge Applied The Correct
UCI Legal Standard
Plaintiff's claim that a fundamental error
occurred
during
the
general
court-martial
proceedings because the military judge applied the
wrong legal standard to resolve his motion to dismiss
for UCI is equally unavailing. Pl. Mot. at 47-48. To
support this claim, plaintiff points to the following
statement made by the military judge during the
general court-martial proceedings:
And that whenever I or any court these
days consider UCI motions, we are really
focused on three factors: Was the CA
acting in response to some type of
pressures from superiors and acting with
something other than a completely pure
heart? Of course, that's my language.
That's certainly not case law language.
Secondly, is there any evidence at all that
Appx. 50

access to witnesses has been inhibited or
that witnesses are, because of command
influence, unwilling to testify for or
cooperate with the defense? And, thirdly,
are the members free from bias?
AR Tab 155.1 at 3520; Pl. Mot. at 48.
As plaintiff and the government both
acknowledge, the proper legal standard for
evaluating plaintiff's motion to dismiss for UCI is
that plaintiff must meet an initial showing of UCI
and then the burden shifts to the government to
refute the UCI beyond a reasonable doubt. United
States v. Lewis, 63 M.J. 405, 413 (C.A.A.F. 2006)
(citing United States v. Biagese, 50 M.J. 143, 150-51
(C.A.A.F. 1999)); Def. Resp. at 8-13; see Pl. Mot. at
47-48. And so, to successfully pursue a UCI claim,
plaintiff must show "more than mere 'command
influence in the air' or speculation." United States v.
Harvey, 64 M.J, 13, 18 (C.A.A.F. 2006) (quoting
United States v. Johnson, 54 M.J. 32, 34 (C.A.A.F.
2000)).
Page 26
In this case, the record evidence shows the
military judge correctly applied the aforementioned
legal standard and decided to deny plaintiff's motion
to dismiss for UCI. The military judge determined
that plaintiff "failed to meet the threshold for raising
[the UCI issue], which is. . . more than mere
allegation or speculation under Biagese, 50 M.J. 143,
. . ." AR Tab 155.1 at 3541. And so, the military judge
concluded that "[the] defense has failed to meet their
initial Biagese burden [in this case]" and the military
judge denied plaintiff's motion to dismiss for UCI. Id.

Appx. 51

at 3541-42. The Court finds no legal error in this
decision.
e. The Military Judge Did Not Refuse To
Recognize UCI
Plaintiff's argument that he has been prejudiced
by the military judge's "obdurate refusal" to
acknowledge an actual or apparent UCI in
connection with his general court-martial also lacks
persuasion. Pl. Mot. at 46-47. To support this
argument, plaintiff argues that he presented
"uncontested evidence" of UCI during the general
court-martial proceedings and that the military
judge improperly refused to acknowledge this
evidence. Id. at 47. But, the Court agrees with the
government that plaintiff's claim raises a question of
fact regarding the evidence that was before the
military judge and that such questions of fact cannot
be resolved by this Court. See Matias, 923 F.2d at
826 ("[Q]uestions of fact resolved by military courts
are not subject to collateral attack."); Def. Resp. at
13.
Because the administrative record makes clear
that plaintiff received full and fair consideration of
his motion to dismiss for UCI during the general
court-martial proceedings, the Court will not set
aside his general court-martial sentence and
conviction based upon an alleged or apparent UCI.
Matias, 923 F.2d at 826.
f. Plaintiff Has Not Shown That The
Military Judge Erred During The Closing
Arguments
Plaintiff's claim that fundamental errors
permeated his general court-martial proceedings,
because the military judge made prejudicial
Appx. 52

comments during the closing arguments, is also
unsubstantiated by the record evidence. Pl. Mot. at
48-51. In this regard, plaintiff argues that the
military judge improperly admonished his counsel
for: (1) asserting that witnesses lied to the jury; (2)
making inferences related to certain text messages
between plaintiff and Staff Sgt. A[* * *]; and (3)
arguing plaintiff could not have discredited the
Marine Corps because he was not in uniform. Id.;
Am. Compl. at ¶ 48(i)-(k). But, again, the record
evidence neither supports
Page 27
plaintiff's claims, nor demonstrates that the general
court-martial proceedings were fundamentally
unfair. Most significantly, courts have long
recognized that an "erroneous instruction does not
deprive the accused of a constitutionally fair trial."
See e.g., Herring v. New York, 422 U.S. 853, 862
(1975). And so, to the extent that the military judge
erred in admonishing plaintiff's counsel, these errors
do not constitute a deprivation of plaintiff's due
process rights. It is also well-established that
military judges have "broad discretion" in controlling
the scope of closing summations. Flute, 535 F.2d at
626-27. And so, again, the errors alleged by plaintiff
simply do not rise to the level of rendering his
general court-martial proceedings fundamentally
unfair.3
g. Plaintiff Has Not Shown That The
Marine Corps Attempted To Prevent Review Of
His UCI Claim
Lastly, plaintiff's claim that the Marine Corps
attempted to prevent the review of his UCI claim
during the clemency petition proceedings is equally
Appx. 53

unfounded. Pl. Mot. at 53-54. Plaintiff correctly
observes that the summarized transcript of his
general court-martial proceedings only briefly
mentions his UCI claim and that the record of trial
before the Staff Judge Advocate during the clemency
process did not contain the briefs relevant to his
motion to dismiss for UCI. Id. But, the Military
Rules for Courts-Martial do not require that the
Convening Authority consider the record of trial
before acting on a plaintiff's clemency petition.
R.C.M. 1109(d)(3)(B). And so, the Court agrees with
the government that any errors contained in the
record of trial for the general court-martial
proceedings would not, alone, render the proceedings
related to plaintiff's clemency petition fundamentally
unfair.4 See Def. Mot. at 36.
Indeed, at bottom, the administrative record in
this matter shows that that the errors alleged by
plaintiff related to his motion to dismiss the general
court-martial proceedings for UCI
Page 28
are largely unsubstantiated and that the Marine
Corps and the Navy afforded plaintiff's UCI claim
full and fair consideration. Given this, plaintiff has
not shown that his general court-martial proceedings
were fundamentally unfair due to an actual or
apparent unlawful command influence. And so, the
Court GRANTS the government's motion for
judgment on the administrative record and DENIES
plaintiff's cross-motion for judgment on the
administrative record on this issue.
2. The Other Errors Alleged By Plaintiff Do
Not Show That His General Court-Martial Was
Fundamentally Unfair
Appx. 54

The administrative record also makes clear that
the four remaining errors that plaintiff alleges
occurred
during
his
general
court-martial
proceedings do not show that these proceedings were
fundamentally unfair. Def. Mot. at 25-31; see also
Am. Compl. at ¶¶ 48(a), (c)-(e), (g), (h).
First, while not addressed in plaintiff's
cross-motion for judgment upon the administrative
record, the government persuasively argues that
plaintiff received full and fair consideration of his
motion to suppress evidence regarding certain text
messages between plaintiff and Master Gunnery Sgt.
Thomas. Def. Mot. at 25-27. Plaintiff alleges in the
complaint that the military judge's decision to deny
this motion was a prejudicial ruling. Am. Compl. at ¶
48(a); see also AR Tab 144.8. But, the record evidence
shows that the military judge afforded plaintiff full
and fair consideration of his motion to suppress
evidence
during
the
general
court-martial
proceedings. Notably, the parties to the general
court-martial proceedings fully briefed plaintiff's
motion to suppress evidence and the military judge
held an Article 39(a) hearing on plaintiff's motion
before denying the motion. AR Tab 155.1 at 3589;
Mil. R. Evid. 311(c)(2); see generally AR Tabs 93, 106,
144.8. The Court appreciates that plaintiff disagrees
with the military judge's decision to deny this
motion. But, plaintiff has not shown how he has been
prejudiced by this decision. See generally Pl. Mot.
And so, record evidence does not support plaintiff's
claim. Matias, 923 F.2d at 826.
Plaintiff also has not shown that he has been
prejudiced by the exclusion of certain voir dire
questions related to sexual assault and sexual
harassment during the general court-martial
Appx. 55

proceedings. Am. Compl. at ¶ 48(c); Def. Mot. at 27.
The administrative record substantiates plaintiff's
claim that the military judge excluded some of his
voir dire questions during the general court-martial
proceedings. AR Tab 155.1 at 3611-14. But, the
administrative record
Page 29
also makes clear that the military judge took steps to
ensure that plaintiff was not prejudiced during the
voir dire process. Notably, the record evidence shows
that that the military judge: (1) discussed which voir
dire questions would be allowed with counsel for both
parties; (2) discussed the Marine Corps Heritage
Brief, which addresses the issue of sexual assault
within the Marine Corps, with the prospective
members venire; and (3) also advised the prospective
members venire that plaintiff was "presumed
innocent" despite the sexual nature of the charges
brought against him. Id. at 3611-14, 3637-3639; see
also id. at 3628, 3635, 4159. In addition, the
administrative record makes clear that plaintiff has
been afforded a full and fair opportunity to pursue
his objections to the military judge's decision to
exclude some of his voir dire questions, because
plaintiff raised this claim during his unsuccessful
Article 69(a) appeal. AR Tab 144 at 2806; AR Tab
156 at 4383. Given this, plaintiff has not shown that
the voir dire process during his general court-martial
involved "a clear abuse of discretion." United States
v. Smith, 27 M.J. 25, 28 (C.M.A. 1988) (quoting
United States v. Parker, 19 C.M.R. 400, 406 (C.M.A.
1955)) (emphasis removed) (explaining that courts
have recognized that "wide discretion is vested in
trial judges as to questions which must be answered
by jurors on voir dire.").
Appx. 56

Plaintiff's claim that he has been prejudiced by
the military judge's decision to not admit all of the
text messages between himself and Staff Sgt. A[* * *]
into evidence during the general court-martial
proceedings is equally unavailing. Am. Compl. at ¶
48(d). Even if the military judge erred in this regard,
the "mere error in admitting or excluding evidence
does not make a court-martial constitutionally
unfair." Flute, 535 F.2d at 627. The administrative
record also makes clear that the military judge held
a hearing on this issue and that plaintiff raised an
objection to the exclusion of the subject text
messages in connection with his unsuccessful
clemency petition and Article 69(a) appeal. AR Tab
155.1 at 4016-23; see AR Tab 6 at 20; AR Tab 144 at
2802; AR Tab 156 at 4383. And so, again, the
evidentiary record shows that plaintiff has had a full
and fair opportunity to challenge the exclusion of the
subject text messages and that plaintiff has not
shown that he has been prejudiced by the exclusion
of this evidence.
Lastly, plaintiff's challenges to the exclusion of
the entire text of Staff Sgt. C[* * *] R[* * *]'s request
mast application and to certain comments made by
the military judge during the general court-martial
proceedings are also unfounded. Am. Compl. at ¶
48(e), (g)-(h). As discussed above, even if plaintiff is
correct in arguing that the military judge erred by
Page 30
excluding Staff Sgt. C[* * *] R[* * *]'s request mast
application, such an error does not render plaintiff's
general court-martial proceedings constitutionally
unfair. Flute, 535 F.2d at 627. The record evidence
also shows that plaintiff has had a full and fair
Appx. 57

opportunity to pursue his objection to certain
comments made by the military judge during the
general court-martial proceedings in connection with
his unsuccessful Article 69(a) appeal. AR Tab 145 at
3166; AR Tab 156 at 4383. And so, plaintiff has not
shown that he has been prejudiced by these alleged
errors.5 AR Tab 145 at 3166; AR Tab 156 at 4383.
Because plaintiff has not shown that any of the
aforementioned alleged errors during his general
court-martial
proceeding
constitute
such
a
deprivation of fundamental fairness as to impede his
constitutional due process rights, the Court
GRANTS the government's motion for judgment
upon the administrative record and DENIES
plaintiff's cross-motion for judgment upon the
administrative record with respect to these issues.
Matias, 923 F.2d at 826; RCFC 52.1.
2. Plaintiff Has Not Shown That The
Post-Trial Proceedings Were Fundamentally
Unfair
Lastly, plaintiff also fails to show that the
post-trial proceedings related to his general
court-martial were fundamentally unfair. In his
cross-motion, plaintiff raises several objections to the
post-trial review of his UCI claim and to his general
court-martial sentence and conviction. Pl. Mot. at
53-61; Pl. Reply 10-22. For the reasons discussed
below, the record evidence shows that plaintiff has
had a full and fair opportunity to address these
alleged errors. And so, the Court GRANTS the
government's motion for judgment upon the
administrative record and DENIES plaintiff's
cross-motion for judgment upon the administrative
record regarding these post-trial matters.
Appx. 58

a. Plaintiff Has Not Shown That The
Proceedings Related To His Clemency Petition
Were Fundamentally Unfair
First, plaintiff's claim that the Marine Corps
committed errors during the review of his clemency
petition are largely substantiated by the
administrative record. But, plaintiff argues without
persuasion that these errors caused the clemency
process to be constitutionally unfair.
Page 31
Pl. Mot. at 56. While plaintiff correctly observes that
the Staff Judge Advocate did not have a copy of his
motion to dismiss for UCI during the preparation of
the initial recommendation related to his clemency
petition, the administrative record shows that
plaintiff attached this motion to his clemency
petition and that the Staff Judge Advocate reviewed
the motion in connection with the preparation of the
addendum to that recommendation. AR Tab 6 at
202-287; AR Tab 3 at 10-11. And so, plaintiff has not
shown that the Staff Judge Advocate was unaware
of, or disregarded, the grounds for plaintiff's motion
to dismiss for UCI during the clemency process.
Plaintiff also has not shown that he has been
prejudiced by the Staff Judge Advocate's failure to
timely serve him with copies of the recommendation
and supplemental addendum related to his clemency
petition, as required by R.C.M. 1106(f). Pl. Mot. at
58. Plaintiff correctly observes that the Staff Judge
Advocate did not serve his counsel with a copy of the
recommendation and addendum before sending these
documents to the Convening Authority, as required
by R.C.M. 1106(f).6 AR Tabs 4, 13. But, the record
evidence makes clear that plaintiff was not
Appx. 59

prejudiced by these errors. In this regard, the record
evidence shows that plaintiff was given the
opportunity to review the Staff judge Advocate's
recommendation before submitting his clemency
petition. AR Tab 6. The record evidence also shows
that, after plaintiff submitted his clemency petition,
the Staff Judge Advocate prepared and submitted an
addendum to his recommendation to the Convening
Authority that solely addressed the legal issues
raised by plaintiff in that petition. AR Tab 3. Given
this evidence, the record evidence shows that
plaintiff had the opportunity to review the Staff
Judge Advocate's recommendation and that the
Marine Corps fully and fairly considered his
clemency petition.
Lastly, plaintiff's claim that his right to submit
matters to the Convening Authority "has been
fundamentally violated," because the Staff Judge
Advocate did not have a verbatim transcript of the
general court-martial proceedings during the
preparation of the recommendation and addendum
related to his clemency petition, is equally
unavailing. Pl. Mot. at 56-57; see AR
Page 32
Tab 8. Again, the record evidence substantiates
plaintiff's claim that the Staff Judge Advocate did
not have a verbatim transcript of the general
court-martial proceedings when he prepared the
recommendation and addendum. Pl. Mot. at 56-57;
see AR Tabs 9, 10. But, plaintiff has not shown how
he has been prejudiced by the lack of a verbatim
transcript at that stage of the clemency process.
Notably, the Military Rules for Courts-Martial in
effect at the time that plaintiff submitted his
Appx. 60

clemency petition required the preparation of a
verbatim transcript of court-martial proceedings only
in circumstances where the sentence involves a
confinement for at least six months, or when a
discharge from the military based upon bad conduct
has been adjudged.7 R.C.M. 1103(b)(2)(B) (2012).
But, neither of these circumstances is present here.
Plaintiff received a sentence of 30-days confinement,
a reprimand and a reduction in pay grade. AR Tab 1
at 6. Given this, the Court agrees with the
government that the absence of a verbatim
transcript at the time when the Staff Judge Advocate
prepared the recommendation and addendum related
to plaintiff's clemency petition did not violate R.C.M.
1103 or deprive plaintiff of a full and fair opportunity
to pursue his clemency petition.
b. Plaintiff Received Full And Fair
Consideration Of His Claims During The
Article 69 Appeal
Plaintiff's claim that the proceedings related to
his Article 69(a) appeal were fundamentally unfair
and warrant vacating his sentence and conviction
are also not persuasive. Pl. Mot. at 58-60. Plaintiff's
objection to the Article 69(a) proceedings centers
upon the Navy's decision to supplement the record of
trial for the general court-martial with a verbatim
trial transcript. Id.; Pl. Reply at 14-15. Specifically,
plaintiff argues that the Navy Judge Advocate
Page 33
General violated R.C.M. 1104 by failing to modify or
set aside the general court-martial findings and/or
sentence, and to remand the matter to the
Convening Authority, when the Navy suspended the
review of the summarized record of trial so that the
Appx. 61

record of trial could be supplemented with a
verbatim transcript. Pl. Mot. at 59.
But, as the government explains in its motion
for judgment upon the administrative record, the
Judge Advocate General is afforded broad discretion
in deciding whether to modify and set aside general
court-martial findings, or to remand a matter to the
Convening Authority. Def. Mot. at 38. Specifically,
R.C.M. 1104(d) provides that the Judge Advocate
General "may" set aside a record of trial if it is
incomplete, defective, or otherwise inaccurate and
return it to the Convening Authority. R.C.M.
1104(d). Given the broad discretion afforded to the
Judge Advocate General in this regard, plaintiff has
not shown that the Judge Advocate General violated
R.C.M. 1104 by declining to modify or set aside the
general court-martial findings and to remand the
matter to the Convening Authority in this case.
R.C.M. 1104(d)(1); see also United States v. Mosley,
35 M.J. 693, 695 (N.M.C.M.R. 1992).
Plaintiff's
argument
that
the
Navy's
authentication procedures during his Article 69(a)
appeal violated R.C.M. 1104(d)(2) is also
unconvincing.8 Pl. Mot. at 59-60. Plaintiff argues
that he was not afforded a reasonable opportunity to
review a certificate of correction of the record of trial
prior to the authentication of the supplemented
record of trial for his general court-martial
Page 34
proceedings after the Navy added the verbatim
transcript of the general court-martial proceedings.
Id. at 60. But, the administrative record makes clear
that the Navy afforded plaintiff sufficient time to
review the certificate of correction prior to the
Appx. 62

authentication of the supplemented record of trial.
Specifically, the administrative record shows that
the Office of the Judge Advocate General notified
plaintiff that the Navy was preparing a verbatim
transcript of the general court-martial proceedings
on December 1, 2016. AR Tab 147. Thereafter,
plaintiff received a copy of the verbatim transcript of
the court-martial proceedings on March 29, 2017,
and the Navy afforded plaintiff 15 days-until April
13, 2017-to review the verbatim transcript,
consistent with R.C.M. 1104(d)(2). AR Tabs 152-53.
Given this, the administrative record shows that the
Navy complied with the R.C.M. in authenticating the
supplemented record of trial and that plaintiff
received full and fair consideration of the legal errors
that he alleged occurred during the Article 69(a)
appeal.
c. Plaintiff Has Not Shown That The Judge
Advocate General Erred By Declining To Refer
His Case For Appellate Review
Lastly, plaintiff has not shown that his
post-trial proceedings were fundamentally unfair
because the Navy Judge Advocate General declined
to refer his case for appellate review by the
Navy-Marine Corps Court of Criminal Appeals. Pl.
Mot. at 60-61; Pl. Reply 10-22. The Judge Advocate
General is afforded discretion in determining
whether a case should be referred to the
Navy-Marine Corps Court of Criminal Appeals.
Notably, R.C.M. 1201(b)(1) provides that "[i]f the
Judge Advocate General so directs, the record shall
be reviewed by a Court of Criminal Appeals . . ."
R.C.M. 1201(b)(1) (emphasis supplied); see also 10
U.S.C. § 869(d) (providing that a Court of Criminal
Appeals may only review cases sent to the Court by
Appx. 63

the order of the Judge Advocate General). Plaintiff
points to no evidence in the administrative record to
show that the Judge Advocate General abused that
discretion here. Pl. Mot. at 60-61; Pl. Reply at 17-19.
And so, plaintiff has not shown that the Judge
Advocate General violated R.C.M. 1105, or abused
his discretion in declining to refer plaintiff's case for
appellate review.9
Page 35
C. Relief From The Court's Protective
Order Is Not Warranted
As a final matter, plaintiff has not shown that
he is entitled to relief from the Protective Order
entered in this matter on April 24, 2018.10 In his
motion for relief from protective order, plaintiff seeks
to publicly disclose the identities of several witnesses
who testified against him during his general
court-martial. See generally Pl. Mot. for Relief. In
support of this motion, plaintiff argues that the
Privacy Act and the United States Department of
Defense's ("DoD") SAPR Program do not prohibit the
public disclosure of information about the identities
of these witnesses, because he previously obtained
this
information
during
public
proceedings
associated
with
his
general
court-martial
proceedings. Pl. Mot. for Relief at 12-14. Plaintiff
also argues that the subject witnesses have waived
any protections afforded to them under the Privacy
Act, because plaintiff publicly disclosed their
identities during his district court litigation. Id. at
14-18. And so, plaintiff contends that the public
interest in disclosing this information outweighs the
privacy interests of these witnesses. Id.

Appx. 64

The government counters that the identities of
the subject witnesses and their witness statements
are protected from disclosure under the Privacy Act,
the SAPR Program and applicable DoD regulations.
Def. Opp. to Mot. for Relief at 7-10. The government
also argues that relief from the Court's Protective
Order is not warranted in this case, because plaintiff
has not shown that the redactions to the
administrative record to protect the confidentiality of
this information have prevented him from obtaining
due process in this case, or deprived the public of
needed information. See generally Def. Opp. to Mot.
for Relief.
For the reasons set forth below, plaintiff has not
shown that relief from the Protective Order is
warranted. And so, the Court DENIES plaintiff's
motion for relief from protective order.
First, the government persuasively argues that
the statements of the witnesses at issue are
protected from disclosure under the DoD's SAPR
Program. Def. Opp. to Mot. for Relief at 7-8.
Page 36
The government explains that DoD has covered
reported sexual assault incidents as part of a Privacy
Act "system of records." Def. Opp. to Mot. at 7;
Privacy Act of 1974; System of Records, 80 Fed. Reg.
68,302 (Nov. 4, 2015); see also Sexual Assault
Prevention & Response Program Procedures, DoD
Instruction No. 6495.02, Encl. 4, ¶ 3.b, 4.b(2) (Mar.
28, 2013). Because there is no dispute that the
statements of the subject witnesses are contained in
the DoD SAPR Program reports, the Court agrees
with the government that these witness statements
are subject to the Privacy Act and that the identity of
Appx. 65

the subject witnesses and their statements should
not be publicly disclosed in connection with this
litigation. See 80 Fed. Reg. at 68,302-03.
Plaintiff also has not shown that the release of
information about the identities of the subject
witnesses to him in connection with his general
court-martial proceedings requires that the Court
make this information public in connection with this
litigation. It is undisputed that the Marine Corps
previously released information about the identities
of the subject witnesses to plaintiff in connection
with the preparation of plaintiff's clemency petition.
Def. Opp. to Mot. for Relief at 9; AR Tab 10 at 292
(stating that a summarized report and transcript of
the proceedings will be served on plaintiff); see also
AR Tabs 17-17.5 (summarized report and transcript
of the proceedings). But, plaintiff has not shown that
the prior release of this information for the purpose
of preparing his clemency petition justifies the public
release of this information in connection with this
case. Indeed, as the government observes in its
response and opposition to plaintiff's motion for
relief, the privacy rights of the subject
witnesses—alleged victims of sexual assault and
sexual harassment—weighs heavily in favor of
protecting their identities and statements from
public disclosure. Def. Opp. to Mot. at 8-9.
In addition, plaintiff has not shown how
allowing the Protective Order to remain in place with
respect to the identities of the subject witnesses
would prevent him from obtaining due process in this
case. Pl. Mot. for Relief at 12-14. Pursuant to the
terms of the Court's Protective Order, both plaintiff
and his counsel have access to the identities of the
subject witnesses and to their statements. See
Appx. 66

Protective Order, dated April 23, 2018 at 3. Plaintiff
also fails to identify any public interest that would be
served by publicly disclosing the identities and
statements of these witnesses. Pl. Mot. at 16-18.
Page 37
Indeed, as the government observes in its
opposition to plaintiff's motion for relief, the
Protective Order entered in this case carefully
balances plaintiff's legitimate need to access
confidential information regarding the witnesses
that testified against him during the general
court-martial proceedings, while safeguarding the
government's legitimate need to protect the privacy
rights of these witnesses. Def. Opp. to Mot. at 10-12.
Plaintiff simply has not explained how the public
disclosure of information about the identities of these
witnesses will aid him in the litigation of this
dispute. Nor has plaintiff explained how such a
disclosure would advance the public's understanding
of this case. Given this, plaintiff has not met his
burden to show that relief from the Court's
Protective Order is warranted in this case. And so,
the Court DENIES plaintiff's motion for relief from
protective order.
V. CONCLUSION
In sum, the undisputed material facts in this
matter show that plaintiff is collaterally estopped
from relitigating the issue of whether certain
witnesses conspired to falsely accuse him of sexual
assault and sexual harassment during his general
court-martial proceedings. The administrative record
in this matter also shows that any infirmities during
plaintiff's general court-martial and post-trial
proceedings did not rise to a constitutional level or,
Appx. 67

constitute a proceeding that is more a spectacle on
trial by ordeal. Lastly, plaintiff has not shown that
he is entitled to relief from the Protective Order
entered in this case.
And so, for the foregoing reasons, the Court:
1. GRANTS the government's motion for
summary judgment;
2. GRANTS the government's motion for
judgment upon the administrative record;
3. DENIES plaintiff's cross-motion
judgment upon the administrative record;

for

4. DENIES plaintiff's motion for relief from
protective order; and
5. DISMISSES the complaint.
The Clerk shall enter judgment accordingly.
Each party to bear its own costs.
Page 38
Some of the information contained in this
Memorandum Opinion and Order may be considered
protected information subject to the Protective Order
entered in this matter on April 24, 2018. This
Memorandum Opinion and Order shall therefore be
filed UNDER SEAL. The parties shall review the
Memorandum Opinion and Order to determine
whether, in their view, any information should be
redacted in accordance with the terms of the
Protective Order prior to publication. The parties
shall FILE a joint status report identifying the
information, if any, that they contend should be
redacted, together with an explanation of the basis
for each proposed redaction on or before September
3, 2019.
Appx. 68

IT IS SO ORDERED.
s/ Lydia Kay Griggsby
LYDIA KAY GRIGGSBY
Judge
-------Footnotes:
This Memorandum Opinion and Order was originally
filed under seal on July 26, 2019 (docket entry no. 79). The
parties were given an opportunity to advise the Court of their
views with respect to what information, if any, should be
redacted from the Memorandum Opinion and Order. The
parties filed a joint status report on September 3, 2019 (docket
entry no. 84) proposing certain redactions which the Court has
adopted. And so, the Court is reissuing its Memorandum
Opinion and Order, dated June 21, 2019, with the agreed-upon
redactions indicated by three consecutive asterisks within
brackets ([* * *]).
*.

1. The facts recited in this Memorandum Opinion and
Order are taken from the administrative record ("AR"); the
amended complaint ("Am. Compl."); the government's motion
for judgment upon the administrative record and motion for
summary judgment ("Def. Mot."); and plaintiff's cross-motion
for judgment upon the administrative record ("Pl. Mot.").
Except where otherwise noted, all facts recited herein are
undisputed.

Plaintiff correctly observes that the administrative
record reveals some inconsistencies in the statements given by
Jacob Coby and Jessica Geddies, such as whether or not Ms.
Geddies saw plaintiff and Lance Corporal H[* * *] dancing
together. Compare AR Tab 144.13 at 3055-56, with AR Tabs
64-65. But, the Court does not find these inconsistencies to
show that the Marine Corps tampered with these witnesses.
2.

3. The record evidence shows that the military judge
followed the commentary for the Military Rules for
Courts-Martial in admonishing plaintiff's counsel for asserting
that certain witnesses lied to the jury. The commentary
provides that counsel should not express a personal belief or

Appx. 69

opinion as to the truth or falsity of any testimony. Def. Mot. at
33-34; R.C.M. 919(b) cmt. (2016).
4. While plaintiff also correctly observes that the digital
copy of the record of trial for his general court-martial
proceedings did not contain the briefs related to his motion to
dismiss for UCI, the record evidence shows that these
documents were attached to his clemency petition and
considered by the Convening Authority. Pl. Mot. at 53. Def.
Mot. at 36; see generally AR Tab 6 at 202-287. The record
evidence also shows that the briefs related to plaintiff's motion
to dismiss for UCI were attached to plaintiff's Article 69(a)
appeal. AR Tabs 144-144.11.

At the end of the court-martial, plaintiff acknowledged
that his court-martial was a fair trial. AR Tab 155.1 at 4297 ("I
finally realize that the judicial system is fair . . . the truth came
out this week.").
5.

R.C.M. 1106(f)(1) requires that the Staff Judge Advocate
shall "cause a copy of the recommendation to be served on the
counsel for the accused," before the Staff Judge Advocate's
recommendation and the record of trial is sent to the Convening
Authority. R.C.M. 1106(f)(1). R.C.M 1106(f)(7) requires that the
Staff Judge Advocate serve "the accused and counsel . . . with
the new matter and give[] 10 days from service of the
addendum in which to submit matters." See also R.C.M.
1106(f)(7) discussion.
6.

7.

R.C.M. 1103(b)(2)(B) provides that:
(B) Verbatim transcript required. Except as
otherwise provided in subsection (j) of this rule,
the record of trial shall include a verbatim
transcript of all sessions except sessions closed for
deliberations and voting when:
(i) Any part of the sentence adjudged
exceeds six months confinement,
forfeiture of pay greater than
two-thirds pay per month, or any
forfeiture of pay for more than six
months or other punishments that
may be adjudged by a special
court-martial; or

Appx. 70

(ii) A bad conduct discharge has been
adjudged.
R.C.M. 1103(b)(2)(B) (2012).
8.

R.C.M. 1104(d) provides, in relevant part, that:
(d) Correction of record after authentication;
certificate of correction.
(1) In general. A record of trial found
to be incomplete or defective after
authentication may be corrected to
make it accurate. A record of trial
may be returned to the convening
authority by superior competent
authority for correction under this
rule.
(2) Procedure. An authenticated
record of trial believed to be
incomplete or defective may be
returned to the military judge or
summary
court-martial
for
a
certificate of correction. The military
judge or summary court-martial shall
give notice of the proposed correction
to all parties and permit them to
examine and respond to the proposed
correction before authenticating the
certificate of correction. All parties
shall be given reasonable access to
any original reporter's notes or tapes
of the proceedings.

R.C.M. 1104(d)(1)-(2).
9. Because the Court concludes that plaintiff has not shown
that any of the alleged errors during the general court-martial
and post-trial proceedings constitute such a deprivation of
fundamental fairness as to impair his constitutional due
process rights, the Court does not reach the remaining issues
raised in the government's motion for judgment upon the
administrative record.

Appx. 71

The Court's Protective Order provides that the Court
has "determined that certain information to be filed in
connection with the Military Pay Act matter may be covered by
the Privacy Act, 5 U.S.C. § 552a." Protective Order at 1. The
Court has authorized the government to disclose this
information to plaintiff and his counsel in connection with this
litigation, subject to certain restrictions, including that the
information be used solely for purpose of this litigation. Id. at 3.
10.

--------

Appx. 72

[APPENDIX E: Excerpts of Petitioner’s Cross
Motion and Memoranda in Opposition to
Motions filed with the United States Court of
Federal Claims in the Proceedings Below]
[Fed. Cir. Appx140]
UNITED STATES COURT OF FEDERAL
CLAIMS
LUKE T. WEST

*
*
Plaintiff
*
*
Versus
*
*
UNITED STATES OF *
AMERICA
*
*
Defendant
*
*
****************

DOCKET NO.:
cv-02052

1:17-

SECTION: “C”
JUDGE: Lydia Kay
Griggsby

PLAINTIFF’S CROSS MOTION FOR
JUDGMENT ON THE ADMINISTRATIVE
RECORD; MEMORANDUM IN OPPOSITION
TO DEFENDANT’S MOTION FOR JUDGMENT
ON THE ADMINISTRATIVE RECORD;
ALTERNATIVE MOTION FOR REMAND
PURSUANT TO 28 U.S.C. § 1491(A)(2);
MEMORANDUM IN OPPOSITION TO
DEFENDANT’S MOTION FOR SUMMARY
JUDGMENT
MAY IT PLEASE THE COURT:
Appx. 73

Plaintiff, Luke T. West, (hereinafter,
“plaintiff” or “Mr. West”) submits this Cross Motion
for Judgment on the Administrative Record
Pursuant to RCFC 52.1, averring that the
Administrative Record in this Matter establishes
that plaintiff’s general court martial conviction
should be vacated as per the principles established in
the case of Matias v. United States, 923 F.2d 831
(Fed. Cir. 1990). Similarly, this Cross Motion also
serves as a Memorandum in Opposition to the
Motion for Judgment on the Administrative Record
filed by the defendant, the United States of America
(“the defendant” or “the Government”), which asserts
that said Administrative Record shows that the
plaintiff’s general court martial conviction should be
upheld under Matias. In the alternative, should this
Court find that the Administrative Record does not
sufficiently establish plaintiff’s general court martial
conviction should be vacated, plaintiff avers that the
Administrative Record is sufficient to establish a
basis for this Court to exercise its power of remand,
pursuant to 28 U.S.C. § 1491(a)(2), to the Office of
the Judge
[Fed. Cir. Appx141]
Advocate General for the United States Navy
(“OJAG USN”) with further direction to OJAG USN
to refer review of plaintiff’s general court martial
conviction to the Navy Marine Corps Court of
Criminal Appeals (“NMCCA”) pursuant to 10 U.S.C.
§ 869(d)(2) and to provide any and all further relief to
which plaintiff may be entitled as a result of said
referral and pending said review.
Additionally,
plaintiff
submits
this
Memorandum in Opposition to the Motion for
Appx. 74

Summary
Judgment
of
the
Government.
Specifically, the Government asserts that it is
entitled to a motion for summary judgment on the
issue of whether plaintiff’s accusers in his underlying
general court martial “conspired to falsely accuse
him of sexual assault and sexual harassment”, due to
the purported preclusive effects of a December 22,
2015 ruling in the case of West v. Rieth, et al., 15-cv2512 (E.D. La. 7/12/16). For the reasons more fully
discussed below, the Government’s Motion for
Summary Judgment should likewise be denied.
STATEMENT OF THE ISSUES
(1)
Is plaintiff entitled to judgment on the
Administrative Record vacating his general court
martial conviction vacated under the principles
established in the case of Matias v. United States,
923 F.2d 831 (Fed. Cir. 1990)?
(2)
Is the Government entitled to a judgment on
the Administrative Record upholding plaintiff’s
general court martial conviction under the principles
established in the case of Matias v. United States,
923 F.2d 831 (Fed. Cir. 1990)?
(3)
In the alternative, is plaintiff entitled to
remand by this Court, pursuant to its authority
under 28 U.S.C. §1491(a)(2) of his general court
martial conviction to OJAG USN with further
direction to OJAG USN to refer said review of said
general court martial conviction to the NMCCA
under 10 U.S.C. §869?
[Fed. Cir. Appx142]
(4)
Is plaintiff estopped from raising the issue of
whether his accusers in his general court martial
Appx. 75

conspired to falsely accuse plaintiff of sexual assault
and sexual harassment under the doctrine of Issue
Preclusion (Collateral Estoppel) by virtue of a
December 22, 2015 ruling in the case of West v.
Rieth, et al., 15-cv-2512 (E.D. La. 7/12/16)?
STATEMENT OF THE CASE
On May 5, 2017, plaintiff initially filed this
suit for collateral review, pursuant to the United
States Supreme Court case of Schlesinger v.
Councilman, 420 U.S. 738, 753 95 S. Ct. 1300 (1975),
of his November 21, 2014 general court martial
conviction in the case of United States v. West, which
case was transferred to this Court and converted into
a Tucker Act claim for wrongful discharge from the
United States Marine Corps resulting from said
wrongful conviction.
Plaintiff’s general court martial at issue in
this case occurred within the context of a coordinated
leveling of false allegations of sexual assault by
several individuals against the plaintiff while
plaintiff was an active duty Marine stationed at
Marine Forces Reserves (“MFR”) in New Orleans,
Louisiana. The coordinated false allegations of the
accusers were designed to take general advantage of
the political climate surrounding the handling of
such allegations in the military and specific
advantage of certain benefits under the Department
of Defense (DoD) and Marine Corps (USMC) Sexual
Assault Prevention and Response (SAPR) Program
(collectively referred to as “DoD/USMC SAPR
Program”) and the Marine Corps Equal Opportunity
(EO) Program. Despite the overwhelming evidence
of the baseless nature of the allegations, motives and
opportunities to make such false allegations;
Appx. 76

accusers’ allegations received virtually no scrutiny
and resulted in a general court martial being
convened against plaintiff, due in large part to the
continued pervasive and wrongful influence exerted
by MFR SAPR Office personnel over
[Fed. Cir. Appx143]
the investigation of Naval Criminal Investigative
Services (“NCIS”) and over military prosecutors.
That notwithstanding, plaintiff was acquitted of all
charges stemming from the false allegations of
sexual assault.
However, plaintiff was wrongfully convicted of
other non-sexual assault/sexual harassment charges.
Specifically, plaintiff was convicted of the charges of
violation of Article 81, Conspiracy to Obstruct
Justice; Article 93, Maltreatment; Article 134
(Obstructing Justice); and Article 134 (Indecent
language). AR at 1-6. As a result of this wrongful
prosecution, which spanned from June 2013 through
November 2014, plaintiff was reduced in rank to
Lance Corporal, incarcerated for 30 days and was
prevented from re-enlisting in the Marine Corps. AR
at 6. Plaintiff was discharged from the Marine Corps
in March of 2015 with a general under honorable
conditions characterization of service.
Subsequent to plaintiff’s conviction on
November 21, 2014; plaintiff’s general court martial
has undergone post trial review under Rules for
Courts Martial (RCM) 1101, et seq. and U.C.M.J.
Article 69.
On March 5, 2015, the Convening
Authority for MFR approved the findings and
sentence of the general court martial. AR at 1-9. On
December 1, 2016, the Office of the Judge Advocate
General for the United States Navy (OJAG USN)
Appx. 77

specifically found that it could not make a
determination as to the legal sufficiency of the record
of trial (ROT) of plaintiff’s general court martial
without a verbatim transcript of the proceedings. AR
at 3216. Subsequent to that time, a verbatim
transcript of plaintiff’s general court martial was
prepared and provided to plaintiff on March 29,
2017. AR at 3451. On June 9, 2017, after failing to
follow any semblance of proper procedure regarding
supplementation of plaintiff’s ROT, OJAG USN
summarily supplemented plaintiff’s ROT and
affirmed the findings and sentence of plaintiff’s
general court martial based on the purported ROT at
that time. AR at 3448-55, 4383.
[Fed. Cir. Appx144]
Plaintiff, in the initial collateral review filed in the
Eastern District of Louisiana and in this pending
action, has specifically challenged the wrongfulness
of his conviction at general court martial, the MFR
Convening Authority’s post trial review under RCM
1101, et seq. and the OJAG USN appellate review
under U.C.M.J. Article 69.
Within the complaint in this matter, plaintiff
has alleged that his general court martial
proceedings were tainted by numerous and pervasive
acts of unlawful command influence in violation of
U.C.M.J. Article 37 and settled military law, which
required that the proceedings be “cured” from the
effects of such unlawful command influence. These
alleged and asserted pervasive acts include, but are
not limited to coordinated false allegations of sexual
assault, facilitation and coercion of allegations of
sexual assault and sexual harassment, which
directly resulted in the wrongful preferral and
Appx. 78

referral of charges, and the conduct of a general
court martial, in violation of plaintiff’s rights of Due
Process under the U.S. Constitution.
These
pervasive instances specifically included witness
intimidation and tampering by NCIS and MFR
SAPR Office personnel; agents from NCIS being
wrongfully prevented from questioning witnesses
and being pressured to credit the veracity of the
sexual assault accusations.
As specifically
acknowledged by the Government, these issues of
unlawful command influence were raised to the trial
court, but were not, in any way, remediated.
A)

Context:
the Marine Corps Sexual
Assault Prevention and Response
Program:

As the plaintiff’s general court martial was
prosecuted within the context of the “DoD/USMC
SAPR Program”, a brief synopsis of the SAPR
Program is appropriate here. For the past few years,
considerable public interest has emerged regarding
the substantial problem with instances of unreported
sexual assault, creating a particularly highly charged
environment surrounding such cases. AR at 28142870. In an effort to address this problem, the
Department
[Fed. Cir. Appx145]
of Defense, as well as the various services, including
the United States Marine Corps, have implemented
various policies and procedures for addressing,
processing, and prosecuting instances of accusations
of sexual assault in the military.
Id.
These
particular policies are DoDI 6495.02 and MCO
Appx. 79

1752.5B, which are titled “Sexual Assault Prevention
and Response Procedures” and “Sexual Assault
Prevention and Response Program”, respectively (the
“SAPR Program”). AR at 759-837, 1570-1734. Both
DoDI 6495.02 and MCO 1752.5B are comprehensive
in that they explain the reporting options for
accusers, which includes a confidential (or
restrictive) or non-confidential (unrestrictive) report;
the types of command support and assistance
available for accusers, such as having a military
protective order placed on the accused and the
granting of an expedited transfer for the accuser; and
discusses the responsibilities of the commanders, and
the prosecution of such cases. Id.
As with the specific duties of the commanding
officer, both DoDI 6495.02 and MCO 1752.5B provide
for various means of assisting the accusers in cases
where accusers make unrestrictive reports of sexual
assault. AR at 1664-1675. A significant means of
assistance provided by the SAPR program is the
expedited transfer process. AR at 1672-75. The
expedited transfer process, which is explained in
enclosure 5 of DoDI 6495.02 and MCO 1752.5B,
enclosure 1, Chapter 3(9), allows for an accuser who
files an unrestricted report of sexual assault to
request a transfer to another unit or another section
within a unit, and to have that request be
determined by the commanding officer within 72
hours of receipt of the request by the commanding
officer. Id.
In addition to establishing policies and
procedures, the SAPR Program designates various
civilian and uniformed personnel to administer the
SAPR Program. At the unit level, the SAPR program
personnel include the “Sexual Assault Response
Coordinator” (“SARC”), civilian
Appx. 80

[Fed. Cir. Appx146]
“Victim Advocates” (“SAPR VA”), and “Uniformed
Victim Advocates” (“SAPR UVA”) (collectively, the
“SAPR Office personnel”). AR at 1679-87, 1690-95.
Specifically, the SAPR Program provides that each
sexual assault accuser is assigned a VA or UVA who
then provides assistance in all areas of the reporting
process, which assistance also includes assistance
regarding the legal process taken against an alleged
offender. Id.
Pertaining to prosecutions of unrestricted
reports of sexual assault, The DoD Instruction and
the MCO also make various pronouncements with
regards to the duties of SARCs and VAs working
within the SAPR Program and provide these
individuals with unprecedented access to the details
and conduct of any criminal sexual assault
investigation conducted by NCIS. In particular, the
DoD and MFR SAPR Programs require monthly
meetings, known as “Case Management Group”
meetings, between the SARCs, members of the
command leadership, command legal personnel
(SJA), and NCIS, where all active unrestricted
reports of sexual assault are discussed and briefed.
AR at 1688-89. The discussion includes the status of
investigations and are attended by VAs assigned to
individual accusers. Id. Finally, communications
between purported victims of sexual assault and VAs
are considered privileged communications and are
not subject to disclosure under Military Rules of
Evidence Rule 514. M.R.E. 514.
B)

Plaintiff’s General
Conviction:

Court

Martial
Appx. 81

On June 20, 2013, Ms. R[******] A[****] (“Ms.
A[****]”) accused plaintiff of sexual harassment,
alleging that she was made “uncomfortable” around
him and felt “scared” by him. AR at 411, 414, 498501. In her allegations, she referred to two specific
alleged incidents: (1) a text message conversation on
16 January 2013 in which sexually suggestive
comments were
[Fed. Cir. Appx147]
made; and (2) a sexually suggestive, but
ambiguous comment made at an off duty event
(attendance at a professional basketball game) on 27
March 2013. AR at 500.
Prior to the allegations, Ms. A[****] was
actually (or seemingly to plaintiff) a close personal
friend of plaintiff, as indicated by daily text message
communications between them, which were 140
pages in length, detailing almost daily interactions
between Plaintiff and Ms. A[****] that included the
timeframes of both purported comments. SAR at 2:12:140.
The entirety of the text message
conversations, both specifically and generally, clearly
demonstrate that the purported comments had no
impact whatsoever; that Ms. A[****] was not, in any
way, “scared” by plaintiff; and that any accusation of
harassment, intimidation or “maltreatment” of Ms.
A[****] by plaintiff was completely and utterly false.
See, e.g., SAR at 2:3, 2:102, 2:116, 2:123-25, 2:129-30,
2:139-40.
The convictions for obstructing justice and
conspiracy to obstruct justice stemmed from
plaintiff’s attempt on February 20, 2014, with the
assistance of MGySgt Larry Thomas (“Mr. Thomas”),
Appx. 82

a former supervisor and mentor to both plaintiff and
Ms. A[****], to confront Ms. A[****] with an accurate
copy of the 140 pages of text message conversations
between defendant Ms. A[****] and plaintiff. AR at
416, 424, 426, 1240, 1246, 3917-19, 3932.
The
evidence in this matter was uncontroverted that this
was done in an effort to discourage Ms. A[****] from
committing what could unquestionably be considered
as perjury by testifying consistent with her
harassment allegations. Id. On November 21, 2014,
plaintiff was convicted of the charges of violation of
Article 81, Conspiracy to Obstruct Justice; Article 93,
Maltreatment (specification as to defendant A[****]
only); Article 134 (Obstructing Justice); and Article
134
(Indecent
language)(specification
as
to
Defendant A[****] only). AR at 1-7. As a result of
this wrongful prosecution, which spanned from
[Fed. Cir. Appx148]
June 2013 through November 2014, plaintiff was
reduced in rank to Lance Corporal, incarcerated for
30 days and was prevented from re-enlisting in the
Marine Corps. Id.
Of considerable significance is that, at no time
during this process, did Ms. A[****] did make an
allegation of sexual assault under the SAPR
Program, nor was she considered a “victim” under
the SAPR program, nor did she obtain the services of
a VA under the SAPR Program. AR at 415, 438,
1155-56, 1247.
C)

Conjoined Sexual Assault Prosecution
and Context:

Appx. 83

In conjunction with the allegations of Ms.
A[****], on June 20 and 21, 2013, three other
accusers, Ms. C[*****] R[****] (“Ms. R[****]”), Ms.
E[***] P[******] (“Ms. P[******]”), and Ms. B[******]
H[*****] (“Ms. H[*****]”), filed unrestricted reports
of sexual assault under the SAPR Program against
plaintiff. AR at 489-94. These accusers also filed
equal opportunity complaints and requests masts
applications against plaintiff. AR at 495-97, 755-58,
838-842.
The allegations of Ms. R[****] and Ms.
P[******] involved two separate alleged incidents
occurring at the same event, the 2011 MFR Marine
Corps Ball. Ms. R[****] alleged that plaintiff had
sexually assaulted her at the November of 2011
Marine Corps Ball by massaging her thigh at the
leadership table, during dinner, for approximately 2
minutes while nine other individuals, including her
husband, sat at the table. AR at 399-401, 406, 106971. Ms. P[******] alleged that plaintiff sexually
assaulted her by grabbing her and attempting to kiss
her in two specific instances, first in the hallway of a
hotel and then in a hotel bathroom at the 2011 MFR
Ball. AR at 392-94, 1051-58.
LCpl H[*****]’s allegation involved a
Halloween party, held in late October 2012
exclusively held for Staff Non-Commissioned Officers
(SNCOs) and Civilian Employees within the Finance
Section which she and two other junior Marines
attended without permission. AR at
[Fed. Cir. Appx149]
386-88, 1062-68.
During the party, Ms. H[*****]
had danced briefly with plaintiff, and had also later
danced with other SNCOs at the party. Id. The
Appx. 84

incident was of note to the Finance Office leadership
based on the respective ranks of plaintiff and Ms.
H[*****], though Ms. H[*****] did not raise any issue
with the incident until meeting with the other
accusers just prior to 20 June 2013. AR at 441. This
notwithstanding, Ms. H[*****] specifically accused
plaintiff of “rubbing his genitals” on her leg while
dancing. AR at 387, 1063-64. Ms. H[*****] also
alleged that plaintiff, along with “another SNCO
[Staff Non Commissioned Officer”] coerced her not to
come forward with her allegations, whom she later
identified as GySgt Cesar Villegas (“Mr. Villegas”).
AR at 840, 1066-67.
At the outset, the allegations of the sexual
assault accusers, made on 20-21 June 2013 were were
clearly suspicious. First, the allegations of the sexual
assault accusers were involved public places with
many potential witnesses.
However, with the
exception of Ms. A[****] “corroborating” the
accusations of Ms. P[******], none of the other
allegations were corroborated by any other witnesses.1
See AR at 399-401, 406, 422, 431, 435-36, 442, 106971, 1114-18, 1160, 1280-84, 1746-47.
Second, all three sexual assault accusers had
conspicuous personal motives to make false
accusations against plaintiff. On April 17, 2013, Ms.
P[******] had made a request for a PCS transfer from
Ms. A[****] attempted to corroborate the allegation of Ms.
P[******]. However, P[******] and A[****] failed to properly
coordinate their stories prior to Ms. A[****] providing her
statement to NCIS. Ms. A[****]’s version contained a material
inconsistency in that she stated that, while she witnesses the
assault in the hotel bathroom, she did not witness the assault
in the hallway despite physically being in the hallway with
plaintiff and Ms. P[******]. Compare AR at 1051-58, 1079-81,
1111-13, with AR at 1059-62, 1159-60.
1

Appx. 85

MFR. AR at 395, 502-504, 2010-13. Her request for
PCS transfer was denied by MFR on May 8, 2013, just
over one month prior to her sexual assault allegations.
AR at 395-96, 504, 489-90, 1134-36, 2012-13.
Coincidently, in conjunction with her unrestricted
report of sexual assault,
[Fed. Cir. Appx150]
Ms. Parrot also made a request for an expedited PCS
transfer under the SAPR program on June 21, 2013,
which was granted. AR at 397, 489-90, 505-06, 113436. Likewise, Ms. H[*****] had stated in her request
mast a litany of problems, completely unrelated to her
sexual assault allegations, that she had with the
finance office and used her sexual assault allegation to
successfully acquire a transfer to another section of
MFR under the expedited transfer process of the
SAPR program. AR at 390, 838-42, 860.
Ms. R[****], likewise, (in a particularly striking
Request Mast Application) unequivocally stated her
displeasure (unrelated to her sexual assault
allegations) with “being treated unfairly” and being
“micromanaged” and “put down” by both GySgt West
and his supervisor, MSgt, now Mr. Jorge Janneau
(“Mr. Janneau”). AR at 755-58. This notwithstanding,
she admitted to seeking Mr. West’s assistance with
physical training in preparation for Warrant Officer
Basic School and further admitted to working out with
GySgt West 2-3 times per week for several months,
without incident, immediately prior to her making her
June 2013 allegations. AR at 402, 1224. Not wanting
a transfer under the expedited transfer process of the
SAPR program, Ms. R[****] leveraged her sexual
assault allegation with a request mast application in
which she successfully had both plaintiff and Mr.
Appx. 86

Janneau removed from the Finance Office. AR at 402,
756.
Third, the sexual assault accusers, R[****],
P[******] and H[*****], admitted to having multiple
meetings amongst themselves, prior to coordinating
their June 20 and 21 reports of sexual assault. AR at
388, 390, 395, 403, 1055, 1070-71.
Significantly,
Ms. A[****] was also present at these meetings, after
which she made her sexual harassment claims
against plaintiff, as well as attempted to corroborate
Ms. P[******]’s sexual assault allegations. Id. Also
of significance is that, in addition to showing the true
nature of the relationship between Ms. A[****] and
Mr. West, the 140 pages of text messages also
indicates that Ms. A[****] involvement as potentially
the other
[Fed. Cir. Appx151]
“SNCO” in the meeting with Ms. H[*****] and Mr.
West where she alleges that she was coerced into not
reporting the alleged sexual assault at the October
2012 Halloween party (potentially exposing Ms.
A[****] to criminal liability). SAR at 2:125.
Finally, and most significantly, is the context
in which the MFR SAPR Office was involved with
Ms. A[****], who, again, did not make a sexual
assault report and was not considered a victim under
the SAPR Program, in Mr. West’s court martial
process. AR at 415, 438, 1155-56, 1246-47. First of
all, SAPR personnel were in attendance at the preaccusation meetings between Ms. R[****], Ms.
P[******], and Ms. H[*****]. AR at 395, 403. Ms.
A[****], also, was in attendance at those meetings
despite specifically not making any report of sexual
assault and not being considered a “victim” under the
Appx. 87

SAPR Program. Compare AR at 1155-58, with AR at
388, 390, 395, 403. More significantly, just prior to
the initiation of the obstructing justice investigation
against plaintiff, Ms. A[****] had two separate
meetings with SAPR personnel in the MFR SAPR
Office, one meeting on February 21, 2014 and again
on February 24, 2014, prior to Ms. A[****] meeting
with NCIS on November 26, 2014 to report the
purported instance of obstructing justice. AR at
1246-50, 1452, 2021-22.
A particularly stark illustration of the false
allegations is the comparison between the October
23, 2013 statement of Mr. James R[****], the
husband of Ms. R[****], and the text messages
between Mr. R[****] and plaintiff. In his October 23,
2013 statement, Mr. James R[****], like the other
individuals at the table, did not observed the alleged
sexual assault, despite being seated at the table right
next to Ms. R[****]. He further stated as follows:
The morning of Nov 6 my wife informed
me that (at the time) SSgt West had
touched her leg last night, under the
table, inappropriately.
She then
proceeded to inform me that he was
groping and fondling her leg under the
table while we were sitting with SSgt
West, his date, she also had informed
me that she was sorry for not telling me
this sooner, but she was scared and felt
[Fed. Cir. Appx152]
alone because no one was ever there for
her before and she felt no one would
ever believe her.
Appx. 88

AR at 1072.
This statement is flatly contradicted by the
text message conversations between Mr. R[****] and
plaintiff which commence on 27 May 2012 and
continue through 22 May 2013. While the entirety of
the text message are ipse dixit regarding the
inconsistency of a man who would communicate with
another man he knew had sexually assaulted his
wife; the initial 27 May 2012 text (6 months after
learning of the alleged sexual assault against his
wife) is very telling:
James R[****]: Hey Luke, its James.
C[*****]’s water just broke and I am
taking her in. We are packing up stuff
now. I will keep u informed. As soon as
I know more like room number and all I
will call u or text u. Be blessed James
James R[****]: [*******] [***] R[****]
is here. 803am. 7lb 14oz. Everyone is
great.
Hey bud. This is James. We are at
west Jefferson. They are moving us to
3111 on the third floor. Just letting u
know.
SAR at 1:1:192.2
D)

The Investigation Interference and
Bias:

2 Defense Exhibit “N”, within which this message is contained,
appears to be missing from the Administrative Record.

Appx. 89

As required by the MCO SAPR Program and
the EO Program, MFR HQBn referred the
investigation of the sexual assault reports to Naval
Criminal Investigative Services (“NCIS”). The NCIS
investigation was referred to SA Jeffrey Norton. AR
at 437. In addition, pursuant to the EOM, on 9 July
2013, the MFR HQBN CO appointed the 4th Marine
Logistics Group (MLG) Deputy SJA to conduct a
command investigation into the sexual harassment
claims of the four accusers against GySgt West. AR
at 1753. Ms. P[******]’s previous attempted and
denied PCS transfer, her successful expedited
transfer under the SAPR Program, both Request
Mast
[Fed. Cir. Appx153]
Applications of Ms. R[****] and Ms. H[*****]; were
all available to both the NCIS and command
investigators at the outset of their investigations.
On November 6, 2013 and again on January
10, 2014, Mr. West’s defense team provided NCIS
with a complete copy of the 140 pages of text
messages between Mr. West and Ms. A[****], as well
as a complete copy of the text messages between Mr.
West and Mr. R[****], starting with Mr. R[****]’s
announcement to “Luke” of the birth of his and Ms.
R[****]’s child approximately six months after the
alleged
assault
and
otherwise
completely
contradicting Mr. R[****]’s October 24, 2013
statement to NCIS. AR at 2023, 3089, 3483-85.
Throughout December 2013 and January
2014, the Defense obtained statements from four
witnesses contradicting LCpl H[*****]’s testimony as
to what allegedly occurred at the Halloween party in
Appx. 90

October 2012. These statements were, likewise,
provided to the prosecutor at MFR on February 6,
2014. AR at 1280-84, 2026.
Despite the receipt of these exculpatory items,
NCIS did absolutely no follow up investigation on
these items.
Instead, NCIS admitted to the
following. First, NCIS Special Agent Jeffrey Norton
admitted to conducting what could be characterized
as an obstructing justice investigation against GySgt
Cesar Villegas, a SNCO initially accused by Ms.
H[*****] of participating with plaintiff to prevent her
from making her allegations. AR at 2032, 3528.
This investigation took place on January 22, 2014, on
or shortly after defense counsel was seen obtaining
the exculpatory statements from several witnesses at
the Halloween party that Ms. H[*****] claimed she
was assaulted. AR at 1280-84, 1452. SA Norton’s
actions towards Mr. Villegas are particularly
suspicious in light of the fact that two of the
witnesses from which statements were taken at that
time were Mr. Jacob Coby and Ms. Jessica Geddies,
to whom SA
[Fed. Cir. Appx154]
Norton
had
falsely
attributed
inculpatory
statements in his investigation in September of 2013.
Compare, AR at 3055, 3056, with 421-22, 434-36,
1283-84, 4057-60.
Second, NCIS Special Agent Jeffrey Norton,
the lead investigator on plaintiff’s case, admitted in
testimony on February 19, 2014 that, in general, he
felt outside pressure to unduly assign credibility to
the statement of sexual assault accusers, and that
pressure materially impacted his ability to conduct
his investigation. AR at 3029-31.
Appx. 91

SA Norton’s testimony was not limited to
vague generalizations, as he further testified that he
was specifically instructed, by the MFR SJA’s Office,
that investigation of evidence materially favorable to
the plaintiff (the conflicting October 24, 2013
statement and text messages of Mr. James R[****])
was “not necessary”. AR at 3040-41, 3524-25. SA
Norton’s admissions, beyond general interference in
his investigation to the plaintiff’s detriment,
constitutes a which, at a minimum constitutes a
potential violation of the SAPR Program (Chapter
3(3)(a) of Enclosure (1) to MCO 1752.5B).3
[Fed. Cir. Appx155]

MCO 1752.5B, Enclosure 1, Chapter 3, Paragraph 3(a),
provides, in pertinent part:
3

All CGs [commanding generals] and COs
[commanding officers] shall immediately report
all Unrestricted Reports of sexual assault to
NCIS or the supporting Military Criminal
Investigative Organization (MCIO) per reference
(a) [the DoD SAPR Program, designated as DoD
Instruction 6495.02]. This includes assaults
disclosed directly by victims or by third parties,
even if a Restricted Report of the assault has
been filed. Commanders will not conduct an
independent command inquiry or investigation
of an alleged sexual assault. After a formal
criminal investigation and consultation with
SJA, the SA-IDA (SPMCA in the grade of O-6 or
higher)[the Commander of MFR in this
instance] shall determine the disposition of the
incident.
Disposition information shall be
provided to the SARC [sexual assault response
coordinator].
AR at 785 (emphasis added).

Appx. 92

Finally, SA Norton admitted that he himself
had attempted to do the very thing for which plaintiff
ultimately was tried and convicted: confront Ms.
A[****] with a copy of the text message conversations
between herself and plaintiff.
In testifying to
multiple attempts, he testified that his latest
attempt was prevented by Ms. A[****]’s “victim
advocate” (who, again, was not supposed to be
involved because Ms. A[****] was not a sexual
assault “victim” under the MFR SAPR Program).
Compare, AR at AR at 415, 438, 1247, with AR at
4070.
E)

Pre Trial Procedure:
Referral:

Preferral and

On October 16, 2013, charges were initially
preferred against plaintiff.
AR at 343-48.
In
preferring charges, among the allegations made were
that plaintiff “wrongfully massaging the leg” of Ms.
R[****] “from her knee to her groin”; that plaintiff
“rubb[ed] his genitalia on” Ms. H[*****]’s leg; and
that plaintiff “ma[de] repeated sexually suggestive
comments” to Ms. A[****]. Id. Based on those
allegations, the government preferred the following
charges: violations of Article 92, Violation of a
Lawful
General
Order
(Navy
Regulations
Paragraphs 1165 prohibiting fraternization and 1166
prohibiting sexual harassment); Article 93,
Maltreatment of a Subordinate; Article 120, Sexual
Assault; Article 128, Assault; Article 129, Burglary;
Article 134, General Articles, (Indecent Language).
Id.
Charges were referred to general court martial
(West I) on December 23, 2013. Id. MFR withdrew
Appx. 93

and dismissed the charges on April 23, 2014. AR at
349. Without changing any of the charges with
respect to the accusers, R[****], P[******], H[*****]
and A[****], MFR re-preferred charges on May 13,
2013 to accommodate additional charges of violations
of UCMJ Articles 134 (Obstructing Justice) and
Article 81, Conspiracy to commit a violation of UCMJ
Article 134 (Obstructing Justice), against plaintiff for
his and MGySgt Thomas’ actions of providing Ms.
A[****] with accurate copies of her text message
conversations with GySgt West. AR at 370-76.
[Fed. Cir. Appx156]
Charges were re-referred to general court
martial (West II)on August 21, 2014, though the
government deleted all charges and specifications of
violations of Article 120, as well as all specifications
of violations of Article 92 as they related to violations
of Paragraph 1166 of U.S. Navy Regulations
involving prohibited Sexual Harassment. AR at 32224, 370-76. Strikingly, MFR did not delete the
factual allegations that initially supported the
preferred Article 120, Sexual Assault or Article 92,
Violation of Lawful General Orders (Navy
Regulations Paragraph 1166 prohibiting sexual
harassment). Id.
F)

Unlawful Command Influence Motion:

On September 12, 2014, plaintiff filed his
Motion to Dismiss for Unlawful Command Influence
(“UCI”). The plaintiff’s UCI motion focused on the
political environment that created pressure to obtain
a conviction for sexual assault, a detailed description
of the DoD/MCO SAPR Program and the abuse of
Appx. 94

same by the accusers, as well as several instances of
NCIS and MFR actively concealing or directing to be
concealed evidence that indicated that the
allegations in the plaintiff’s case were false and were
made with the intent to abuse the SAPR process for
the personal gain of the accusers. AR at 2800-01,
2922-2967.
In response, the Government attempted to
argue that because it had not charged any violations
of Article 120, Sexual Assault, the case against
plaintiff was not a “sexual assault case” and none of
the political environment concerns were relevant.
AR at 2987-92.
Additionally, the Government
argued that the evidence of wrongful manipulation of
witnesses and evidence by NCIS and MFR were more
properly suited for trial on the merits. Id.
In a reply memorandum, plaintiff asserted as
follows:
For reasons more fully set forth in its
previous submission to the Court; the
Defense takes the position that, given
the current political climate, no
potential
court
martial
member
anywhere in the United States Marine
Corps can be asked to sit in judgment in
[Fed. Cir. Appx157]
this case and can be expected to render
a verdict of not guilty without being
concerned that such a verdict will
amount to a finding that a three star
general officer level command, in
accordance with the political leanings of
higher military and civilian leadership,
Appx. 95

concealed evidence and aided and
abetted the accusers in this case in
making false allegations. The Defense
further submits that no potential court
martial member can be expected to be
free from considerable duress in
answering, under oath, if such a finding
of not guilty would raise reasonable
concerns about the potential impact of
such a finding on said court martial
member’s career. As such, the Defense
submits that, from the standpoint of
apparent UCI, which is a sufficient
predicate for a dismissal, with
prejudice, there is no need to defer such
a ruling until after voir dire in this case.
AR at 3022.
On September 26, 2014, a hearing on
plaintiff’s UCI motion was held. AR at 3519-3542.
Prior to the hearing on the UCI motion, the Military
Judge in the Case advised that she was “detailed to
this court-martial by [herself] as the Chief Judge of
the Navy-Marine Corps Trial Judiciary.” AR at
3474.
During that hearing, the military judge
articulated the following standard for evaluating the
presence of unlawful command influence:
And I – we talked about that a little bit
in the 802 [pre-trial conference per
R.C.M. Rule 802] last week and again
today. And I expressed the Court’s
resolve that we are not trying this case
in the course of the unlawful command
influence motion. And that whenever I
or any court these days consider UCI
Appx. 96

motions, we are really focused on three
factors: Was the CA acting in response
to some type of pressures from superiors
and acting with something other than a
completely pure heart? Of course, that’s
my language. That’s certainly not case
law language. Secondly, is there any
evidence at all that access to witnesses
has been inhibited or that witness are,
because
of
command
influence,
unwilling to testify or cooperate with
the defense?
And, thirdly, are the
members [jury] free from bias?
But I asked the defense counsel both
last Friday and again before becoming
[sic] on the record to focus his
presentation evidence to meet his initial
burden here on – within the bounds of
established UCI case law and that
would be typically on those three
factors;
[Fed. Cir. Appx158]
convening authority, access to witnesses,
and potential taint of members pool.
AR at 3519-20 (emphasis added). This purported
standard, hereinafter referred to by undersigned
counsel as “the West Standard”, is wholly
unsupported by any law, and stands in stark
contrast to the standard as articulated by the Court
of Appeals for the Armed Forces in the case of United
States v. Lewis, 63 M.J. 405 (C.A.A.F. 2006), which
provides, in pertinent part:
Appx. 97

We focus upon the perception of fairness
in the military justice system as viewed
through the eyes of a reasonable member
of the public. Thus, the appearance of
unlawful command influence will exist
where
an
objective,
disinterested
observer, fully informed of all the facts
and circumstances, would harbor a
significant doubt about the fairness of
the proceeding.
To find that the appearance of
command
influence
has
been
ameliorated and made harmless beyond
a reasonable doubt, the Government
must convince us that the disinterested
public would now believe [the accused]
received a trial free from the effects of
unlawful command influence.
Lewis, 63 M.J. at 415. (citations omitted)(emphasis
added).4
In fact, prior to being the Chief Judge of the
Navy-Marine Corps Trial Judiciary, this particular
Military Judge was the Chief Judge of the Navy4 The case of Lewis did not involve “convening authority, access
to witnesses, and potential taint of the jury pool”, but involved a
staff judge advocate and a prosecutor attempting to improperly
use the voir dire process to manufacture personal prejudice, and
ultimate removal, of a detailed military judge whom the staff
judge advocate and prosecutor perceived would be favorable to
the defense. Id. at 407-411, 414. The court not only found that
these actions constituted unlawful command influence, but
were of such a nature that they could not be cured and required
dismissal, with prejudice, of the charges against defendant. Id.

Appx. 98

Marine Corps Court of Criminal Appeals
(“NMCCA”). Approximately four months prior to her
articulation of “the West Standard”, the same
Military Judge authored the opinion in the case of
United States v. Howell, NMCCA 201200264, 2014
CCA Lexis 321 (N-M. Ct. Crim. App. May 22, 2014),
which case involved UCI and the impact of the
political environment surrounding sexual assault
cases as
[Fed. Cir. Appx159]
related to the Commandant of the Marine Corps’s
“Heritage Brief”. NMCCA 201200264, 2014 CCA
Lexis 321 at **1-4. In that case, the military judge
cited, verbatim, the Lewis standard for apparent
UCI, and applied same in several instances: no
mention or reference to the relatively restrictive
“West Standard. Howell, NMCCA 201200264, 2014
CCA Lexis at ** 27-28, 32-33, 35.
Upon our de novo review of this entire
record, we find an appearance of
unlawful command influence.
An
objective, disinterested observer, fully
informed of all these facts and
circumstances,
would
harbor
a
significant doubt as to the fairness of
these proceedings in which members of
the panel appear influenced by the
CMC’s [Commandant of the Marine
Corps’] brief, [the initial military judge]
ruled erroneously on the UCI motion
and failed to shift the burden to the
Government, and successor judges failed
to cure that taint. In our view, this
Appx. 99

fosters the “ ‘intolerable strain on public
perception’ of the military justice
system which the proscription against
unlawful command influence . . . guards
against.”
NMCCA 201200264, 2014 CCA Lexis at *35
(emphasis added).
Additionally, the Military Judge in Howell, in
addition to correctly stating the Lewis standard for
evaluating apparent UCI, also correctly stated the
accused’s initial burden of proof in UCI cases:
“Thus, the initial burden of showing
potential unlawful command influence
is low, but is more than mere allegation
or speculation.”
As at trial, the
quantum of evidence required on appeal
to raise UCI is “some evidence.”
NMCCA 201200264, 2014 CCA Lexis at *26. Most
significantly, the Military Judge in Howell not only
explicitly recognized, correctly, that the “some
evidence” initial burden of proof applied to the Lewis
Standard for evaluating apparent UCI, see U.S. v.
Salyer, 72 M.J. 415, 425 (C.A.A.F. 2013), but
explicitly noted an additional area of potential UCI
not included within “the West Standard”:
[Fed. Cir. Appx160]
Without reference to the Biagase
standard and without addressing this
argument, [the military judge] again
denied the motion, with the curiously
inaccurate explanation that most of the
Appx. 100

challenges he granted the evening
before had little or nothing to do with
the Heritage Brief or related issues.
Upon our review, this obdurate refusal
to acknowledge what was obvious – that
the defense had met its low threshold
burden – and his mischaracterization of
the challenges and excusals only
exacerbates
the
troublesome
appearance of UCI.
Howell, NMCCA 201200264, 2014 CCA Lexis at *30
(emphasis added). The significance of this provision
in Howell, by the Military Judge cannot be
overstated: not only does the Military Judge directly
contradict herself as to a material point of law with
respect to her articulation of “the West Standard”;
but, as a duly constituted panel of the Navy-Marine
Corps Court of Criminal Appeals, the court in Howell
explicitly recognized that the actions of the trial
military judge himself/herself in failing to properly
apply the standards of UCI, could itself be an
actionable element of UCI. As a member of that
panel and the author of the opinion, it is likely that
the Military Judge in plaintiff’s case was at least
cognizant of this provisions in the Howell case.
Notwithstanding her own statements as to the
proper standard for evaluating apparent UCI (in
fact, in apparent complete disregard for her own
opinion in Howell authored four months earlier), the
Military Judge made the following statement with
regard to plaintiff’s questioning of NCIS SA Norton
pertaining to his obstruction of justice investigation
against Mr. Villegas:

Appx. 101

MJ: Special Agent Norton has left the
room. I’m just trying to understand
where you are going with this. Is it
your point that they did not -- they
were subject to unlawful command
pressure not to pursue certain leads?
CDC: That is our –
MJ: Okay. Then you have to ask that
question, Mr. Brown. We are not going
to go through all the different problems
with this case and why they haven’t
followed up on all the leads that you
might
[Fed. Cir. Appx161]
have gotten. That’s all great material
for you to work with when Special
Agent Norton is on the stand at courtmartial on probably about the 18th on
November. I expect that the members
going to hear all about it, and I will too.
That’s not what we are here for. What
we are here for is an unlawful command
influence. Did somebody in any way
direct him or pressure him not to
pursue a normal investigation into this
matter? That’s all the court cares about
on the UCI motion. Not about the
strengths or weaknesses of the
government’s case and whether they
may have pursued every lead offered by
every text message.
Just whether
there’s some kind of an unlawful
Appx. 102

command influence on the investigation
and I’m going to ask you to – and maybe
that their investigation is inadequate. It
may be that it’s not the investigation you
would have conducted, but that’s not
within the purview of the UCI motion.
Okay. So it’s all perfectly grist for the
mill of this court-martial in the middle
of November, it’s just not within the
scope of a UCI motion. So what you
need to establish with Special Agent
Norton or Moss is whether they were
subject to any pressures from the
command or up the chain of command
from the special or general courtmartial convening authority to in some
way misrepresent evidence and not
pursue leads. That would be UCI.
AR at 3526-27 (emphasis added).
Later in the questioning, SA Norton admitted
to conducting what could be characterized as an
investigation into Mr. Villegas for obstructing justice
for preventing Ms. H[*****] from making her false
allegations. AR at 3528. As of that time in the
testimony, the record of the UCI motion contained
evidence that: 1) SA Norton’s questioning of Mr.
Villegas occurred on January 22, 2014, AR at 2032;
2) Plaintiff’s defense team had obtained statements
during that timeframe (January 22, 2014) from four
potential witnesses to Ms. H[*****]’s allegations
against plaintiff surrounding the Halloween party,
none of whom corroborated Ms. H[*****]’s
allegations, AR at 1280-84; 3); plaintiff’s defense
attorney (undersigned counsel) was seen by Ms.
A[****] interviewing the witnesses during the
Appx. 103

January 22, 2014 timeframe, AR at 1452; 4) SA
Norton’s report of investigation contained witness
statement summaries in which he falsely attributed
inculpatory statements to Mr. Coby and Ms. Geddies,
directly contradicting their written
[Fed. Cir. Appx162]
statements, compare, AR at 3055, 3056, with 421-22,
434-36, 1283-84, 4057-60; 5) Mr. Villegas had also
been listed by Ms. A[****] as a corroborating witness
to her allegations against plaintiff regarding his
comments made at the March 25, 2013 basketball
game, AR at 500.
Furthermore, Mr. Villegas
ultimately testified against plaintiff in the upcoming
court martial, supporting the charges for which
plaintiff was ultimately convicted. AR at 418-21. As
such, the evidence presented by plaintiff in the UCI
motion and hearing was “some evidence” of
attempted witness tampering against Mr. Coby and
Ms. Geddies (and potential successful witness
tampering on the part of Mr. Villegas) by SA Norton.
Despite this, the Military Judge obdurately refused
to acknowledge this and denied the plaintiff’s UCI
motion. AR at 3529, 3542.
G)

Trial of
Martial:

Plaintiff’s

General

Court

Trial of plaintiff’s general court martial was
conducted on November 17 through 21, 2014. Among
some of the more prejudicial comments made by the
Military Judge in that case was her characterization
to the court martial members (jury), that the case
was not “a sexual assault case”. AR at 3637-38. As
particularly feared by the plaintiff and specifically
Appx. 104

raised by in his UCI motion reply, plaintiff was
forced to place the unfairness of the process, and the
undue assistance to the accusers, at issue in
plaintiff’s
trial.
The
Military
Judge’s
characterization that the case was not a sexual
assault case, contradicting the actual charges in the
matter involving the “wrongfully massaging the leg”
of Ms. R[****] “from her knee to her groin” and
“rubbing [of plaintiff’s] genitalia on” Ms. H[*****]’s
leg; implicitly reinforced to the members that MFR
doubted the veracity of the case to the members and
that they were implicitly expected to return some
verdict of guilty. This powerful impression was not
cured by the insufficiently sterile reading of the
Commandant’s “White Letter 3-12.” See AR at 3638.
[Fed. Cir. Appx163]
With regard to the charges upon which GySgt
West was convicted, in addition to the patently
erroneous statements of law noted above; the
allegations and assertions of Mr. West also include
several materially prejudicial statements of the
military judge, particularly with regards to direct
instructions to the court martial members (jury)
during closing argument. Significantly, although
physically not admitted as evidence, two witnesses
explicitly testified to the text messages between Mr.
West and Ms. A[****], that said text messages were
“140 pages” in length, and said 140 pages were
acknowledged as authentic as a defense exhibit in
front of the members. AR at 412, 413, 438, 3876,
3917-19, 3932, 4070.
This notwithstanding, the
military judge interrupted, sue sponte, Mr. West’s
counsel during closing argument, made a highly
prejudicial, gratuitous and misleading attack on
Appx. 105

counsel’s credibility to the members and wrongfully
instructed the members not to consider, for any
purpose, the fact that the text messages between Mr.
West and Ms. A[****] were 140 pages in length:
MJ:
you.

Mr. Brown, I want to interrupt

CDC: Yes, ma’am.
MJ: Members, I going to advise you
that Mr. Brown has made repeated
references both in the beginning – I was
going to bring this up at the end of his
remarks, but I’m compelled to do it now.
He’s made repeated references to these
140 pages of text messages. Earlier on,
he made references to having read them
himself and you have not. That is
improper argument. Of the 140 pages of
these text messages, Mr. Brown sought
admission to this court-martial of six
pages.
One had previously been
admitted as a prosecution exhibit.
You’ll get that. Of the remaining five
pages, I admitted one. The other four
pages had nothing to do with this courtmartial. So references to these 140
pages of texts as though they contain
evidence material to this court-martial
that has not admitted before you is
improper argument. I am instructing
you to completely disregard references to
the 140 pages. With regard to the
content of them as though those pages
hold matters relevant and material to
Appx. 106

this court-martial, their admission has
not been sought with very minor
exceptions. You may not consider that
for any purpose
[Fed. Cir. Appx164]
whatsoever.
You have to cast that
argument and references to that out of
your mind, and decide this case solely
on the evidence that properly comes
before you.
Is there any member who cannot follow
this instruction?
4208-09 (emphasis added). 5
Additionally, at the very end of Mr. West’s
counsel’s closing argument, the Military Judge made
another highly prejudicial and inaccurate comment
regarding purported “misstatement of the law” by
Mr. West’s counsel. Prior to closing arguments, the
Plaintiff submits that the comments regarding counsel’s
attempt to admit only 6 of the 140 pages of text messages is
particularly misleading, as counsel did attempt to initially
admit the entire 140 pages of text messages as “Defense Exhibit
L for Identification”. AR at 3932. Plaintiff submits that,
similar to the military judge’s instructions pertaining to
Defense Exhibits D and E, as reflected in pages 554-558 of the
verbatim transcript, the military judge instructed counsel to
redact and resubmit Defense Exhibit L for admission. AR at
4010-15. The discussions and ruling regarding Defense Exhibit
L are not reflected in the verbatim transcript. In any event,
plaintiff takes particular exception to the appropriateness of
such a comment by the military judge to the members under
any circumstances and is prepared to litigate that particular
issue before this Court in the above captioned matter .
5

Appx. 107

Military Judge gave the members instructions on the
law regarding the particular charges and
specifications. AR at 4133-4161. In particular, the
Military Judge instructed the members as to the
determination of “service discrediting conduct”, a
necessary element as to several specifications
charged, defining same as “conduct that tends to
harm the reputation of the service or lower it in
public esteem.” AR 4145. The military judge further
instructed that the members “should consider all the
relevant facts and circumstances.” AR 4145-46.
Pursuant to this instruction, Mr. West’s counsel
made the following argument with respect the fact
that neither Mr. West, nor Ms. A[****], nor anyone
else at the basketball game on March 25, 2013 were
in uniform, and that, because there was no evidence
that anyone was in uniform, there was no evidence
that anyone knew that plaintiff or his party was in
the military, even if the offensive comment was
made, effectively preventing a finding of “service
discrediting conduct”. AR at 4205. Despite this
[Fed. Cir. Appx165]
completely proper argument, the Military Judge,
again sue sponte, to the opportunity immediately
after Mr. West’s counsel completed his closing
argument to make this prejudicial statement:
MJ: Members . . . . Let me correct one
misstatement of the law that defense
counsel made.
Defense counsel in
discussing the offenses under Charge V
in referencing the service discrediting,
he talked about a uniform requirement.
That’s a misstatement of the law.
Appx. 108

Under Article 134 offenses or charges,
either conduct to the prejudice and good
order and discipline or of a nature to
bring discredit upon the armed forces.
There’s no requirement for the
government to prove that members of
the public observed the conduct per se
and there’s certainly no requirement
that people are in uniform. But simply
that the conduct was of a nature to
bring discredit upon the armed forces.
So, again, I will remind the members
that when there is a conflict between
what counsel say the law is and what
the court has provided you as
instructions, you have to go with the
latter and follow the court’s instructions
on the law.
AR at 4211-12.
Finally, while specifically not being considered
a “sexual assault case”, as per the plaintiff’s UCI
motion and as specifically communicated to the
members, the MFR SAPR personnel maintained a
particularly conspicuous presence and involvement
in plaintiff’s case. Despite MFR’s decision not to
pursue any charges of sexual assault, the MFR SAPR
Office (beyond that already mentioned) maintained
an inordinate level of involvement in plaintiff’s case.
First, the MFR SAPR Office kept monthly track of
plaintiff’s case in its CMG meetings, which meetings
began shortly after the accusations occurred and
continued through the adjournment of his court
martial in November of 2014 (notwithstanding the
referral decision of August 2014 declining to charge
any violations of UCMJ Article 120, Sexual Assault).
Appx. 109

AR at 2222-2257. Second, the MFR SARC, Ms.
Peggy Cuevas, was conspicuously present in the
courtroom, in full view of the court martial members,
every day of the proceedings from
[Fed. Cir. Appx166]
November 17 through adjournment on November 21,
2014. AR at 3145. Finally, again, despite not being
“a sexual assault case”, Ms. Cuevas saw fit to
correspond with the prosecutors at plaintiff’s general
court martial on November 24, 2014 after the
conclusion same, as follows:
Thank you, Major. I think you and
Major Hodge were great and we are
getting better with each trial.
I
appreciate your hard work and
congratulate you on an excellent job.
AR at 3106.

Appx. 110

[APPENDIX F: Excerpts of Unlawful Command
Influence Motion Hearing of February 19, 2014
in the Case of United States v. West]
[Fed. Cir. Appx13024; AR 3024]
Special Agent Jeffrey Norton was called as a
witness by the defense, was sworn, and
testified as follows:
*

*

*

Questions by the defense counsel:
*

*

*

[Fed. Cir. Appx13028; AR 3028]
Q.

A.

Q.

Okay. You mentioned the sexual assault
response coordinator and the victim advocate.
Have you had many cases where the sexual
assault response coordinator have opened a
case with NCIS?
Yeah. I am not familiar with how they report
or how they open their cases or what have you,
but they do ask me for information regarding
my cases for their reporting requirements. So
I do believe they [sic] something, a tracking
system in place. I am just not familiar with it.
Okay. I think you mentioned before. I just
want to make sure I have this clear. You
talked about open pending

[Fed. Cir. Appx13029; AR 3029]
Appx. 111

A.

cases where the [sic] contact you, and we will
get to that in a minute, but I want us to talk
with initiation of a case. In other words the
first person you hear from with respect to a
sexual assault case, has it ever been the
sexual assault response coordinator or a victim
advocate?
Yes, it has.

Q.
A.

About how often does that happen?
I am not – I could not come up with a number.
A lot of times, it all kind of comes together at
the same point in time. When I receive
notification, I immediately with a sexual
assault case will attempt to get a statement
from the victim in the presence of a victim
advocate.

Q.

All right. Well let me go – another general
question in terms of investigating – and I am
trying to do this as general as you can – when
you interview a witness, do you just believe
what they tell you?
Not on the surface. I mean, there is a reason
why there is an investigation. I have got to try
and get supporting evidence.

A.

Q.

A.

So in other words, there are times when you
are interviewing a witness and you are not,
you know, the witness tells you – says this
happened or I did not do it. You just believe
them, write the report and close the
investigation. Correct?
No.

Appx. 112

Q.
A.
Q.

A.

Okay.
And sometimes you have an
opportunity that you need to assess credibility.
Is that right?
Yes.
Okay. And what are some factors as an
investigator that you look into in terms of
assessing credibility of a witness when you are
interviewing them?
There is just – some things just do not sound
right; some things do not add up. It is kind of
hard dealing with sexual assault victims,
especially in the presence of victim advocates
and – to where you are expecting not to just
automatically assume that anything they are
saying is possibly invalid. So I mean it is just
different – it has been different in 15 years
since when I got hired on to where it is now.
There is just an atmosphere in dealing with
witnesses and victims in sexual assault cases.

[Fed. Cir. Appx13030; AR 3030]
Q.

A.

Q.

Okay. You said a lot of very important things
there and I need to go back and touch on a
couple of things. You mentioned first off that
it is very different with interviewing a witness
in the presence of a victim advocate. Please
expound on that.
Well I would not say victim advocate. The
interviews themselves have evolved where
they do not want you to – I guess what I am
trying to say is accuse them of making things
up.
Okay.
Appx. 113

A.

So I will be direct about that.

Q.

Absolutely. I understand. In other words, you
know, what you are telling me – and please
correct me if I am wrong – that in the
atmosphere that you have currently in general
when you are investigating a sexual assault
victim in the presence of a victim advocate,
you feel you need to be careful about accusing
that victim of making the allegations up. Is
that a fair statement?
That is correct.

A.
Q.

A.

And where would you say that – and I am
calling it fear.
If that is an inaccurate
description, please let me know. Where would
that – or that concern come from, where is
that coming from? Is that coming from any
particular individual or is that in general?
That is just general.

Q.
A.

Based on what?
It would be hard to say. It does not make me
want to believe them any more or less, you
know. I do not really, you know, discourage
them from some of the things that I question
in terms of getting into a statement and things
like that. Everything in the end is going to
speak for itself. That is why we have a court.
But again, sometimes I feel uncomfortable
asking particular questions regarding what
they are telling me just because it just does
not sound particularly right.

Q.

Okay.
Appx. 114

A.

It is hard to explain, but I think you
understand.

Q.

Yeah. No, I understand, but again, I think I
understand but I have got to get this for the
record. This is very important. And you are
talking about sometimes there are certain
things that are being said and you are feeling

[Fed. Cir. Appx13031; AR 3031]

A.
Q.

A.

uncomfortable. It is, you know – is it a worry
that the particular individual that is with the
victim is going to have a problem with your
questioning? Is that a concern?
I am not really understanding what you are
asking.
Well you said there are times when you are
questioning or whet the victim is saying – and
correct me if I am wrong – does not make
sense or does not add up and you feel
uncomfortable with what I imagine is a
normal follow up; well what about this or what
about that. Are you tracking with me so far?
If it is something that is going to lead to, you
know, more leads or what have you, I am still
going to ask the question. But in a lot of ways,
what I am told is reported. I am not putting
things in that, you know, one way or another.
So if I think they are lying to me, I am just
going to take it because it is obvious to
somebody, you know, down the line that
certain things are being said or what have you
that just do not sound right. But I am not
going to sit there and accuse a victim that is
Appx. 115

reporting an assault – like sitting there and
me just calling them a liar.
Q.
A.

And I understand.
So again, I am going to let it go on the record
because if it is the truth, it should be, you
know –

Q.

A.

And I understand and I think I have got some
questions and we will cover that. I think – we
will ferret that out a little more later. You
kind of gave me – you kind of walked me into
my next question. Is there, in a sexual assault
allegation in your experience, are there
reasons for a – and I will call them an accuser
– to make up an allegation in your mind?
Absolutely.

Q.

What are those reasons?

TC:

I apologize for the interruption. Again, the
government would request some sort of
reasoning and some sort of determination on
how this line of questioning is relevant with
regard to UCI and with regard to the motion
at hand.

DC:

Your Honor, we have –

MJ:

Defense, if I read your motion correctly,
defense, what part of your motion is it you are
attacking the entire

[Fed. Cir. Appx13032; AR 3032]

Appx. 116

system by saying that because of the political
climate, people like this special agent cannot
do their job because they have got to be
pussyfooting around these alleged victims and
therefore he has bet to believe everybody and
therefore a proper investigation cannot be
done. Is that your theory?
DC:

I would say, Your Honor, that that is close. I
would say that but I would also say that that
concern, that fear, was present in this case.
And that is where I am going with this line of
questioning to try and establish not so much
that no investigation could ever be done, but in
this particular case based upon the climate
and the orders and what the evidence is
showing that this was a problem in this case
and it was from the very onset. I am trying to
lay that foundation.

TC:

Sir –

MJ:

The objection is overruled. Government, you
can keep objecting, please, at any time, but he
has styled his motion in such a fashion that he
has made an attack on the entire system as it
is set up now on the reporting, on the SAPR,
at issues, et cetera.

TC:

Sir, I –

MJ:

So he is going to – go ahead.

TC:

The government would want the court to note
is regardless of how the initial investigation
occurred, how is that UCI? They are arguing
Appx. 117

that their merits case is so strong that this
should never have gone to court-martial. That
argument would be proper in an improper
referral. But a UCI motion, if they are not
alleging that the charges have improperly
referred because some sort of faultiness or
some sort of lack of investigation at the Article
32, that would be a proper argument. But
with regards to UCI, I do not see how the
convening authority or any other members of
the court-martial, be it the military judge, the
witnesses, the defense counsel, the members,
or the convening authority, again, how they
were improperly influenced here. Now again,
if he is alleging that the 32 was improper, I
look to the court to see United States v. Von
Bergman case which I have previously
provided to the court just during the recess
here in which the Article 32 proceedings are
superseded by the trial procedures. So if he is
arguing
[Fed. Cir. Appx13033; AR 3033]
that somehow the IO was wrong and the
preponderance of the evidence was not
established, then a proper trial will then result
in an acquittal. But the connection between
UCI and the SAPR program or Special Agent
Norton’s lack of
proper investigation
techniques or anything like that, there is not
nexus there. There is not meeting there.
Even if the government stipulates that an
investigation was done faulty by Special Agent
Norton, it still was – there still was a
command investigation done and then there
Appx. 118

was still an Article 32 investigation done.
That supersedes all these things.
MJ:

I understand your objection and I agree with
much of what you said. I other words, when
the defense filed this motion along with the
other ones it seems like, but particularly this
motion, they stopped to attack the Article as
somehow being deficient or from Lieutenant
Colonel C all the evidence he did not hear,
they sought to attack a lot of different aspects
and which could have been brought in another
motion that they did not draft. I agree.
Improper referral, reopen the Article 32, none
of those motions were made. We are past that.
However, by the same token, I do need to let
him draw this connection if he says to
somehow because of the system that is set up.
The investigation in this case cannot even be
conducted properly by the people who are
supposed to do it, NCIS, due to the political
climate, et cetera, then I understand how
there is a connection to UCI. So I am giving
the defense a leash, albeit a short one as
though I will let you call any witness you
want, defense, but government please object
because 90 percent of what you just said,
government, I agree with. I do not care about
the Article 32 and whether it was done
properly or not.
There is a command
investigation, there is an Article 32 that has
occurred. We are at court-martial in this case.
But at the same token, I do not want to shut
the door on any evidence that can even
Appx. 119

tangentially relate to UCI. If I do that, the
appellate court will shut me down and say,
UCI never dies. Why did not you deal with
this at the trial level, judge? So assuming we
can keep defense in the box, Mr. Brown, get to
the point with this witness along with every
other witness and specifically how it ties to
UCI, then I will shut you down.
So
government, object as often as you want. At
this point, the last thing I heard
[Fed. Cir. Appx13024; AR 3034]
from Mr. Brown was, I am going to tie it to
this case and explain how they could not do a
proper investigation in this case because of
UCI. Well that is important evidence that I
need to hear if that is true. So that is where
we are going next. So Mr. Brown, please go
ahead.
DC:

Yes, Your Honor. And I will move quickly.

Questions by the defense counsel continued:
*
*
*
[Fed. Cir. Appx13038; AR 3038]
Q.

A.
Q.

Did you – you mentioned you took the
statements.
Did you ask for any other
materials?
Did they give you any text
messages or anything of that nature?
No.
Okay. Did you get any other documentary
evidence?
Appx. 120

A.

Not that I recall.

Q.

Did you talk to anybody else other than the
accusers in your investigation?
Yes.

A.
Q.
A.

Who?
I would have to see my case file. I was asked
about a couple of people, but again, I cannot
remember everybody I talked to.

Q.

Okay. Well when you talk about a couple of
people, do you have a general recollection of
what their role was in the investigation?
Witnesses to a degree I would say. And some
of it was just clearing up things that were said
in the statements that some things turned out
to be true, some things did not turn out to be
exactly the way they were put together. But I
did not see anything significant.

A.

Q.

Okay.

TC:

Sir, and I hate to interrupt again, it seems to
the government that the defense counsel is
using this for an on-the-record discovery
inquiry into what Special Agent Norton has
investigated. The question is not what he has
investigated, but whether or not he was
somehow influenced by the political climate as
to his investigation technique. So at this
point, the government would again object that
the relevancy of this line of questioning or
really any line of questioning with Special
Agent Norton.
Appx. 121

[Fed. Cir. Appx13039; AR 3039]
MJ:

Government, I am going to sustain your
objection because I am thinking exactly the
same thing. You do not get a free interview
here, defense counsel. It is not your chance to
do discovery or try to catch him on something
and hope to use it at a later proceeding. Get to
the point. If you have something to prove
about UCI, get to the point. Ask a leading
question if you need to. I am failing to see
where we are going now. This UCI in this
particular case and if this agent can give you
testimony of it. What are you doing?

DC:

Yes, Your Honor, I will narrow it down.

Questions by the defense counsel continued:
Q.
A.
Q.

A.
Q.
A.

Special Agent Norton, on November 6th of
2013, do you recall receiving copies of text
messages in the Gunnery Sergeant West case?
I got copies from, I believe you provided them.
But you did get copies of those text messages.
And in those copies of the text messages, do
you recall receiving specifically copies of text
messages between Staff Sergeant – Mr. James
Rieth and Gunnery Sergeant Luke West?
Yes.
And do you recall having taken a statement
from Mr. James Rieth just prior to receiving
those statements?
Before taking – before receiving the texts?
Appx. 122

Q.
A.

Before receiving, yes.
Yes.

Q.

Okay. Now do you recall at any time myself
requesting that you conduct a follow-on
interview with Mr. Rieth regarding the
contents of the statement that he made to you
on October 24th, 2013?
Yes.

A.

A.

And as a result of that, did you have an
opportunity to look at Mr. Rieth’s statement
and compare those with the text messages?
What do you mean?

DC:

Your Honor, may I approach?

TC:

Your Honor, I object to, again, this is him
using an on-the-record discovery. Regardless
of whether or not Special

Q.

[Fed. Cir. Appx13040; AR 3040]
Agent Norton looked at the texts and
compared the texts, the case – the courtmarital [sic] was already down the road. If
anything, this is something that the defense
can use on the merits, not at an UCI motion
hearing.
MJ:

Okay, defense. Last chance. I am happy to
give you leeway to prove your motion here, but
just like you wrote in the motion, most of the
things you argue the motion about, the flimsy
evidence and all the other things in your
motions are comments about the merits of the
Appx. 123

case. Not particularly interesting to me as I
have to rule on the motions. Now what are
you doing and why are we going this route
again?
DC:

Again, Your Honor, I was just questioning
Special Agent Norton as to what he did with –
well for lack of a better term, I found
something that is completely inconsistent.
The text messages would seem to be
completely inconsistent with what his
testimony was in his statement.
And
certainly, would ask the court for a bit of
leeway for the investigating agent to either
explain why this was not followed up on or if
anything was done with regard to clear a
discrepancy.

MJ:

Okay. Who cares? Let us say he did a lousy
investigation, and I am not saying he did.
Who cares: What does that have to do with
UCI? I do not care if he did not review the
texts. I do not care about any of the police
work in this case for the purposes of this
motion. I would like to know if there is an
actual or apparent UCI against your client in
this case, not whether this investigator did a
completely shoddy, great –

DC:

I understand, Your Honor. Just one moment.
I may be done with this witness.

Questions by the defense counsel continued:

Appx. 124

Q.
A.

Q.

All right. Special Agent Norton, why did you
not conduct a follow-on interview of James
Rieth?
At that point in time, it was already going
through the judicial proceedings. Obviously,
you were hired. And I was coordinating with
Captain Mason as to what you were
requesting me to do and what I was actually
doing.
And what were you actually doing?

[Fed. Cir. Appx13041; AR 3041]
A.

I was actually going to interview James Rieth
and I asked Captain Mason and he told me
that was not necessary.

Q.

You mentioned that – were you doing anything
else with regards to any kind of investigation?
There were a couple of follow-up interviews
that were identified by, for lack of a better
word, an inspection by my parent office. They
will go through my case files and point out
things they thought could be done that were
not done, but nothing fruitful came out of
those.

A.

Q.

Okay. Were you conducting any interviews of
any witnesses for potential obstruction of
justice for convincing these –

TC:

Again, objection.

Q.

--witnesses not to testify – or choosing not to
report an allegation of sexual assault?
Appx. 125

TC:

Again, the government submits its objection.

MJ:

Go ahead government.

TC:

The government submits again the objection
on how Special Agent Norton’s investigation –
how is that anywhere in the realm of UCI on
what he did or did not do?

MJ:

The objection is sustained. Defense, you are
done questioning. Government, do you have
any cross-examination?

TC:

No, sir.

Appx. 126

[APPENDIX G:
Excerpts of Unlawful
Command Influence Motion Hearing of
September 26, 2014 in the Case of United States
v. West: SUMMARIZED TRANSCRIPT]
[Fed. Cir. Appx10379; AR 379]
The Article 39(a) session was called to order at 0918,
26 September 2014.
*

*

*

The defense counsel made a motion to dismiss for
unlawful command influence, marked as Appellate
Exhibit XV.
The defense counsel argued their
motion. The trial counsel called Special Agent
Norton and Special Agent Moss to testify as evidence
on the motion. The trial counsel argued on the
motion. The military judge stated that the defense
failed to meet its initial burden. The military judge
denied the motion.
*

*

*

The Article 39(a) session recessed at 1154, 26
September 2014.

Appx. 127

[APPENDIX H:
Excerpts of Unlawful
Command Influence Motion Hearing of
September 26, 2014 in the Case of United States
v. West: VERBATIM TRANSCRIPT]
[Fed. Cir. Appx13519; AR 3519]
[The Article 39(a) session recessed at 1046, 26
September 2014.]
[The Article 39(a) session was called to order at 1106,
26 September 2014.]
MJ: The 39(a) session will come to order.
All parties present when we recessed are again
present. We just held a brief 802 here in the
courtroom, in the presence of the accused as well as
counsel, on the issue of the next motion up, which is
Appellate Exhibit XV, the defense's motion to
dismiss for unlawful command influence.
In our earlier 802 of last Friday, I voiced the
Court's concern that the defense's motion is -- one
word I used, I think was "sprawling." It's sort of a
motion of many parts. Part of it to be what I would
consider now to be a classic UCI motion, brought in
more typically in sexual assault cases, having to do
with political pressures coming to bear on the
court-martial.
Secondly, the motion raises concerns about
how the potential members -- or the identified
members would be influenced and, again, that's a
pretty typical or traditional UCI motion in these
current days. But a different part of the motion
appears to just be litigating the merits of the case.
In that, the defense appears to be trying to -- and
this concern I voiced last Friday -- establish that the
Appx. 128

case is so weak that there is no explanation for the
command going forward but for UCI. And I -- we
talked about that a little bit in the 802 last week and
[Fed. Cir. Appx13520; AR 3520]
again today. And I expressed the Court's resolve that
we are not trying this case in the course of the
unlawful command influence motion.
And that
whenever I or any court these days consider UCI
motions, we are really focused on three factors: Was
the CA acting in response to some type of pressures
from superiors and acting with something other than
a completely pure heart? Of course, that's my
language. That's certainly not case law language.
Secondly, is there any evidence at all that access to
witnesses has been inhibited or that witnesses are,
because of command influence, unwilling to testify
for or cooperate with the defense? And, thirdly, are
the members free from bias? With regard to the third
and very important part of this, I think we know that
best when we meet the members on 17 November.
After voir dire, we are going to be able to ensure that
we have the members panel that is free from bias.
But I asked the defense counsel both last
Friday and again before becoming on the record to
focus his presentation evidence to meet his initial
burden here on -- within the bounds of established
UCI case law and that would be typically on those
three factors; convening authority, access to
witnesses, and potential taint of members pool.
With that, Mr. Brown, you may proceed.
CDC: Yes, ma'am. At this time, defense calls
Special Agent Jeffrey Norton.
Appx. 129

Special Agent Jeffery Norton was called as a
witness by the defense, was sworn, and
testified as follows:
DIRECT EXAMINATION
[Fed. Cir. Appx13521; AR 3521]
Questions by the civilian defense counsel:
Q.
All right. Special Agent Norton, I'm
going to dive right in. I know you've already given
your -- a little bit of background the last time you
testified. But I wanted to pick up on the subject
that we were talking about in the last -- in the earlier
motion session of the Court. You testified earlier that
in interviewing accusers and, again, I -- well, in cases
such as this, in interviewing, that you felt a certain
pressure not to or to, you know, put extra credence
on the testimony of the accusers; is a correct?
A.
Well, that's -- I'm not sure I would put it
that way. It would be not to turn a -- receiving a
statement from an alleged victim into an
interrogation or starting to question the reliability of
a victim's statement.
But you would admit that as an
Q.
investigator that is part of what you are supposed to
do when you investigate cases?
A.

I can argue that, yes.

Q.

Would you say that?

A.

Yes, I would say that.
Appx. 130

Q.
So if we're going to talk about your
investigation, is it fair to say -- or are you telling me
that you are -- you feel pressure not to actually do
your job and investigate this case?
A.
No, I wouldn't say that. I'm just saying
that -- I mean, things have changed over time to
where we're not supposed to question right away
exactly -- the reliability of a victim's statement.
Let me back up because I'm trying to -Q.
now, you mentioned before that accusers -- that
accuser -- and, again,
[Fed. Cir. Appx13522; AR 3522]
ma'am, I'm just going to have to -- the accuser in a
sexual assault case or initially that an accuser will
have a victim advocate?
A.

Normally.

Q.
Normally? Okay. By "normally," is that
all the time? Most of the time?
A.

Most of the time.

Q.
Okay. How about in this case? Can you
recall if Staff Sergeant R[****] [sic] had a victim
advocate present when you interviewed her for the
first time?
A.

Yes.

Q.

Lance Corporal H[*****], did she have a
Appx. 131

victim advocate present when you interviewed her
for the first time?
A.

I believe so.

Q.
And I wanted to ask, do you recall if
Staff Sergeant A[****] had a victim advocate present
when you interviewed her?
A.
I don't believe that I interviewed Staff
Sergeant A[****]. I'd have to check my notes.
Q.
Okay. Let me ask you this way: In the
timeframe of July 2013, when you interviewed -when you did the interviews for this case, did every
accuser that you interviewed have a victim advocate
present?
A.

I believe so, yes.

And if I were to tell you that you did
Q.
actually interview Staff Sergeant A[****] on June 27,
2013, would you say that she did have a victim
advocate present when you interviewed her?
[Fed. Cir. Appx13523; AR 3523]
A.

Yes.

In the course of conducting your
Q.
interviews, did they show up to the NCIS office with
victim advocates?
A.

Yes.

Q.

Did

you

coordinate

with

victim

Appx. 132

advocates –
TC:

Objection; relevance, Your Honor.

MJ: I'm going to sustain that. You just need
to move on to something relevant to UCI.
Questions by the civilian defense counsel
continued:
Q.
You testified earlier, Special Agent
Norton, that -- I don't want to put words in your
mouth, but you could see why the defense wanted to
have certain text messages authenticated.
TC:

Objection; relevance.

MJ:

Overruled. You may answer that.

Questions by the civilian defense counsel
continued:
Q.
I would -- it was more or less because of
-- the communication seemed casual after the
incidents occurred. I don't -- I mean, I'm not a
specialist in psychology or I didn't see anything going
either way in the messages. I could just understand
why this would be considered exculpatory, rather
than us going after it as -- per se, which is why I was
kind of surprised that you're trying to suppress the
texts when I thought as -- though we were
encouraged to get them.
Well, I want to direct your attention to
Q.
-- do you recall reviewing text messages from Mr.
James Rieth to and from Gunnery Sergeant West?
Appx. 133

A.

Yes.

[Fed. Cir. Appx13524; AR 3524]
TC:

Objection; relevance.

MJ:

What's the relevance?

CDC: Ma'am, you're looking at the direct
texts. Mr. Rieth testifies or gives a statement to
NCIS that he -- that Warrant Officer R[****] told
him that she had been assaulted at the Marine Corps
Ball. We -- on reviewing the text messages six
months later, we have texts from Mr. Rieth to
Gunnery Sergeant West inviting him to go to the
hospital, announcing the birth of their baby. And I
just wanted to ask Special Agent Norton if he saw
that and what was his reaction to it. Did he -- what
was his follow-up and if he did not do any follow-up,
did anybody tell him not to do any follow-up on that.
MJ:
question.

Ask him about -- ask him that last

CDC: I will, yes, ma'am.
Questions by the civilian defense counsel
continued:
Q.
Did you -- did anybody tell you not to
follow-up on -- do you understand where I was going
with that, Special Agent Norton? The question of
whether or not -- did you see the text messages from
-Appx. 134

A.
I saw the text messages and I recall in
the e-mail you had asked me to re-interview James
Rieth pertaining to why he would have a relationship
-- I'm paraphrasing it -- with a victim assailant, after
he had already known about it. And I had -- after
that, it was in a combination of questions and
conversations I had with Captain Mason, I had -showed him the e-mail or he was carbon copied on it.
And we discussed it and Captain -- and I said, "Do I
need to reinterview James Reith?"
[Fed. Cir. Appx13525; AR 3525]
And Captain Mason, "You don't have to do that."
Q.
Okay. I want to move over to this
investigation of 22 January 2014, a result of the
interview of Gunnery Sergeant Cesar Villegas; are
you familiar with that?
A.

Yes.

Q.
Why were you interviewing Gunnery
Sergeant Villegas?
A.
It had been brought up as a -- I'd have
to go back to my notes, but it had been pointed out
during one of my case reviews that that would be a
person that I should talk to pertaining to his
knowledge of what may have happened. I believe it
was between Gunnery Sergeant West and Lance
Corporal H[*****]. I'd have to read my investigative
–
Q.

I tell you what -Appx. 135

TC: The government is going to object to
relevance, Your Honor.
MJ:

What is the –

CDC: This is a result of interview for Gunnery
Sergeant Cesar Villegas, ma'am. I just wanted to
have the witness review it. Gunnery Sergeant
Villegas is an individual who's interviewed for -specifically for what appears to be obstructing justice
in that, they were investigating him for allegedly
telling Lance Corporal H[*****] not to say anything
about the investigation.
MJ: Where would -- I'm sorry. Where are
you going with this? What's the point that you hope
to establish?
CDC: The point that I hope to help establish,
ma'am, is it and, again, there's a timeframe here that
we are looking at. The defense interviewed several
witnesses in this January 22
[Fed. Cir. Appx13526; AR 3526]
timeframe. The witnesses all had to do with -- in
this timeframe were with the Lance Corporal
H[*****] allegations and those witnesses wrote
statements and we have two witnesses that were
specifically mentioned by Lance Corporal H[*****], a
Corporal Coby and a Corporal Geddes, both of whom
submitted statements that were dated around 22, 23,
24 January based on interviews that we conducted a
couple days prior. We also had a statement of a Staff
Sergeant Garza which was done -Appx. 136

MJ: So is your point -- I'm going to ask this
and -- please step out of the room?
[The witness did as directed.]
MJ: Special Agent Norton has left the room.
I'm just trying to understand where you are going
with this. Is it your point that they did not -- they
were subject to unlawful command pressure not to
pursue certain leads?
CDC: That is our -MJ: Okay. Then you have to ask that
question, Mr. Brown. We are not going to go through
all the different problems with this case and why
they haven't followed up on all the leads that you
might have gotten. That's all great material for you
to work with when Special Agent Norton is on the
stand at court-martial on probably about the 18th on
November. I expect that the members going to hear
all about it, and I will too. That's not what we are
here for. What we are here for is an unlawful
command influence. Did somebody in any way direct
him or pressure him not to pursue a normal
investigation into this matter? That's all that the
court cares about on the UCI motion.
[Fed. Cir. Appx13527; AR 3527]
Not about the strengths or weaknesses of the
government’s case and whether they may have
pursued every lead offered by every text message.
Just whether there's some kind of an unlawful
command influence on the investigation and I’m
going to ask you to – and maybe that their
Appx. 137

investigation is inadequate. It may be that it's not
the investigation you would have conducted, but
that's not within the purview of the UCI motion.
Okay. So it’s all perfectly grist for the mill of this
court-martial in the middle of November, it's just not
within the scope of a UCI motion. So what you need
to establish with Special Agent Norton or Moss is
whether they were subject to any pressures from the
command or up the chain of command from the
special or general court-martial convening authority
to in some way misrepresent evidence and not
pursue leads. That would be UCI.
CDC: Yes, ma'am.
MJ:

Can we call the witness back in?

[The civilian defense counsel did as directed.]
MJ: I apologize, Special Agent Norton. You
may proceed.
Questions by the civilian defense counsel
continued:
Q.
Special Agent Norton, were you directed
to pursue an obstructing justice investigation against
Gunnery Sergeant Villegas?
A.

No.

Q.
Why did you question him on 22
January and –
TC:

Objection; relevance.
Appx. 138

MJ:

Overruled. You can answer that.

Questions by the civilian defense counsel
continued:
[Fed. Cir. Appx13528; AR 3528]
A.
He was identified as a witness -- a
possible witness pertaining to my sexual assault
investigation.
Q.
Okay. And what did you find out about
-- was he a witness to the incident that occurred
between -- allegedly occurred between Gunnery
Sergeant West and Lance Corporal H[*****]?
A.

Not a direct witness, no.

Q.

Okay. How was he a witness?

A.
He was potentially a witness in terms of
what had been said during the counseling between
him and H[*****], and I think Master Gunnery
Sergeant Thomas was involved in that as well. So
just the question about what was being said -- was
being alleged during this conversation.
Okay. I want to back up because it
Q.
sounds to me like you said, "what was being alleged."
The conversation between Gunnery Sergeant
Villegas and Lance Corporal H[*****], what was -A.
It was that Lance Corporal H[*****]
had stated that Villegas -- I don't want to pronounce
it wrong -- Villegas and West has pressured her into
not divulging the incident outside of the office.
Appx. 139

Q.
And would you characterize that as
obstructing justice?
A.

I could see that.

And you were directed by MARFORRES
Q.
SJA to conduct that investigation?
A.

No. What -- which investigation?

The
investigation
Q.
Sergeant Villegas?
A.
No.
investigate.
Q.

They

don't

into
dictate

Gunnery
what

we

So you did it on your own?

[Fed. Cir. Appx13529; AR 3529]
A.
No. We initiate investigations based
on our own discretion. But I didn't -- at no point in
time was I investigating obstruction of justice.
Q.
But you were investigating Gunny
Villegas for telling Lance Corporal H[*****] not to
say anything, for Gunnery Sergeant West telling
Lance Corporal H[*****] not to say anything about
the alleged incident is that -A.
Well, that was to support whether or
not the alleged incident happened.
Q.

But my question -Appx. 140

A.
I could never see anybody being -- it was
not my intent to investigate Gunnery Sergeant
Villegas for obstruction of justice. If it was, I would
have read him his rights for obstruction of justice.
Q.
All right. Let me back up and ask it
another way.
MJ: I don't know, Mr. Brown. I don't -whether or not there was an investigation on
Gunnery Sergeant Villegas and whether that
resulted in charges or not is not within the scope of
this UCI motion.
Questions by the civilian defense counsel
continued:
Q.
Was anybody else investigated or
questioned as to -- anybody -- individuals allegedly
telling Lance Corporal H[*****] not to report?
TC:

Objection; relevance.

MJ:

I'm sustaining that objection.

Questions by the civilian defense counsel
continued:
[Fed. Cir. Appx13530; AR 3530]
Special Agent Norton, did you feel any
Q.
pressure in -- to the investigation in any certain
direction?
A.

No.
Appx. 141

CDC: No further questions.
TC: The government
questions, Your Honor.

doesn't

have

any

MJ: Is Special -- may we excuse Special
Agent Norton for the day then?
WIT: Thank you, Your Honor.
MJ: Any objection? Thank you very much,
Special Agent Norton. You are excused.
[The witness departed the courtroom.]
MJ:

Next witness?

CDC: The defense calls Special Agent Moss.
Special Agent Trevor Moss was called as a
witness by the defense, was sworn, and
testified as follows:
DIRECT EXAMINATION
Questions by the civilian defense counsel:
Q.
Special Agent Moss, you testified earlier
that your investigation started with a report made
by, then, Staff Sergeant Rachel A[****] on 26
February?
A. Yes.
Q.

She made a written statement to you?

A.

We typed it but, yes.
Appx. 142

Q.
And in that statement, you learned that
this alleged meeting between her and Master
Gunnery Sergeant Thomas occurred on 20 February
–
TC:

Objection; relevance.

[Fed. Cir. Appx13531; AR 3531]
MJ: What is the relevance of this line of
questioning, Mr. Brown?
CDC: Again, Your Honor, we have a period of
six days between the time that Master Sergeant -- or
that Ms. A[****] was allegedly —happened -- and the
time she reports to NCIS. And I wanted to explore -there were two meetings between Ms. A[****] and
the MARFORRES sexual assault response personnel
that occurred. I wanted to explore this with Special
Agent –
MJ: How is that relevant to this motion? It
might be relevant to the suppression motion, but how
is it relevant to this motion?
CDC: It's relevant because, again, it at least -it starts -- if the MARFORRES SAPR [sic] personnel
are involved in tampering with witnesses, for lack of
better term, it at least gets us to a point where we're
now asking the question: Are -- does the convening
authority have anything to do with it?
MJ: How does that -- Special Agent Moss, do
you know anything about that?
WIT: No, ma'am. I'm not familiar with the
Appx. 143

detailed interactions of R[*****] A[****] with SARCs
or SAPRs [sic].
MJ: You may ask a limited number of
questions to let see -- I need to see where you're
going with this, but I'm confused right now.
CDC: I understand, ma'am. Ma'am, if I could
just -Questions by the civilian defense counsel
continued:
Q.
I have in the statement -- you -- the
statement refers to Ms. A[****] meeting with
individuals from the SAPR office on 21
[Fed. Cir. Appx13532; AR 3532]
February; are you aware of that?
A.
No. That general timeframe is probably
true if she stated that, yes.
All right. And then she mentioned that
Q.
she met with them again on 24 February 2014.
TC:

Objection; relevance.

MJ:

What is the relevance of this?

CDC: I'm asking the Special Agent, ma'am, if
she has any reason to be meeting with the SAPR
personnel, not once but twice, before she meets with
NCIS.
Appx. 144

MJ: How would this agent know? How would
he know that?
I'm going to sustain the objection.
Questions by the civilian defense counsel
continued:
Q.
How did the meeting between you and
Staff Sergeant A[****] go? Did she just call you, or
did you arrange it?
A.
I didn't arrange anything. I was in my
office and it was like how we normally receive some
cases, where someone initiates by walking in and
reporting something.
Q.
You had occasion to -- in the course of
your investigation, you took a -- you had a copy of
Ms. A[****]'s cell phone; is that correct?
A.
We attempted to. It's -- we did not have
a good workable copy.
Okay. So you also mentioned for -- that
Q.
she -- did you have consent to search authorization
for Ms. A[****]?
TC:

Objection; relevance.

CDC: I'm laying a foundation.
[Fed. Cir. Appx13533; AR 3533]
MJ:

Overruled.
Appx. 145

Questions by the civilian defense counsel
continued:
A.
She provided a permissive authorization
for her phone.
Q.
And so you felt it important enough to -that something on that phone was going to be helpful
to the course of your investigation, correct?
A.
What I was looking for, with respect to
her phone, was. She made an allegation that there
was some deleted or missing text messages. So what
I did was I said, "Well, let's look through your phone
right now."
So the permissive authorization search and
seizure was initially with the phone that she had
right there. We looked through her phone. We could
not find the messages that she identified. So then, I
took it to a facility over in Gulfport, Mississippi,
where we would be able to see if we could recover
some of the deleted messages because she said she
may have deleted it. And there was a potential that
we could have recovered the deleted message and all
of that was to see -- just to corroborate what she
alleged that the text messages she was presented
had some -- were missing several messages that she
knew occurred between her and Gunnery Sergeant
West.
Q.
And the result of your search was -- that
search of that cell phone was what?
A.
When we went through her phone in my
office, we did not find those missing messages. When
we explored it over in Gulfport, unfortunately, it was
Appx. 146

in an unreadable format.
Q.

What?

A.
When I reviewed Gunnery Sergeant
West's phone, I looked
[Fed. Cir. Appx13534; AR 3534]
through his thumb mail folder. I did see some
messages that did not appear to be in the stack of
text messages that were presented to staff -- to
R[*****] A[****].
Did you make any other attempts to
Q.
download Ms. A[****]'s cell phone?
A.
Negative, because she was transitioning
from the Marine Corps.
Who did the download of the -- Ms.
Q.
A[****]'s cell phone?
TC: Objection; relevance.
MJ: What's the relevance of this for the
unlawful command influence motion?
CDC: Again, Your Honor, at this point, I want
to make sure that -- we have an allegation that a cell
phone was downloaded that could potentially help
the defense.
MJ: This has nothing to do with unlawful
command influence, Mr. Brown. What does that
have to do -- you're saying that he's hiding it from
Appx. 147

you?
CDC: Potentially, ma'am, that's -- again -MJ: And, again, I want to say even if you are
making that curious allegation, how is that unlawful
command influence, within the meaning of -CDC: If it's any -- again, if -- I'm limited to
what I can do, ma'am. Obviously, I've got to lay the
foundation.
MJ:

For what?

CDC: A lot of times, when we talk about
command influence and in a matter of the defense
asking the question, you know -- if we ask the
question directly: Did you or did you not do this?
[Fed. Cir. Appx13535; AR 3535]
We are going to get the, No, answer.
MJ:

Well, let's see.

EXAMINATION BY THE COURT
Questions by the military judge:
Q.
Special Agent Moss, did anybody from
the accused's command or from the general
court-martial convening authority -- did anybody
ever direct you to -- in a particular direction on this
investigation? Did they ever tell you to not pursue
logical leads?
Appx. 148

A.

No, ma'am.

Q.
Did they ever -- did any -- do you have a
forensic extraction of Staff Sergeant A[****]'s phone?
A.
Yes,
unreadable.

ma'am,

we

do,

but

it

was

Okay. Have you provided that to the
Q.
trial counsel, or is that of no value?
A.
It's just -- it would not -- the issue that
we had was that the device that we downloaded to, it
would have basically reformatted if we tried to
extract the data, which meant it would have wiped
everything off of there. So at the time, we didn't
realize we had a bad download. There was a bad
download, but we did go through her phone right
there. The main purpose of looking at her phone
was just to see if we could identify those messages.
So we went through all of her current messages. We
went through her sent messages. We went through
her deleted messages because -- I just wanted to see
if what she's saying, you know, if I could corroborate
any of what she was saying.
Did anybody ever, from the command,
Q.
interfere with your
[Fed. Cir. Appx13536; AR 3536]
investigation in any way?
A.

No, ma'am.

Q.

Did you feel that you were, in any way,
Appx. 149

being pressured to come to certain conclusions?
A.

Not at all, ma'am.

Q.

Or to follow certain leads?

A.

No, ma'am.

MJ:

Anything else, Mr. Brown?

CDC: Just -- I have a few statistical questions
maybe.
DIRECT EXAMINATION
Questions by the civilian defense counsel:
Q.
How many cell phone downloads are
you aware of your office having conducted?
TC:

Objection; relevance.

MJ:

Overruled.

Questions by the civilian defense counsel
continued:
A.
I have no idea. It's -- I've only been in
that office for maybe a year and a couple of months.
That office has been there clearly much longer than
that and even just the reviewing the cell phones is a
pretty common process. And you figure, if we do at
least a hundred cases a year, probably go through
that many phones. But I have no idea.
Q.

Okay. Well, and again, I've got to lay
Appx. 150

some sort of foundation. I'm going to stick with that.
So would you say a fair number is, you know, since
the time you've been there about a hundred cell
phones?
A.
I don't know, but we have three agents.
I don't know
[Fed. Cir. Appx13537; AR 3537]
what all they do, what media exploitation in their
cases is.
Q.
Of all of those cell phones downloaded,
how many are unreadable?
A.
That -- there are a handful of them. I
mean, that just happens from time to time.
Q.

Could you put a percentage on that?

A.
A relatively small percentage. I can't
give you an exact number, but I would suspect a
relatively small percentage. But a lot of it doesn't
usually go to that level of exploitation. A lot of it is
usually just looking at the phone, you know, as it sits
right there in our hands. So that's usually the reason
why you don't have that level of -- that much of a
failure rate. The reason why I wanted to exploit hers
earlier further is because I really wanted to make an
effort to see what was there and if it was deleted.
Q.
Would you say that -- less than 20 percent of
failures?
A.

It's small. I can't quantify that.
Appx. 151

CDC: That's fine. I'll stop there. Nothing
further, ma'am.
MJ:

Any questions, government?

TC:

The government doesn't, ma'am.

MJ: Special Agent Moss, I want to thank you
for your attendance at this motions hearings, and
you are excused.
WIT: Thank you, ma'am.
[The witness withdrew from the courtroom.]
TC: Ma'am, the government recommends
that we probably recess until after the –
[Fed. Cir. Appx13538; AR 3538]
MJ: Well, the last witness to be called is
Gunny -- I'm sorry -- Master Gunnery Sergeant
Thomas; is that correct?
CDC: Yes, ma'am.
MJ:

And what's the proffer of his testimony?

CDC: The proffer of his testimony is -TC:
ma'am.

And he will be called telephonically,

CDC: And, again, it's the issue of Master
Gunnery Sergeant Thomas made an IG complaint
Appx. 152

regarding an incident where he reported that
somebody from SAPR office was initiating an NCIS
investigation against him. He made that complaint
and apparently that is the subject of the motion to
compel that I want to get what the results of that
complaint were and -MJ: How is that related
command influence in this case?

to

unlawful

CDC: Again, ma'am -MJ: Is it just a disparate treatment? Is that
what you –
CDC: I just -MJ: I don't know any case law that talks
about disparate treatment being evidence of
unlawful command influence. There's other motions-there's selective prosecution motions but disparate
treatment does not inform the Court's determination
on -CDC: And -MJ:

-- unlawful command influence.

CDC: And again, ma'am, this is part of my
argument —and maybe trying to characterize this as
the right issue with the things that we're trying to
bring up. The question I have,
[Fed. Cir. Appx13539; AR 3539]
again, is -- my appreciation of a UCI motion is – it is
Appx. 153

hard to get your hands around it -- it's such a broad
standard when you talk about anybody's attempt to
influence the outcome of the court-martial. So -MJ: I don't think there is -- you have
presented the Court with no evidence that anybody is
trying to influence the outcome of this court-martial.
And I don't understand what the proffer on Master
Gunnery Sergeant Thomas is going to add to this
body of evidence on the motion. He's going to say
that he complained against somebody and that
person wasn't investigated, is that what you're
telling me he is going to say on the telephone?
CDC: Well, that's one of the things, ma'am.
He's also going to talk about a meeting that he had
with regards -- and again, the commander of
Headquarters Battalion, an individual was taken -actually, it was Master Sergeant Janneau was
removed from the section.
Our argument is that that was not based on
any allegation, and the sexual assault was simply -it was part of one of the individual accusers, one that
came out the section for personal reasons, meeting
with Master Gunnery Sergeant Thomas and the
commander was to the effect that Master Gunnery
Sergeant Thomas said that he did not feel that
Master Sergeant Janneau should be removed from
the section. Master Gunnery -MJ: Okay. I have seen no relevance he has
with regard to an unlawful command influence
motion in the case of United Stated v Gunnery
Sergeant Luke T. West. I am not convinced that there
is any relevance at all. So what the Court is willing
to do is, you can get an affidavit or a statement from
Appx. 154

Master Gunnery
[Fed. Cir. Appx13540; AR 3540]
Sergeant Thomas, if you want it to be attached to
this. But I, based on that proffer, I don't see -CDC: Actually, I think it -- you know, I agree,
ma'am. To keep from wasting any more time at this
point, I -- you know, I would prefer that we be offered
an opportunity to -- that the court would take this
under advisement and we go out and obviously fix
deficiencies -- for a lack of a better term -MJ:

Okay.

CDC: -- in other words -- and then we can go
from there.
MJ: Well, I'm going to go ahead and put us
in recess now because we are going to go into
training at noon. So we are in recess.
[The Article 39(a) session recessed at 1145, 26
September 2014.] [The Article 39(a) session was
called to order at 1323, 26 September 2014.]
MJ: The Article 39(a) session will come to
order. All parties present when we recessed are
again present.
We held an 802 during the mid-day recess, at
which we discussed the need to schedule another
39(a) and we resolved that by -- we scheduled one for
the 24th of October at 1100, to take up any motions
to compel production of witnesses and argument on
Appx. 155

the suppression motion. And we also discussed the
way ahead for this afternoon, that we still have to
hear argument on the UCI motion and then
argument on the UMC motion unless the parties
wanted to submit on their written briefs.
So then we -- just before we came on the
record, in the courtroom, in the presence of his client,
Mr. Brown brought up a
[Fed. Cir. Appx13541; AR 3541]
potential 514 issue that we will take up on the
record.
So, first, let's go in order. Let's go ahead and
finish up the UCI motion that we were litigating
prior to the lunch recess. If the defense has no
further evidence on the motion -- does the defense
want to be heard on the UCI motion?
CDC: Ma'am, at this time, the defense is going
to defer its argument -- I know that the Court was -indicated that the Court was going to defer ruling
until after we've had a chance to voir dire the
members. So the defense is satisfied with that.
I'm not going to add any argument at this time.
MJ:

Well, let me clarify -- well, okay.

CDC: Yes, ma'am.
MJ: Let me just say, at this point, I find that
the defense has failed to meet the threshold for
raising this issue, which is -- although it’s low, more
than mere allegation or speculation under Biagase,
Appx. 156

50 MJ 143, in that, I don't see any facts that if
proved constitute unlawful command influence.
And I considered that both under the standards of
actual UCI and apparent UCI. I find that, at this
time, based on both the documentary evidence that
the Court has received and the testimony that the
Court has heard, that the defense has failed to meet
its initial burden.
With regard to the impact on the members,
what I mentioned to the defense counsel and the trial
counsel, during the 802, is defense counsel is
certainly entitled, after meeting these members and
hearing their responses to individual voir dire is,
again, entitled to raise the issue of UCI with regard
to a taint on the members and ask me to reconsider
that finding. It seems
[Fed. Cir. Appx13542; AR 3542]
premature right now to rule with regard to members
since we have not had an opportunity to voir dire or
listen to their responses on voir dire. So for the time
being, the Court finds that defense has failed to meet
their initial Biagase burden, and the defense motion
to dismiss for unlawful command influence is denied.

Appx. 157

[APPENDIX I: Excerpts of Trial Testimony of
November 18, 2014 in the case of United States
v. West]
[Fed. Cir. Appx13937; AR 3937]
Gunnery Sergeant Cesar Villegas, U.S. Marine
Corps, was called as a witness by the
government, was sworn, and testified as
follows:
DIRECT EXAMINATION
Questions by the assistant trial counsel:
Q.

Good afternoon, Gunnery Sergeant.

A.

Good afternoon, sir.

Q.
correct?
A.

You made the trip from Okinawa,
That is correct, sir.

Okay. Can you please state your full
Q.
name and spell your last.
A.
Fully name is Cesar Villegas; last name
is V-I-L-L-E-G-A-S.
Q.

And Caesar is C-E-S-A-R?

A.

That is correct, sir.

Q.
And you're a gunnery sergeant on active
duty in the United States Marine Corps?
Appx. 158

A.

Yes I am, sir.
*

*

*

[Fed. Cir. Appx13943; AR 3943]
I'm going to turn your attention to a
Q.
basketball game -- a professional basketball game in
March of 2013. Do you recall attending one with your
section -- with members of your section?
[Fed. Cir. Appx13944; AR 3944]
A.

Yes, sir.

Q.
Specifically do you remember the
basketball game -- that game in which you attended
with Staff Sergeant A[****]?
A.

Yes, sir.

Q.

And Master Sergeant Janneau?

A.

Yes, sir.

Q.
correct?
A.

And other members of your section,
That is correct, sir.

Q.
Where was Staff Sergeant
sitting in that aisle, in relation to you?
A.
Staff Sergeant
directly to my right, sir.

A[****]

was

A[****]
sitting

Appx. 159

Q.

How close were you to the court?

A.
We were in the nosebleed section, sir, so
not very close.
Okay. So she is immediately to your
Q.
right, correct?
A.

Yes, sir.

Q.

Who is to your left?

A.

To my left is Gunnery Sergeant West.

Q.
And who was on the other side of Staff
Sergeant A[****]?
A.

It was Master Sergeant Janneau.

Q.
At some point, you heard the accused
make a statement regarding a work wife, correct?
A.

Yes, sir.

Q.

And what was that statement?

A.
The statement was that Staff Sergeant
A[****] was Gunny
[Fed. Cir. Appx13945; AR 3945]
West's work wife. And along those lines, he also
threw out that it was his birthday, and he was
displeased with the fact that she didn't acknowledge
or at least tell him happy birthday. And then, he
Appx. 160

went on another tangent and stated that, you know,
he usually gets BJs on his birthday and he didn't get
one that day.
Q.
Okay. Did you notice a change in Staff
Sergeant A[****]'s disposition after he made the
comment?
A.
offended.

Yes. You could definitely tell she was

Do you think
Q.
appropriate comment?
A.

that

that

was

an

I don't think it was appropriate, sir.

Q.
Did Master Sergeant Janneau find out
about this comment?
A.

Yes, he did, sir.

And were you aware of whether or not
Q.
he counseled the accused on this?
A

I believe he did, sir.

ATC: Gunnery Sergeant Villegas, thank you
for your testimony. At this time, I do not have any
additional questions.
MJ:

Cross-examination of this witness?

ATC: I'm sorry, ma'am. I apologize. I have a
final question.
Questions

by

the

assistant

trial

counsel
Appx. 161

continued:
Q.
Over the course of your daily interaction
with, then, Staff Sergeant R[****] and Staff Sergeant
A[****] and Sergeant P[******], were you able to
form an opinion as to their character for
truthfulness?
[Fed. Cir. Appx13946; AR 3946]
A.
Yes, sir, I can form an opinion on that. I
never had any issues with integrity with them, so I
wouldn't question their integrity when it comes to
that, sir.
ATC: Ma'am, that was the last question.
Thank you, Gunnery Sergeant.

Appx. 162

APPENDIX J:
Relevant Correspondence
Regarding Actions of OJAG USN]
[Fed. Cir. Appx13110; AR 3110]
UNITED STATES MARINE CORPS
Office of the Staff Judge Advocate
Marine Forces Reserve
2000 Opelousas Avenue
New Orleans, LA 70114-1500

MEMORANDUM

1900
SJA/ant
23 Jan 15

From: Commander, Marine Forces Reserve
To:
Defense Counsel
Subj: REQUEST FOR VERBATIM TRANSCRIPT,
ALTERNATIVE REQUEST FOR AUDIO OF
COUR PROCEEDING ICO U.S. v. LANCE
CORPORAL LUKE T. WEST, USMC
Ref:

(a) Letter of Mr. Claiborne W. Brown, dated 21
January 2015
(b) R.C.M. 1103, MCM (2012 ed.)
(c) R.C.M. 1103, MCM (2012 ed.)
(d) JAGINST 5800.7F
(e) SECNAVINST 5211.5 (series)

1.
Your request set forth in reference (a) for a
verbatim transcript in the subject General CourtMartial is denied. In accordance with reference (b), a
verbatim transcript is not required, and, therefore, a
summarized report of the proceedings will be
prepared. Pursuant to reference (c), a copy of the
Appx. 163

authenticated, summarized record of trial will be
served on the accused.
2.
Similarly, your alternative request for the
audio recording of the court proceedings is denied in
accordance with references (d) and (e), detailing the
responsibility of the government to properly
safeguard personally protected and identifiable
information.
3.
The point of contact for this matter is
Lieutenant Colonel Amy N. Thomas, U.S. Marine
Corps, Deputy Staff Judge Advocate, Marine Forces
Reserve, who may be contacted at (xxx) xxx-xxxx or
at xxxxxxxxxxx.mil.
/s/
E. R. KLEIS
By Direction

Appx. 164

[Fed. Cir. Appx13216; AR 3216]
DEPARTMENT OF THE NAVY
Office of the Judge Advocate General
1254 Charles Morris Street SE, Suite B01
Washington, DC 20374-5124

Mr. Claiborne W. Brown
222 North Vermont Street, Suite I
Covington, Louisiana 70433

5814
Ser 02/101
1 Dec 16

Dear Mr. Brown
SUBJECT: RE APPELLATE REVIEW UNDER
UCMJ ARTICLE 69(a) ICO US v.
WEST, xxx-xx-8855
Thank you for your letter dated November 18,
2016. Your supplemental submission was received
on August 9, 2016.
While the Office of the Judge Advocate
General of the Navy works hard to ensure that each
post-trial petition is reviewed as expeditiously as
possible, each case must be afforded the requisite
due diligence. The above referenced case is complex,
involving a number of legal issues among the eleven
assignments of error you have submitted. Best
efforts to work with the existing summarized record
of trial have led to the conclusion that a verbatim
transcript is necessary for a thorough evaluation of
the legal sufficiency of this case.
I have requested that the convening authority
provide a verbatim transcript of Mr. West’s court
Appx. 165

martial and his Article 69 review will resume
immediately upon receipt.
Sincerely,
/s/
D.J. LECCE
Colonel, U.S. Marine Corps
Assistant Judge Advocate General
of the Navy (Military Justice
Copy to: VADM J.W. Crawford III, JAGC, USN

Appx. 166

[Fed. Cir. Appx13448; AR 3448]
Claiborne W. Brown, L.L.C.
Attorney at law
1070-B West Causeway Approach
Mandeville, Louisiana 70471
Telephone: (985) 845-2824
Facsimile: (985) 246-3199
cwbrown@cwbrownlaw.com
31 March 2017
Judge Advocate General, United States Navy
c/o AUSA Sunni J. Lebeouf
Office of the United States Attorney
Eastern District of Louisiana
650 Poydras St., Ste. 1600
New Orleans, LA 70130
Re: Appellate Review under UCMJ Article
69 ICO U.S. v. Luke T. West xxx-xx8855
Dear Sir:
It has been brought to the attention of the
undersigned through responsive pleadings in the
matter of West v. Crawford, USDC EDLa, Docket No.
2:17-cv-1294, Section I(1), that your Office is
providing Mr. West with 10 days within which to
review a copy of the verbatim transcript and audio of
his general court martial proceedings, obtained by
him on 29 March 2017, and to submit any objections
as to authenticity of same within that timeframe,
after which the verbatim transcript will be inserted
into the record of trial for the proceedings for
continued U.C.M.J. Article 69 review (pending a
Appx. 167

ruling from the Court in the aforementioned Federal
matter). Your Office’s intended commencement of
this 10 day period is unclear, but could potentially be
as early as 23 March 2017 (as the time the verbatim
transcript and audio were purportedly made
available for pick-up at Marine Forces Reserves in
New Orleans). This action is purportedly being
taken pursuant to Rules for Courts Martial (RCM)
Rule 1104(d).
With utmost respect, Mr. West objects to this
purported requirement imposed by your Office.
Undersigned specifically asserts that your Office has
not properly made a finding under R.C.M. 1104(d)
that the authenticated record of trial is “incomplete”
or “inaccurate”. Additionally, undersigned counsel
has not received any notice, in a manner consistent
with the Due Process Clause of the U.S.
Constitution, of the proposed corrections thereto, nor
can 10 days be considered adequate to “permit [Mr.
West, through undersigned] to examine and respond”
to proposed corrections to a record that your Office
has yet to acknowledge is “incomplete”, “inaccurate”
or otherwise “defective.” As such, Mr. West hereby
reserves all rights to conduct a thorough review of
said transcript and to potentially contest the
authenticity thereof in this or any other appropriate
proceeding.
This is also to advise that undersigned takes
particular exception to the contents of Paragraph 5 of
the proposed “Memorandum of Agreement” tendered
to undersigned by your
[Fed. Cir. Appx13449; AR 3449]
Office on 23 March 2017, and attached hereto for
your reference.
Paragraph 5 of this document
Appx. 168

contains, at best, a vague and highly inappropriate
suggestion of potential disciplinary action against
undersigned, a U.C.M.J. Article 27(b) certified
attorney admittedly subject to the jurisdiction of
your Office, for duly representing Mr. West in this
and other related proceedings. At worst, Paragraph
5 of the draft MOA contains a calculated threat
designed to have a malicious chilling effect on that
representation. Undersigned does appreciate the
tendency to attempt to equate, in terms of tone,
Paragraph 5 of the draft MOA with undersigned’s
correspondence of 18 November 2016 and 24 January
2017.
That notwithstanding, in addition to
incomparability as to content, there is inarguably a
considerable
disparity
between
undersigned’s
position as a potential complaintant vis-à-vis, the
November and January correspondences; and yours
as potential complaintant, judge, jury, and
executioner, vis-à-vis, Paragraph 5 of the draft MOA.
In any event, undersigned stands by all previous
submissions to your Office notwithstanding the
insinuations contained in Paragraph 5 of the draft
MOA. Further, absent being provided with any
specific reasonable grounds to the contrary by your
Office, undersigned advises that he intends to use
the verbatim transcript and audio thereof, obtained
un-redacted
from
your
duly
designated
representative, in any manner which undersigned
deems is in the best interest of furthering the
representation of Mr. West in this or any other
proceedings.
Without
waiving
the
aforementioned
objections, to the extent that a response would be
considered to be warranted to the conditions set by
your Office, undersigned re-avers and re-asserts all
assignments of error as originally asserted in the 18
Appx. 169

July 2016 and 9 August 2016 submissions.
Specifically, undersigned at this time re-asserts the
specific assignments of error not properly reflected in
the summarized transcript and hereby objects to any
portion of the verbatim transcript to the extent that
said transcript may (if at all) materially conflict with
the assertions made by undersigned counsel as to the
particulars of those assignments of error.
In addition to the assertions regarding the
transcript of the proceedings, undersigned counsel
also specifically re-avers and re-asserts, as objections
to the accuracy of the record of trial, the omissions of
particular critical documents as previously noted in
the 18 July 2016 and 9 August 2016 submissions.
Particularly, undersigned hereby re-avers the
absence of the following from the previously
authenticated record of trial:
a) Defense Page 58 Matters filed on 7 Nov
2014;
b) Defense Motion to Dismiss UCI filed 6 Feb
2014 (West 1);
c) Defense Motion to Dismiss UCI filed 27 Mar
2014 (West 1);
d) Defense Motion to Dismiss UCI filed 12 Sep
2014;
e)
Defense
Motion
to
Dismiss:
Contempt/Suppress filed 12 Sept 2014;
f) Defense Supplemental Memo Motion to
Suppress filed 1 Oct 2014;
Appx. 170

[Fed. Cir. Appx13450; AR 3450]
g) Govt Response to Motion to Dismiss UMC
filed 19 Sep 2014;
h) Govt Response to Motion to Dismiss UCI
filed 19 Sep 2014;
i) Defense Reply on Motion to Dismiss UCI
filed 24 Sep 2014;
j) Complete copy of SSgt Rieth’s 4 Nov 2013
Article 32 Testimony.
Said items were previously included in the
aforementioned submissions, though undersigned
would be willing to re-submit them to your Office
upon specific request for same.
Respectfully,
/s/
CLAIBORNE W. BROWN

CWB/cb
cc:
Mr. Luke T. West (via electronic mail);

Appx. 171

[Fed. Cir. Appx13451; AR 3451]
DEPARTMENT OF THE NAVY
Office of the Judge Advocate General
1254 Charles Morris Street SE, Suite B01
Washington, DC 20374-5124

Mr. Claiborne W. Brown
222 North Vermont Street, Suite I
Covington, Louisiana 70433

5814
Ser 02/1244
April 6, 2017

SUBJECT: RE APPELLATE REVIEW UNDER
UCMJ ARTICLE 69(a) ICO US v.
WEST, xxx-xx-8855
Dear Mr. Brown:
I am responding to your letter dated March 31,
2017 on behalf of the Judge Advocate General of the
Navy in relation to the Navy’s review of your client’s,
Mr. Luke T. West, court-martial conviction pursuant
to Uniform Code of Military Justice (UCMJ) Article
69(a).
My office has provided you with ten business
days to review the verbatim transcript before it is
authenticated by the Military Judge and inserted
into the record of trial. You received the verbatim
transcript on March 29, 2017; therefore, you have
until April 13, 2017 to review the transcript. If you
need more time to review the verbatim transcript,
you may request more time in writing via the
Assistant United States Attorney’s office, My office is
authorized to approve a reasonable extension of time.
Appx. 172

In prior correspondence, you stated that your client
sought immediate resolution concerning the Article
69(a) review. I reiterated that my office will not take
action on Mr. West’s Article 69(a) review until the
district court has ruled on your application for
mandamus.
Second, you requested that my office make a
determination that the record of trial containing a
summarized transcript of Mr. West’s proceedings be
found “incomplete” or “inaccurate” pursuant to Rule
for Courts-Martial (RCM 1104(d). The summarized
transcript of Mr. West’s trial, in and of itself,
complies with the requirements of RCM 1103.
Commensurate with my discretion in these matters,
I deemed that, in this case, the summarized record of
trial was incomplete only in the sense that it did not
provide the level of detail necessary to address your
client’s eleven assignments of error. In the interest
of providing your client a complete review of each
assignment of error, I ordered the convening
authority to produce the verbatim transcript you
requested in your Article 69(a) petition for insertion
into the record of trial. I did this despite the fact
that a verbatim transcript is not required by UCMJ
Article 69(a), and the Judge Advocate
[Fed. Cir. Appx13452; AR 3452]
General, in his discretion, could have issued an
Article 69(a) decision based upon the summarized
transcript alone.
Finally, paragraph 5 of the proposed
memorandum of agreement was meant to serve as
notice that, as a covered attorney under the Judge

Appx. 173

Advocate General Instruction (JAGINST) 5803.1E1,
and specifically enclosure (1) of that instruction, you
are to “obey the law and military regulations”. The
verbatim transcript and audio recording provided to
you by Marine Forces Reserve contain information
protected by the Privacy Act (5 U.S.C. § 552a). Those
records contain the names of alleged victims in
conjunction with their testimony, as well as other
identifying information about investigators and
others associated with this case that are required to
be protected from public disclosure under the Privacy
Act and case law interpreting the Privacy Act. We
provided the un-redacted and unauthenticated
verbatim transcript to you in conjunction with our
customary appellate review process.
The audio
recordings have been made available to you since
your original FOIA request in January 2015 in
accordance with RCM 1103(i)(1)(B)2. Because you
stated that you were unable to come to the Staff
Judge Advocate’s office of Marine Forces Reserve to
review these audio files, my office made these files
available to you.
In so doing, we entrusted
information to you that is protected by the Privacy
Act.
However, in accordance with JAGINST
5803.1E, as a covered attorney, you are to abide by
the Privacy Act
Further, Rule 3.6 of JAGINST 5803.1E states
that a “covered attorney shall not make an
extrajudicial statement about any person or case
Partington v. Houck, establishes the JAG’s authority over
civilian attorneys practicing before the JAG Corps.
2 The discussion to RCM 1103(i)(1)(B) states “[t]he defense
counsel should be granted reasonable access to reporters notes
and tapes to facilitate the examination of the record.” Please
note the rule does not say that defense counsel must be
provided with a copy.
1

Appx. 174

pending investigation or adverse administrative or
disciplinary proceedings that a reasonable person
would expect to be disseminated by means of public
communication if the covered attorney knows or
reasonably should know that it will have a
substantial likelihood of prejudicing an adjudicative
proceeding or official review process thereof.” The
rule goes on to state that the “protection and release
of information in matters pertaining to the
Department of the Navy is governed by such statutes
as the Freedom of Information Act and the Privacy
Act . . .” Again, the draft memorandum of agreement
was meant to serve as notice to you to abide by the
Privacy Act.
When you refused to sign this
agreement, my office released the information to you
anyway, with the Assistant United States Attorney
providing notice that you must abide by the Privacy
Act to safeguard protected information from public
release and, as a result, avoid any potential to
improperly impact this review process.
[Fed. Cir. Appx13453; AR 3453]
A Privacy Act warning is given to all appellate
defense counsel practicing under JAGINST 5803.1E
warning them against misusing the materials
contained within the record of trial they are
reviewing. Paragraph five of the memorandum of
agreement serves as notice to you to abide by
JAGINST 5803.1E. This does not limit zealous
advocacy on your part. It simply means you must
abide by the same rules applicable to all covered
counsel, which includes protecting information
covered by the Privacy Act.
Finally, the assignments of error you have reasserted are acknowledged and will be reviewed
Appx. 175

following the resolution of your application for
mandamus.
Sincerely,
/s/
D.J. LECCE
Colonel, U.S. Marine Corps
Assistant Judge Advocate General
of the Navy (Military Justice)
Copy to:
Assistant United States Attorney
for the Eastern District of Louisiana
Sunni LeBeouf

Appx. 176

[Fed. Cir. Appx14383; AR 4383]
IN THE OFFICE OF THE
JUDGE ADVOCATE GENERAL OF THE NAVY
UNITED STATES
v.
LUKE T. WEST
Gunnery Sergeant(E-7)
U.S. Marine Corps

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

NMCCA NO.
201500097
Examination
pursuant to Articles
69(a) and 73, UCMJ,
of the general courtmartial convened by
Commanding
General, HQ
Battalion, Marine
Forces Reserve
Sentence adjudged:
21 Nov 2014

The record of trial in the foregoing case has
been examined in accordance with Articles 59(a),
69(a), Uniform Code of Military Justice, 10 U.S.C. §§
859(a), 869(a). No part of the findings or sentence is
unsupported in law, and reassessment of the
sentence is not appropriate.
Accordingly, the
findings and approved sentence are affirmed.
The petition for new trial in the foregoing case
has been reviewed in accordance with Article 73,
Uniform Code of Military Justice, 10 U.S.C. § 873,
and Rule for Courts-Martial 1210. After careful
review, it has been determined that there is no newly
discovered evidence that, when considered in light of
Appx. 177

all other pertinent evidence, would probably produce
a more favorable result for the Petitioner.
Additionally, there is no other evidence of any fraud
on the court that had a substantial contributing
effect on a finding of guilty or the sentence adjudged.
Accordingly, the petition for a new trial is denied.
/s/
D.J. LECCE
By direction of the
Judge Advocate General

Appx. 178

[APPENDIX K:
Protective Order]

Court of Federal Claims

[Fed. Cir. Appx417]
In the United States Court of Federal Claims
________________________
)
)
LUKE T. WEST,
)
)
Plaintiff.
)
)
v.
)
)
THE UNITED STATES,
)
)
Defendant.
)
_________________________)

NO. 17-2052C
Filed April 24, 2018

PROTECTIVE ORDER
The Court has determined that certain
information to be filed in connection with this
Military Pay Act matter may be covered by the
Privacy Act, 5 U.S.C. § 552a. Upon consideration of
defendant’s motion for an order authorizing
defendant to disclose certain information covered by
the Privacy Act, 5 U.S.C. § 552a, and pursuant to
Rule 26(c) of the Rules of the United States Court of
Federal Claims and 5 U.S.C. § 552a(b)(11), it is
hereby ORDERED that, subject to the terms below,
defendant, the United States of America (the
“Government”), is authorized to release to plaintiff’s
counsel—without obtaining prior written consent of
Appx. 179

the individual to whom the information pertains—
records, documents, or information that is properly
discoverable in this litigation but the release of
which the Privacy Act would otherwise prohibit.
All disclosures of the information described
above shall be subject to the following terms.
1. “Protected Information,” as used herein, means
any information contained in any document
produced, filed, or served by a party to this
litigation (including, but not limited to, a
pleading, motion, brief, notice or discovery
request or response, deposition transcript, court
transcript, declaration, or declaration):
a. required to be kept confidential pursuant to
the Privacy Act, 5 U.S.C. § 552a; and
[Fed. Cir. Appx418]
b. designated protected by the Government,
pursuant to paragraphs 5 or 8 of this
Protective Order, based upon the reasonable
belief that the public release of such
information would be contrary to the public
interest.
2. This Protective Order pertains only to documents
disclosed by the Government in this litigation to
the extent plaintiff is not already in possession of
the documents through another source. This
Protective Order does not pertain to plaintiff in
regard to the use of his own Protected
Information, nor does it pertain to United States
officials in the exercise of their lawful duties with
respect to any documents obtained outside of this
litigation.
3. An “Authorized Person” under this Protective
Order includes only:
Appx. 180

a. personnel of the Court, the Department of
Justice, the United States Marine Corps,
United States Navy, and any Executive
Branch personnel involved with or affected by
this litigation;
b. plaintiff’s counsel of record, attorneys working
with counsel of record, and administrative
personnel supporting plaintiff’s counsel in this
litigation;
c. plaintiff;
d. court reporters who agree to be bound by this
Protective Order; and
e. any person agreed to by the parties in writing
or allowed by the Court. All individuals
identified in subparagraphs (b) through (e)
above to whom Protected Information is
disclosed shall be informed of, and shall agree
to abide by, the terms of this Protective Order;
shall not otherwise disclose the documents or
information subject to this Protective Order to
the public or to any person or entity; and shall
acknowledge their agreement to comply with
the provisions of this Protective Order by
signing
a
copy
of
the
attached
acknowledgment form. Counsel will retain
copies of the acknowledgment forms until such
time as this litigation, including all appeals, is
concluded.
4. Authorized
Persons
shall
use
Protected
Information solely for purposes of this litigation;
may provide Protected Information only to other
Authorized Persons;
[Fed. Cir. Appx419]

Appx. 181

and shall not give, show, make available, discuss,
or otherwise communicate Protected Information
in any form except as provided herein.
5. Protected Information must be identified as
follows:
a. if provided in electronic form, the subject line
of the electronic transmission shall read
“CONTAINS PROTECTED INFORMATION”;
or
b. if provided in paper form, the document must
be sealed in a parcel containing the legend
“PROTECTED INFORMATION ENCLOSED”
conspicuously marked on the outside.
The first page of each document containing
Protected Information, including courtesy copies
for use by the Court, must contain a banner
stating “Protected Information to Be Disclosed
Only in Accordance With the U.S. Court of
Federal Claims Protective Order.”
6. Pursuant to this Protective Order, a document
containing Protected Information may be filed
electronically under the Court’s electronic case
filing system using the appropriate activity listed
in the “SEALED” documents menu. If filed in
paper form, a document containing Protected
Information must be sealed in the manner
prescribed in paragraph 5(b) and must include as
an attachment to the front of the parcel a copy of
the certificate of service identifying the document
being filed.
7. If a party determines that a previously produced
or filed document contains Protected Information,
the party may give notice in writing to the Court
and the other parties that the document is to be
treated as protected, and thereafter the
Appx. 182

designated document must be treated
accordance with this Protective Order.

in

8. If a plaintiff objects to the Government’s
designation of particular information as
protected, counsel for the objecting party shall
promptly notify the Government, in writing, of
the objection and the basis for the objection. The
parties shall confer on the objection within seven
(7) calendar days of the notice to the Government
of the objection. If the parties cannot resolve the
objection within twenty-one (21) calendar days of
the notice to the Government of the objection,
either party may seek resolution of the issue by
the Court. Unless and until the Court rules
otherwise, the parties agree that the terms of this
Protective Order apply fully to the information
subject to the objection.
[Fed. Cir. Appx420]
9. Redacting Protected Documents for the Public
Record:
a. After filing a document containing Protected
Information in accordance with paragraph 5,
or after later designating a document
pursuant to paragraph 7, a party may serve on
the other party a proposed redacted version
that is marked “Proposed Redacted Version” in
the upper righthand corner of the first page
with the claimed Protected Information
deleted.
b. If a party seeks to include additional
redactions, it must advise the filing party of its
proposed redactions within two (2) business
days after receipt of the proposed redacted
Appx. 183

version, or such other time as agreed upon by
the parties. The filing party must then provide
the other parties with a second redacted
version of the document clearly marked
“Agreed-Upon Redacted Version” in the upper
right-hand corner of the page with the
additional information deleted.
c. At the expiration of the time period noted in
(b) above, or after the parties have reached an
agreement regarding additional redactions,
the filing party may file with the Court the
final redacted version of the document clearly
marked “Redacted Version” in the upper righthand corner of the first page. This document
will be available to the public.
10. The Government may at any time waive the
protection of this Protective Order with respect to
any and all information by so advising the Court
and counsel for all parties in writing, identifying
with specificity the information to which this
Protective Order shall no longer apply.
11. Nothing contained in this Protective Order shall
preclude a party from seeking relief from this
Protective Order through the filing of an
appropriate motion with the Court that sets forth
the basis for the relief sought.
12. Each person covered by this Protective Order
shall take all necessary precautions to prevent
disclosure of Protected Information, including but
not limited to physically securing, safeguarding,
and restricting access to Protected Information.
The confidentiality of information learned
pursuant to this Protective Order shall be
maintained in perpetuity. Within 45 days of the
conclusion of this litigation,
Appx. 184

[Fed. Cir. Appx421]
including all appeals, Protected Information,
including all copies of any document, shall be
destroyed or returned to the Government; and
Authorized
Persons
that
executed
the
Acknowledgment pursuant to paragraph 3, shall
certify in writing to the Government that all
Protected Information has been destroyed or
returned and all copies or extracts containing
such information have been destroyed. Each party
may retain a file copy of any document that has
been filed with this Court or with a court of
appeals in connection with this litigation, but the
document must be maintained subject to the
terms of this Protective Order.
13. Counsel for the parties shall promptly report any
breach of the provisions of this Protective Order
to counsel for the opposing party. Upon discovery
of any breach, counsel shall immediately take
appropriate action to cure the violation and
retrieve any Protected Information that may have
been disclosed to persons not covered by this
Protective Order. The parties shall reasonably
cooperate in determining the reasons for any such
breach.
IT IS SO ORDERED.
s/ Lydia Kay Griggsby
LYDIA KAY GRIGGSBY
Judge

Appx. 185

[APPENDIX L: Judgment and Opinions: West
v. Rieth, et al., USDC EDLa No. 15-2512]
[E.D. La. No. 15-2512, R. Doc. No. 105, p.1]
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
LUKE T. WEST
VERSUS
CARRIE L. RIETH, ET AL.

CIVIL ACTION
NO. 15-2512
SECTION I

JUDGMENT
Considering the Court’s orders of December 22,
2015,1 June 24, 2016,2 and July 11, 2016,3 granting
motions to dismiss as to all of plaintiff’s claims
against defendants, Carrie L. Rieth, Erin E. Parrott,
Rachel J. Allen, Kendra L. Johnson, Margaret
“Peggy” Cuevas, Lindsay Bartucco, Shanda Stucker,
and the United States of America,
IT IS ORDERED, ADJUDGED, AND
DECREED that there be judgment in favor of
defendants and against plaintiff, Luke T. West, as
set forth below, each party to bear its own costs.
IT IS FURTHER ORDERED that plaintiff’s
state-law claims against defendants, Carrie L. Rieth,
Erin E. Parrott, Rachel J. Allen, and Kendra L.
Johnson
are
DISMISSED
WITHOUT
PREJUDICE for lack of subject matter jurisdiction.
IT IS FURTHER ORDERED that plaintiff’s
R. Doc. No. 57.
R. Doc. No. 102.
3 R. Doc. No. 104.
1
2

Appx. 186

claims pursuant to the Federal Tort Claims Act
against the United States are DISMISSED
WITHOUT PREJUDICE for lack of subject matter
jurisdiction.
[E.D. La. No. 15-2512, R. Doc. No. 105, p.2]
IT IS FURTHER ORDERED that plaintiff’s
federal-law claims against defendants, Carrie L.
Rieth, Erin E. Parrott, Margaret “Peggy” Cuevas,
Lindsay Bartucco, and Shanda Stucker are
DISMISSED WITH PREJUDICE. New Orleans,
Louisiana, July 12, 2016.
_______/s/_____________
LANCE M. AFRICK
UNITED STATES DISTRICT JUDGE

Appx. 187

[E.D. La. No. 15-2512, R. Doc. No. 57, p.1]
LUKE T. WEST
v.
CARRIE L. RIETH, ET AL.
CIVIL ACTION NO. 15-2512

SECTION I

UNITED STATES DISTRICT COURT EASTERN
DISTRICT OF LOUISIANA
December 22, 2015
ORDER AND REASONS
The Court has before it a motion1 filed by the
United States of America to dismiss defendants,
Carrie L. Rieth ("Rieth"), Erin E. Parrott ("Parrott"),
Rachel J. Allen ("Allen"), and Kendra L. Johnson
("Johnson") (collectively, the "Federal Defendants")
and to substitute the United States of America as a
defendant in their place. Plaintiff opposes the
motion.2 The Court has received substantial
supplemental briefing. For the following reasons, the
motion is granted.
BACKGROUND
Plaintiff, Luke T. West ("West"), was at all times
relevant to the pending motion a service member in
the United States Marine Corps. West alleges that
the Federal Defendants, who with one exception
were also U.S. Marine Corps service members at all
relevant times, conspired to lodge false complaints
and accusations of sexual harassment and sexual
assault against him. According to the complaint,
Appx. 188

such false allegations were personally motivated by a
desire to remove West and another individual from
their supervisory positions and to obtain favorable
transfers.3 Investigations ensued, and West was
court-martialed with respect to the allegations
lodged by Rieth, Parrott, and
[E.D. La. No. 15-2512, R. Doc. No. 57, p.2]
Allen. The allegation that West raped defendant
Johnson was not part of the court-martial because an
investigator found that such allegation was not
credible.4
At the court-martial in November 2014,
defendants Rieth, Parrott, and Allen testified under
oath against West, which testimony West alleges was
false. Defendant, Allen, was no longer an employee of
the U.S. Marine Corps at the time of the courtmartial; the undisputed record establishes that her
service ended on April 26, 2014.5
West was found not guilty of the majority of
charges arising out of the alleged sexual assault and
harassment directed towards Parrott, Harper, and
Rieth.6 He was found guilty of a subset of charges
based on (1) certain sexually suggestive comments
made to Allen7 and (2) obstructing justice by
conspiring with another Marine to provide Allen with
copies of their text messages in an attempt to
influence her testimony.8 West alleges that as he was
being escorted to serve a sentence of thirty days in
confinement as a result of his convictions,
"defendants Rieth, Parrott, and Allen,
[E.D. La. No. 15-2512, R. Doc. No. 57, p.3]

Appx. 189

spit upon" him.9
West filed this lawsuit against the Federal
Defendants on July 9, 2015, invoking the Court's
diversity jurisdiction.10 The United States responded
by filing the present motion to dismiss the Federal
Defendants and to substitute itself as defendant on
the basis of an attached certification by the U.S.
Attorney for the Eastern District of Louisiana that
the Federal Defendants "were at all relevant times
acting within the scope of their federal employment
with the United States Marine Corps at the time of
the conduct alleged in the complaint."11
LAW & ANALYSIS
A. Applicable Law
1. The Westfall
Employee Immunity

Act

and

Government

Pursuant to 28 U.S.C. § 2679, "commonly known
as the Westfall Act," "federal employees [have]
absolute immunity from common-law tort claims
arising out of acts they undertake in the course of
their official duties." Osborn v. Haley, 549 U.S. 225,
229 (2007). "When a federal employee is sued for
wrongful or negligent conduct, the Act empowers the
Attorney General to
[E.D. La. No. 15-2512, R. Doc. No. 57, p.4]
certify that the employee 'was acting within the
scope of his office or employment at the time of the
incident out of which the claim arose.'" Id. at 229-30
Appx. 190

(quoting 28 U.S.C. § 2679(d)(1), (2)). Pursuant to
regulation, the United States Attorney for the
district where a lawsuit is filed may make the scopeof-employment certification. 28 C.F.R. § 15.4(a).
"Upon . . . certification, the employee is dismissed
from the action, and the United States is substituted
as defendant in place of the employee." Osborn, 549
U.S. at 230. "The litigation is thereafter governed by
the Federal Tort Claims Act (FTCA)." Id. (citation
omitted).
The U.S. Attorney's "scope-of-employment
certification is subject to judicial review." Id.; accord
Williams v. United States, 71 F.3d 502, 505 (5th Cir.
1995).
Although
the
scope-of-employment
certification is not "prima facie evidence," the burden
of proof is on the "plaintiff to show that the
defendant's conduct was not within the scope of his
or her employment." Williams, 71 F.3d at 506. The
Court must determine "that the employee[s], in fact,
and not simply as alleged by the plaintiff, engaged in
conduct beyond the scope of their employment."
Osborn, 547 U.S. at 231 (emphasis in original).12
2. Louisiana Law Regarding Course and
Scope of Employment
Judicial review of the scope-of-employment
certification "requires the application of the law of
the state in which the employee's conduct occurred."
Williams, 71 F.3d at 505. All parties agree
[E.D. La. No. 15-2512, R. Doc. No. 57, p.5]
that Louisiana law governs the course-and-scope
issue in this case.13
Appx. 191

"In
Louisiana,
'generally
speaking,
an
employee's conduct is within the course and scope of
his employment if the conduct is of the kind that he
is employed to perform, occurs substantially within
the authorized limits of time and space, and is
activated at least in part by a purpose to serve the
employer.'" White v. United States, 419 F. App'x 439,
442 (5th Cir. 2011) (quoting Orgeron v. McDonald,
639 So. 2d 224, 226-27 (La. 1994)) (alteration
omitted). "In other words, the issue is whether 'the
tortious conduct of the employee was so closely
connected in time, place, and causation to his
employment-duties as to be regarded a risk of harm
fairly attributable to the employer's business.'" Id.
(quoting Baumeister v. Plunkett, 673 So. 2d 994, 997
(La. 1996)) (alteration omitted).
"Louisiana courts tend to focus on four factors:
(1) whether the tortious act was primarily
employment rooted; (2) whether the act was
reasonably incidental to the performance of the
employee's duties; (3) whether the act occurred on
the employer's premises; and (4) whether it occurred
during the hours of employment." Id. (citing Manale
v. City of New Orleans, Dep't of Police, 673 F.2d 122,
126 (5th Cir. 1982)). "All four of these factors need
not be met in a particular case." Id. (citing
Baumeister, 673 So. 2d at 997). "That the
'predominant motive of the servant is to benefit
himself or a third person does not prevent the act
from being within the scope of employment.'" Id.
(quoting Ermert v. Hartford Ins. Co., 559 So. 2d 467,
477 (La. 1990)). "Indeed, 'if the purpose of serving
the master's business actuates the servant to any
appreciable extent, the master is subject to liability if
the act is otherwise within the service.'" Id. (quoting
Appx. 192

Ermert, 559 So. 2d at 477)) (alteration omitted). "The
particular facts of each case must be analyzed to
determine whether the employee's tortious conduct
was within the course and scope of his employment."
[E.D. La. No. 15-2512, R. Doc. No. 57, p.6]
Baumeister, 673 So. 2d at 997.
The
Fifth
Circuit
addressed
Westfall
certification, defamation, and Louisiana law in White
v. United States, 419 F. App'x 439. The Court notes
that such decisions are fact-intensive and White is
not directly applicable to the facts here. However, the
court in White suggested that an allegedly
defamatory statement by a government employee
might not be within the course and scope of
employment if such statement was made solely on
the basis of a "personal vendetta" and it was not
motivated "at least to an appreciable extent" by
serving the government employer. See id. at 443.
B. Analysis
The issue is whether West has satisfied his
burden of proof relative to the U.S. Attorney's scopeof-employment determination and whether he has
sufficiently demonstrated that any of the Federal
Defendants' "conduct was not within the scope of
[their] employment." White, 419 F. App'x at 442.
Many factors relevant to this factual analysis are not
seriously disputed, such as the employment
relationships between West and the Federal
Defendants, the fact that the allegations were made,
the fact that West was court-martialed on the basis
of many of those allegations, and the outcome of the
Appx. 193

court-martial. The Court finds it efficient to group
the extensive briefing as to these issues into three
disputed areas: (1) the fundamental factual
disagreement between West and the government as
to whether the Federal Defendants falsely
incriminated West regarding the alleged sexual
assault and sexual harassment; (2) the undisputed
fact that Allen's employment with the Marines ended
before she testified against West at the courtmartial; and (3) the allegation that three defendants
spit on West after his court-martial.
1) The Certification and the Alleged Falsity
of the Allegations
According to the government, the Federal
Defendants, as employees of the Marine Corps,
[E.D. La. No. 15-2512, R. Doc. No. 57, p.7]
"were required to take the actions necessary to report
and address any issue of sexual harassment and/or
sexual assault with the appropriate United States
Marine Corps officials."14 The government also
argues that the U.S. Attorney's certification "was
appropriate because a determination had been made
by the appropriate federal officials that there was
enough credible evidence that the named Federal
Defendants were the victims of workplace sexual
harassment and/or sexual assault to refer charges to
the General Court Martial."15 The implicit premise of
the government's argument in support of the scopeof-employment certification is that the Federal
Defendants had a legitimate basis for reporting that
West sexually assaulted and/or sexually harassed
Appx. 194

them and then testifying to those allegations at the
subsequent court-martial.
The government is plainly correct that reporting
sexual harassment and/or sexual assault by another
Marine is within the reporting Marine's course and
scope of employment. Both parties have submitted
Department of Defense documentation regarding the
programs established to facilitate the reporting of
such allegations, which documentation establishes
that the military's "goal is a culture free of sexual
assault, through an environment of prevention,
education and training, response capability . . . ,
victim
support,
reporting
procedures,
and
appropriate accountability."16 West concedes that
"sexual assault on a service member is disruptive
and destructive to the military and violates its core
values in a fundamental way."17
[E.D. La. No. 15-2512, R. Doc. No. 57, p.8]
The Court agrees that reporting sexual assault
and/or sexual harassment would plainly be
"primarily employment rooted" and "reasonably
incidental to the performance of the employee's
duties." See White, 419 F. App'x at 442. Likewise, use
of a system expressly created by the Marine Corps to
receive and handle such complaints is sufficiently "on
the employer's premises" and "during the hours of
employment" to satisfy those factors, as would be
testimony by a Marine at a court-martial instigated
by such reports.
However, West alleges that the underlying
allegations against him were fabricated, and that
making false reports of sexual assault and testifying
falsely as to those allegations cannot be
Appx. 195

characterized as within the scope of the employment
of a U.S. Marine Corps service member.18 West
forcefully argues that completely false allegations
made by one Marine against another solely on the
basis of a personal vendetta and for personal gain
would not be "reasonably incidental to the
performance of the employee's duties," nor could such
statements have "the purpose of serving the master's
business . . . to any appreciable extent." Id.19
If such argument is to have legs, the U.S.
Attorney's scope-of-employment certification depends
on an underlying factual issue about which the
parties disagree: whether the Federal Defendants
falsely incriminated West. As a result, to challenge
the certification and to show that the Federal
Defendants acted outside the course and scope of
their employment, West has the burden
[E.D. La. No. 15-2512, R. Doc. No. 57, p.9]
to establish that, as a factual matter, the allegations
against him were false.
The Court concludes that West has not
submitted sufficient evidence to meet this burden.
First, it is notable that West has not submitted an
affidavit or sworn statement denying the allegations
against him. The assertions that the allegations were
false are contained in his complaint, amended
complaint, and briefing, none of which are sworn or
verified. However, the Court must determine "that
the employee[s], in fact, and not simply as alleged by
the plaintiff, engaged in conduct beyond the scope of
their employment." Osborn, 547 U.S. at 231
(emphasis in original). In what is essentially a "he-

Appx. 196

said/she-said" situation, West has not provided the
Court with a sworn version of what he said.
Second, the fact that West was found not guilty
of many of the charges at the court-martial is not
conclusive evidence that the allegations were false.
The applicable burden of proof at a court-martial is
proof of guilt "beyond reasonable doubt." 10 U.S.C. §
851(c). It is well settled that acquittal on charges
that must be proved beyond a reasonable doubt does
"not prove that the defendant is innocent; it merely
proves the existence of a reasonable doubt as to his
guilt." E.g., United States v. One Assortment of 89
Firearms, 465 U.S. 354, 361-62 (1984). Such
acquittal "does not negate the possibility that a
preponderance of the evidence could show that" the
defendant committed the charged acts. Id.
Third, the evidence West actually submitted in
opposition to the government's motion is thin. He
relies primarily on purported weaknesses or
"material inconsistenc[ies]" in the statements and
testimony of the Federal Defendants.20 Moreover,
portions of West's arguments do not dispute what
occurred, but rather dispute whether it constituted
sexual harassment. For example, West admits that
[E.D. La. No. 15-2512, R. Doc. No. 57, p.10]
he made "off-color comment[s]" to Allen on two
occasions, which concession demonstrates that at
least some of the allegations against him had a basis
in fact, notwithstanding West's present contention
that Allen "was not overly concerned" by his
comments at the time.21 West also refers to
investigative reports in which an individual
concluded that Johnson's allegation of sexual assault
Appx. 197

was "not believable,"22 and that such individual was
"slightly less convinced" by the testimony before
recommending that a court-martial be convened.23
The Court concludes that West's evidence
consists of factual nitpicking, his personal "spin" on
facts which equally tend to suggest that some of the
allegations were well-founded, and secondhand
credibility determinations. His submission falls well
short of carrying his burden to establish as a factual
matter that the allegations lodged against him by the
Federal Defendants were false and, therefore, could
not have had "the purpose of serving the master's
business . . . to any appreciable extent." White, 419 F.
App'x at 442 (quoting Ermert, 559 So. 2d at 477)
(emphasis added). Accordingly, the Court concludes
that West has not carried his burden to show that
the disputed statements and testimony by the
Federal Defendants were made outside the course
and scope of their employment, with one possible
caveat as to a portion of Allen's alleged conduct,
which the Court will discuss below.
2) Certification As to Allen For Conduct
After Her Employment Ended
As explained above, West has not established as
a factual matter that Allen or any of the other
Federal Defendants acted outside the course and
scope of employment in connection with allegations
that West committed sexual harassment and/or
sexual assault. However, the undisputed
[E.D. La. No. 15-2512, R. Doc. No. 57, p.11]

Appx. 198

record, as clarified and supplemented by the parties,
establishes that Allen's employment with the U.S.
Marine Corps ended on April 26, 2014, after she
made her allegations against West but before she
testified against West at his court-martial in
November 2014. Accordingly, West contends that
Allen cannot have been acting within the course and
scope of employment when she testified against him
at the court-martial because she was no longer a
government employee.
The government represents, and West does not
dispute, that Allen was subpoenaed to testify at the
court-martial. Nothing in the record suggests that
Allen's testimony at the court-martial was
inconsistent with the allegations she lodged while
she was employed. The court-martial was the
culmination of the investigation prompted by the
allegations lodged by Allen and the other Federal
Defendants. Accordingly, Allen's conduct towards
West constitutes a singular course of action,
punctuated by the fact that her employment
happened to end before her testimony at the courtmartial. Other than that fact, Allen is situated
identically to the other Federal Defendants.
Consequently, the issue is whether, pursuant to
Louisiana law, the fortuitous occurrence that Allen's
employment ended before the investigation and
court-martial process reached its conclusion should
affect whether Allen should be considered to have
been acting within the course and scope of her
employment by the U.S. Marine Corps with respect
to the entirety of her alleged tortious conduct.
Neither party has cited Louisiana authority directly
addressing whether an employee's allegedly tortious

Appx. 199

post-employment conduct can nonetheless "relate
back" to the period of employment.
In Cowart v. Lakewood Quarters Ltd.
Partnership, cited by the government, the issue was
the employer's vicarious liability for a subordinate's
attack on her supervisor immediately after an
"attempted termination" of the subordinate. See 961
So. 2d 1212, 1215. The court found that the
[E.D. La. No. 15-2512, R. Doc. No. 57, p.12]
tortfeasor remained an employee "for the duration of
this transaction" and, based on the facts of that case,
it also found vicarious liability because "there was no
appreciable passage of time between the remarks . . .
regarding her termination and [her] unprovoked
attack on her supervisor." Id. Cowart suggests that
tortious action may be within the course and scope of
employment "for the duration of [an allegedly
tortious] transaction" even beyond the technical end
of the employment relationship. However, the
duration of the "transaction" in Cowart was much
shorter than the months that passed between Allen's
end of employment and her testimony at the courtmartial.24
In Parmer v. Suse, cited by West, the court held
that a defendant was not vicariously liable for the
actions of a former officer who had been terminated
months before he allegedly assaulted the plaintiff.
See 657 So. 2d 666, 669 (La. App. 1 Cir. 1995).
Parmer tends to suggest that a post-employment tort
is not within the course and scope of that former
employment. However, the tort in Parmer was an
isolated physical assault which occurred completely
after the end of the employment relationship. See id.
Appx. 200

at 667-68. Here, the alleged tortious conduct by Allen
began while she was employed by the Marine Corps
and continued through the end of her employment to
her testimony at the court-martial.
In the absence of a Louisiana case directly on
point, the Court looks to the principles applied by
Louisiana courts when deciding questions of course
and scope of employment. As the Louisiana Supreme
Court has explained,
Determination of the course and scope
of employment is largely based on
policy. The risks which are generated by
an employee's activities while serving
his employer's interests are properly
allocated to the employer as a cost of
engaging in the enterprise. However,
when the party (the alleged employer)
upon whom vicarious
[E.D. La. No. 15-2512, R. Doc. No. 57, p.13]
liability is sought to be imposed had
only a marginal relationship with the
act which generated the risk and did not
benefit by it, the purpose of the policy
falls, and the responsibility for
preventing the risk is solely upon the
tortfeasor who created the risk while
performing the act.
Reed v. House of Decor, Inc., 468 So. 2d 1159, 1168
(La. 1985). As noted above, Louisiana courts also
consider the LeBrane factors: "(1) whether the
tortious act was primarily employment rooted; (2)
whether the act was reasonably incidental to the
performance of the employee's duties; (3) whether the
Appx. 201

act occurred on the employer's premises; and (4)
whether it occurred during the hours of
employment." White, 419 F. App'x at 442.
As noted above, the LeBrane factors are
satisfied as to Allen's allegations against West made
while she was employed by the Marine Corps.
Nothing in the record suggests that her allegations
subsequently changed or that her testimony at the
court-martial was inconsistent with her prior
allegations. Furthermore, Allen would not have
testified at the court-martial unless she had
previously made those allegations in the course and
scope of her employment, and her testimony at the
court-martial was compelled by subpoena rather
than voluntary. Accordingly, the Court concludes
that pursuant to Louisiana law, Allen's postemployment conduct was also within the course and
scope of her former employment as part of the entire
allegedly tortious "transaction." Cf. Cowart, 961 So.
2d at 1215. Considering the alleged tortious
"transaction" as a whole to be within the course and
scope of Allen's employment, even though Allen's
employment technically ended in the middle of the
transaction, is consistent with Louisiana's policy of
allocating risk for the purposes of determining course
and scope of employment. The Court concludes that
the U.S. Attorney's course-and-scope certification
should be upheld in its entirety with respect to
defendant, Allen, including Allen's conduct occurring
after April 26, 2014.
[E.D. La. No. 15-2512, R. Doc. No. 57, p.14]
3) The Spitting Allegations

Appx. 202

Finally, the Court finds that West has failed to
carry his burden with respect to his allegation that
Parrott, Rieth, and Allen spit on him following the
court-martial.25 At a telephone status conference
with the parties, the government did not take the
position that spitting on West, if it occurred, would
have been within the course and scope of the Federal
Defendants' employment. But West presents no
competent evidence which could permit the Court to
find that this incident actually occurred. Rather, the
allegation is contained solely in his unsworn
complaint. Accordingly, he has not demonstrated as a
factual matter that such conduct occurred at all. See
Osborn, 549 U.S. at 231 (explaining that the
certification is effective "unless and until the District
Court determines that the employee[s], in fact, and
not simply as alleged by the plaintiff, engaged in
conduct beyond the scope of their employment")
(emphasis in original).
4) Conclusion
The Court does not find that an evidentiary
hearing is warranted. See Simon v. Bell, 2011 WL
1233048, at *7 (S.D. Tex. Mar. 31, 2011) (noting that
"there is no requirement that a court conduct an
evidentiary hearing or permit discovery prior to
ruling on the scope of employment issue"). Although
West has requested such a hearing,26 he has not
indicated what evidence or testimony he would elicit
at such a hearing or articulated how such a hearing
would benefit the Court in reaching its decision.
Finally, in a surreply, West contends that Rieth
and Parrott should not be dismissed because his

Appx. 203

amended complaint should be construed as asserting
Bivens claims against those defendants,
[E.D. La. No. 15-2512, R. Doc. No. 57, p.15]
which claims would not be subject to dismissal
pursuant
to
the
government's
motion.27
Alternatively, West requests leave to file a second
amended complaint to assert federal law claims
against Parrott and Rieth.28
West has previously characterized his claims
against Rieth and Parrott as arising only under state
law.29 Rieth and Parrott are immune to such statelaw claims for the reasons explained above. Under
these circumstances, the Court finds it appropriate to
dismiss Rieth and Parrott as defendants at this time
and grant West leave to file a second amended
complaint articulating any claims against Rieth or
Parrott that he contends are viable in light of this
order and reasons. Such amended complaint may be
filed on or before Monday, January 4, 2015.
CONCLUSION
IT IS ORDERED that the government's motion
is GRANTED.
IT IS FURTHER ORDERED that defendants,
Carrie L. Rieth, Erin E. Parrott, Kendra L. Johnson,
and Rachel J. Allen, are DISMISSED for lack of
subject matter jurisdiction. The United States of
America is SUBSTITUTED as defendant in their
place.
[E.D. La. No. 15-2512, R. Doc. No. 57, p.16]

Appx. 204

IT IS FURTHER ORDERED that West may file a
second amended complaint on or before Monday,
January 4, 2016.
New Orleans, Louisiana, December 22, 2015.
_________/s/_________
LANCE M. AFRICK
UNITED STATES DISTRICT JUDGE
-------Footnotes:
1. R. Doc. No. 6.
2. R. Doc. No. 10.
3. R. Doc. No. 1, at 5-6.
4. R. Doc. No. 10-19, at 11-12 ("Sgt. [Johnson's] accounting
of the alleged rape and predicate burglary was incomplete,
unsupported by any corroboration, and inconsistent. . . . Still,
on balance since Sgt. [Johnson's] testimony was not believable
regarding her allegations of rape and burglary I cannot
recommend going forward with any specifications based on this
witness's testimony.").
5. R. Doc. No. 10-3, at 21 ("I am Staff [sic] Rachel J. Allen. I
left the Marine Corps on 26 April 2014."); R. Doc. No. 42-2, at 1
(stating that "Rachel Allen's period of Marine Corps service was
20100701-20140426").
6. See R. Doc. No. 10-3, at 50-51; R. Doc. No. 10-20, at 1923.
7. Specifically, West was found guilty of (1) Charge III,
Specification 4, which alleged maltreatment of Allen, a person
subject to his orders based on "repeated sexually suggestive
comments" in violation of Uniform Code of Military Justice
article 93, 10 U.S.C. § 893; and (2) Charge V, Specification 2,
which alleged "conduct prejudicial to good order and discipline
and of a nature to bring discredit upon the armed forces" in
violation of Uniform Code of Military Justice article 134, 10
U.S.C. § 934. See R. Doc. No. 10-20, at 21, 23; R. Doc. No. 10-3,
at 50-51.
8. Specifically, West was found guilty of (1) Charge I, which
alleged conspiracy to commit obstruction of justice in violation

Appx. 205

of Uniform Code of Military Justice article 81, 10 U.S.C. § 881;
and (2) Charge V, Specification 3, which alleged "conduct
prejudicial to good order and discipline and of a nature to bring
discredit upon the armed forces" in violation of Uniform Code of
Military Justice article 134, 10 U.S.C. § 934. See R. Doc. No. 1020, at 19, 23; R. Doc. No. 10-3, at 50-51.
9. R. Doc. No. 1, at 15.
10. R. Doc. No. 1, at 1. Although the complaint does not
articulate any specific legal theories, in briefing plaintiff
characterizes his claims against the Federal Defendants as
arising "under Louisiana state law theories of intentional tort
(malicious prosecution, slander, and assault and battery)." R.
Doc. No. 10, at 2.
11. R. Doc. No. 6-3. After the government filed its motion,
plaintiff filed a first amended complaint. R. Doc. No. 17. The
first amended complaint specifically referred to and
supplemented the original complaint by inserting new claims
against new defendants, while leaving intact plaintiff's original
allegations as to the Federal Defendants. Accordingly, the
Court finds it appropriate to read the original and first
amended complaint together with respect to the government's
motion to dismiss, because the amended complaint "specifically
refers to" the original complaint and cannot be read on its own
without incorporation of the original complaint by reference.
See King v. Dogan, 31 F.3d 344, 346 (5th Cir. 1994) ("An
amended complaint supersedes the original complaint and
renders it of no legal effect unless the amended complaint
specifically refers to and adopts or incorporates by reference the
earlier pleading.").
12. The Fifth Circuit did not specify the quantum of proof
required to constitute such a showing. In Osborn, the Supreme
Court explained that the scope-of-employment certification is
effective and the government "must remain the federal
defendant in the action unless and until the District Court
determines that the employee, in fact, and not simply as alleged
by the plaintiff, engaged in conduct beyond the scope of his
employment." 549 U.S. at 231. This requirement that the Court
determine what in fact happened suggests a finding of fact by a
preponderance of the evidence, and neither party has suggested
that a greater or lesser burden of proof should apply.
13. R. Doc. No. 10, at 10; R. Doc. No. 23, at 8.

Appx. 206

R. Doc. No. 23, at 2 (emphasis added); see also R. Doc.
No. 23, at 9 ("It can clearly be reasoned that the Federal
Defendants had an obligation to report acts of sexual
harassment and/or sexual assault, and their actions in doing so
were employment rooted, and incidental to the performance of
the Federal Defendants' duties as members of the United States
Marine Corps.").
15. R. Doc. No. 23, at 5.
16. See R. Doc. No. 10-2, at 3; R. Doc. No. 23-2, at 1
("[S]exual harassment is prohibited. . . . Sexual harassment
devalues the individual and threatens unit cohesion. It has no
place in the Marine Corps.").
17. R. Doc. No. 10, at 22.
18. R. Doc. No. 10, at 20-21.
19. The Court declines to attribute any weight to an
arguably contrary holding in Stewart v. United States, No. 133610, 2014 WL 1032017, at *2-3 (D. Md. Mar. 6, 2014), which
case did not apply Louisiana law. Rather, the Court notes that
the Fifth Circuit's decision in White implicitly recognized the
possibility that a plaintiff can defeat a course-and-scope
certification by proving that a tortious statement was made
solely as a result of a "personal vendetta" and that it was not
motivated to any "appreciable extent" by the purpose of serving
the government employer. See 419 F. App'x at 443.
20. R. Doc. No. 10, at 7-14.
21. R. Doc. No. 10, at 10.
22. R. Doc. No. 10-19, at 11. Such allegation was not part of
West's court-martial.
23. R. Doc. No. 10-20, at 13.
24. Of course, Allen had no control over the date on which
she was ordered to appear pursuant to a subpoena.
25. R. Doc. No. 1, at 15. West does not allege that Johnson
spit on him.
26. West does not request discovery relative to these issues.
R. Doc. No. 27, at 3.
27. R. Doc. No. 52, at 1-2.
28. R. Doc. No. 52, at 2.
29. R. Doc. No. 10, at 2 ("On July 9, 2015, plaintiff filed this
lawsuit against the defendants, in their individual capacities,
under Louisiana state law theories of intentional tort . . . .").
14.

--------

Appx. 207

[E.D. La. No. 15-2512, R. Doc. No. 102, p.1]
LUKE T. WEST
v.
CARRIE L. RIETH, ET AL.
CIVIL ACTION NO.

15-2512 SECTION I

UNITED STATES DISTRICT COURT EASTERN
DISTRICT OF LOUISIANA
June 24, 2016
ORDER AND REASONS
The Court has before it a motion1 filed by the
United States of America to dismiss plaintiff's Bivens
claims against defendants, Carrie L. Rieth ("Rieth"),
Erin E. Parrott ("Parrott"), Margaret Cuevas
("Cuevas"),2 Lindsay Bartucco ("Bartucco"), and
Shanda Stucker ("Stucker"). Plaintiff opposes the
motion3 and the Court has received reply briefs.4 For
the following reasons, the motion is granted.
BACKGROUND
Plaintiff, Luke T. West ("West"), was at all times
relevant to the pending motion a service member in
the United States Marine Corps.5 West alleges that
Rieth and Parrott, who were also U.S.
[E.D. La. No. 15-2512, R. Doc. No. 102, p.2]
Marine Corps service members at all relevant times,
conspired with others to lodge false complaints and
accusations of sexual harassment and sexual assault
Appx. 208

against him. According to the complaint, such false
allegations were personally motivated by a desire to
remove plaintiff and another individual from their
positions and to obtain favorable transfers.6 The
allegations included that "plaintiff had sexually
assaulted [Rieth] at the Marine Corps Ball in
November of 2011 by massaging her thigh at the
Finance Section leadership table for approximately 2
minutes," and that plaintiff "sexually assaulted
[Parrott] by grabbing her and attempting to kiss her
in two specific instances, first in the hallway of a
hotel and then in a hotel bathroom at the MFR
Marine Corps Ball in November of 2011."7 He alleges
that these false allegations were "designed [to] take
advantage of the charged political climate
surrounding sexual assault allegations in the
military for purely personal gain."8
According to the complaint, Cuevas was the
"Sexual Assault Response Coordinator for Marine
Forces Reserves," and Bartucco and Stucker were
"civilian victim advocates for Marine Forces
Reserves."9 They are alleged to have been civilian
employees working in one of the Marine Force
Reserves Sexual Assault Prevention and Response
[SAPR] offices, which offices are "civilian in nature,
operate independently of their parent military
commands, and do not answer to, and are not under
the control of, those parent military commands."10
Plaintiff alleges that Cuevas, Bartucco,
[E.D. La. No. 15-2512, R. Doc. No. 102, p.3]
and Stucker facilitated the filing of Rieth's and
Parrott's allegations, either knowing that such

Appx. 209

allegations were false or with reckless disregard for
the truth of such allegations.11
Investigations
of
Rieth's
and
Parrott's
allegations ensued. Plaintiff alleges that Cuevas,
Bartucco, and Stucker "exerted significant improper
influence over Naval Criminal Investigative Services
(NCIS), the civilian law enforcement agency of the
United States Navy," by "prevent[ing] NCIS from
investigating evidence and information exculpatory
to plaintiff" and "caus[ing] NCIS to attempt to
improperly intimidate plaintiff and plaintiff's
witnesses, with threats of obstructing justice
investigations."12
Ultimately, West was court-martialed in
November 2014 with respect to the allegations
lodged by Rieth, Parrott, and Rachel Allen ("Allen"),
a previously dismissed defendant. At the general
court-martial in November 2014, Rieth and Parrott,
among others, testified under oath against plaintiff,
which testimony plaintiff alleges was false. Plaintiff
was found not guilty of the charges arising out of the
alleged sexual assault and harassment directed
towards Rieth and Parrott.13 He was convicted of
other charges of obstruction of justice, maltreatment
of a subordinate, and use of indecent language based
on his conduct towards Allen.14 Plaintiff "was
sentenced to serve 30 days in confinement and a
reduction in rank from Gunnery Sergeant (E-7) to
the rank of Lance Corporal (E-3)."15 He also alleges
that but for the false allegations, he "would have
been eligible to accept a commission in the United
States Marine Corps as a warrant officer and would
have continued to
[E.D. La. No. 15-2512, R. Doc. No. 102, p.4]
Appx. 210

serve in the United States Marine Corps in that
capacity."16 Plaintiff alleges that as he was being
escorted to serve his sentence, "defendants Rieth,
Parrott, and Allen, spit upon" him.17
West filed this lawsuit against Rieth, Parrott,
and two other accusers on July 9, 2015, invoking the
Court's diversity jurisdiction and asserting state-law
causes of action.18 The Court subsequently granted a
motion filed by the United States of America
pursuant to the Westfall Act to substitute itself as
defendant with respect to plaintiff's state-law tort
claims.19 Plaintiff has since amended his complaint
twice to assert Bivens claims against Rieth, Parrott,
Cuevas, Bartucco, and Stucker, alleging that their
conduct violated his substantive due process rights
under the Fifth Amendment to the U.S.
Constitution.20 Other than the claims as to which the
United
States
was
substituted,
plaintiff's
constitutional claims which are the subject of the
present motion to dismiss are the only remaining
claims in the above-captioned matter.
LAW & ANALYSIS
A. Applicable Law
A district court may dismiss a complaint, or any
part of it, for failure to state a claim upon which
relief can be granted if the plaintiff has not set forth
a factual allegation in support of his claim that
would entitle him to relief. Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007); Cuvillier v.
Taylor, 503 F.3d 397, 401 (5th Cir. 2007). As the U.S.

Appx. 211

Court of Appeals for the Fifth Circuit explained in
Gonzalez v. Kay:
"Factual allegations must be enough to
raise a right to relief above the
speculative
[E.D. La. No. 15-2512, R. Doc. No. 102, p.5]
level." Bell Atl. Corp. v. Twombly, 550
U.S. 544, 555 (2007). The Supreme
Court recently expounded upon the
Twombly standard, explaining that "[t]o
survive a motion to dismiss, a complaint
must contain sufficient factual matter,
accepted as true, to 'state a claim to
relief that is plausible on its face.'"
Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (quoting Twombly, 550 U.S. at
570). "A claim has facial plausibility
when the plaintiff pleads factual
content that allows the court to draw
the reasonable inference that the
defendant is liable for the misconduct
alleged." Id. It follows that "where the
well-pleaded facts do not permit the
court to infer more than the mere
possibility of misconduct, the complaint
has alleged-but it has not 'show[n]'-'that
the pleader is entitled to relief.'" Id. at
679 (quoting Fed. R. Civ. P. 8(a)(2)).
577 F.3d 600, 603 (5th Cir. 2009).
This Court will not look beyond the factual
allegations in the pleadings to determine whether
relief should be granted. See Spivey v. Robertson, 197
F.3d 772, 774 (5th Cir. 1999); Baker v. Putnal, 75
Appx. 212

F.3d 190, 196 (5th Cir. 1996). In assessing the
complaint, a court must accept all well-pleaded facts
as true and liberally construe all factual allegations
in the light most favorable to the plaintiff. Spivey,
197 F.3d at 774; Lowrey v. Tex. A&M Univ. Sys., 117
F.3d 242, 247 (5th Cir. 1997). "Dismissal is
appropriate when the complaint 'on its face show[s] a
bar to relief.'" Cutrer v. McMillan, 308 F. App'x 819,
820 (5th Cir. 2009) (quoting Clark v. Amoco Prod.
Co., 794 F.2d 967, 970 (5th Cir. 1986)).
B. Analysis
Plaintiff alleges that movants violated his Fifth
Amendment substantive due process rights. Both
plaintiff and defendants analyze these claims
through the framework of the Supreme Court's
decision in Bivens v. Six Unknown Named Agents of
Federal Bureau of Narcotics, 403 U.S. 388 (1971),
which "established that, in certain circumstances,
the victims of a constitutional violation by a federal
agent have a right to recover damages against the
official in federal court despite the absence of any
statute conferring such a right." De La Paz v. Coy,
786 F.3d 367, 372 (5th Cir. 2015)
[E.D. La. No. 15-2512, R. Doc. No. 102, p.6]
(internal quotation marks omitted). "A Bivens action
is analogous to a § 1983 action; the only difference is
that § 1983 claims apply to constitutional violations
by state actors and Bivens claims apply to actions by
federal officials." Espinal v. Bemis, 464 F. App'x 250,
251 (5th Cir. 2012) (citing Izen v. Catalina, 398 F.3d
363, 367 n.3 (5th Cir. 2005)). The Fifth Circuit "does
Appx. 213

not distinguish between Bivens claims and § 1983
claims." Id.
To state a Bivens claim, a plaintiff first must
allege a constitutional violation. Abate v. S. Pac.
Transp. Co., 993 F.2d 107, 110 (5th Cir. 1993) ("To
recover damages under Bivens, the injured party
must show the existence of a valid constitutional
violation."). Then, the Court must decide whether the
Fifth Circuit "has already extended Bivens" to
include plaintiff's claims or, if not, whether "the
Supreme Court's reasoning in the Bivens line of
cases, taken as a whole," warrants extension of the
Bivens remedy to this context. See De La Paz, 786
F.3d at 373.
Defendants contend that (1) plaintiff has not
stated a claim for a substantive due process
violation, (2) special factors counsel against
extending the Bivens remedy to this context, and (3)
in the alternative, defendants are entitled to
qualified immunity.21 For the following reasons, it is
clear that even if plaintiff has stated a claim for a
constitutional violation, the Bivens remedy has not
been and should not be extended to this factual and
legal context. Accordingly, the Court will focus
primarily on defendants' second argument which is
dispositive.
[E.D. La. No. 15-2512, R. Doc. No. 102, p.7]
1.) Whether Bivens Should Be Extended to
This Context
"[S]ubsequent holdings of the Supreme Court . .
. have narrowed and reframed Bivens in the course of
rejecting nearly all other claims for an implied
Appx. 214

damage remedy against federal officers or agents."
De La Paz, 786 F.3d at 372. Accordingly, the
Supreme Court has "disavowed that a Bivens suit is
an automatic entitlement; in fact, it is disfavored."
Id. (internal quotation marks omitted). "Moreover,
because Bivens suits implicate grave separation of
powers concerns, a decision to create a private right
of action is one better left to legislative judgment in
the great majority of cases." Id. at 372-73 (internal
quotation marks omitted).
When deciding whether to extend the Bivens
remedy, "[i]nstead of an amendment-by-amendment
ratification of Bivens actions, courts must examine
each new context—that is, each new potentially
recurring scenario that has similar legal and factual
components." Id. at 372 (internal quotation marks
omitted). Accordingly, the initial question is whether
the Supreme Court or the Fifth Circuit "has already
extended Bivens" to include plaintiffs' claims. See id.
373. Plaintiff does not cite such a case or contend
that a Bivens remedy already exists for his claims
against these defendants.22 Accordingly, the Court
must now "apply the Supreme Court's reasoning in
the Bivens line of cases, taken as a whole, and decide
whether to extend Bivens." Id.
Deciding whether to extend Bivens requires a
two-prong analysis. First, the Court "may not step in
to create a Bivens cause of action if any alternative,
existing process for protecting the
[E.D. La. No. 15-2512, R. Doc. No. 102, p.8]
interest amounts to a convincing reason for the
Judicial Branch to refrain from providing a new and
freestanding remedy in damages." Id. at 375. Second,
Appx. 215

"[e]ven if no such alternative process exists . . . a
court must make the kind of remedial determination
that is appropriate for a common-law tribunal,
paying particular heed, however, to any special
factors counselling hesitation before authorizing a
new kind of federal litigation." Id.
Defendants base their argument on the second
prong and articulate several "special factors
counselling hesitation." The Court agrees with
defendants that the military context in which this
matter arose conclusively counsels against extending
the Bivens remedy into this context.
The
Supreme
Court
has
held
that
"congressionally uninvited intrusion into military
affairs by the judiciary is inappropriate." United
States v. Stanley, 483 U.S. 669, 683 (1987).
Accordingly, "the unique disciplinary structure of the
Military Establishment and Congress' activity in the
field . . . require abstention in the inferring of Bivens
actions" to the same extent that the Feres doctrine
prohibits claims against the government pursuant to
the Federal Tort Claims Act.23 Id. at 683-84 (internal
quotation marks and citation omitted). It is therefore
settled that "no Bivens remedy is available for
injuries that arise out of or are in the course of
activity incident to service." Id. at 684 (internal
quotation marks and citations omitted); accord
Walch v. Adjutant General's Dep't of Tex., 533 F.3d
289, 296 (5th Cir. 2008) ("[T]he United States
Supreme Court has determined that because of
Feres, the Bivens remedy is unavailable to someone
whose claims arise incident to military service."). As
another court recently noted, the Supreme Court has
never extended Bivens "in the

Appx. 216

[E.D. La. No. 15-2512, R. Doc. No. 102, p.9]
military context." Cioca v. Rumsfeld, 720 F.3d 505,
510 (5th Cir. 2013).
Pursuant to Stanley, the Court must assess a
proposed Bivens claim in the military context by
applying the Feres test, which requires a "threefactor analysis for whether a service member's injury
was incident to military service: (1) duty status, (2)
site of injury, and (3) activity being performed."
Regan v. Starcraft Marine, LLC, 524 F.3d 627, 637
(5th Cir. 2008). Assessed through these three factors,
plaintiff's allegations self-evidently are "incident to
military service."
Plaintiff alleges that at all relevant times, he (as
well as Rieth, Parrott, Cuevas, Bartucco, and
Stucker) were employed by the Marines, and plaintiff
does not allege that he or any other party was on
extended leave. Accordingly, all interested parties
are at the very least in the middle of the "continuum
between performing the tasks of an assigned mission
to being on extended leave from duty." Regan, 524
F.3d at 637. To the extent that there is a "place"
where plaintiff's alleged constitutional injury
occurred, that "place" was within the framework of
his military employment and the military
disciplinary process, including the formal reporting,
investigation, and prosecution of the allegations
against him. See id. at 640. Likewise, the "activity
being performed at the time of the injury" was the
activity surrounding the formal court-martial, which
undoubtedly "served some military function." See id.
at 640. The facts plaintiff alleges are squarely
incident to military service and military discipline,

Appx. 217

unlike the recreational rental boat accident in Regan.
See, e.g., id. at 637-42.
Plaintiff's contention that his claims did not
arise "incident to military service" is not convincing.
He asserts that "the allegations of sexual assault and
sexual harassment took place outside of the office;"24
however, the sexual assaults allegedly took place at a
Marine Corps Ball and the subsequent accusations
and court-martial were patently within the military
disciplinary
[E.D. La. No. 15-2512, R. Doc. No. 102, p.10]
framework. Although he asserts that "any of these
false allegations could have been made in a wholly
civilian environment," plaintiff ignores that these
allegations in this case were made by Marines
against another Marine and resulted in a military
prosecution. His assertion that "the administration
and management of the processing of sexual assault
claims are not particular to the military" is too
simplistic to be credited.
Furthermore, the case to which plaintiff
analogizes, Lutz v. Secretary of Air Force, 944 F.2d
1477 (9th Cir. 1991), is distinguishable. In Lutz, the
Ninth Circuit held that defendants who allegedly
"broke into [plaintiff's] office, took personal papers
and disseminated them to other military personnel
with the intent to injure [plaintiff's] reputation and
career" were not acting "incident to military service."
See id. at 1478-79. Notwithstanding some broad
language in the Ninth Circuit's opinion, that court
addressed "only the narrow question of whether
injuries sustained by Lutz as a result of the
sergeants entering her office after hours, opening her
Appx. 218

personal mail, and disseminating it to others in an
attempt to cause harm to her reputation, are injuries
which arise out of or are in the course of activity
incident to service." See id. at 1485. On the facts of
that case, the Lutz court found that "[i]ntentional
tortious and unconstitutional acts directed by one
servicemember against another which further no
conceivable military purpose and are not perpetrated
during the course of a military activity surely are
past the reach of Feres" and Stanley. Id. at 1487.
Lutz is distinguishable because the alleged
unconstitutional action in this case is much more
closely intertwined with the parties' military service
and the military disciplinary framework. According
to plaintiff, defendants lodged or facilitated the
lodging of accusations against him, which
accusations were investigated and proceeded to a
general court-martial. Taking plaintiff's allegations
to be true, defendants' alleged manipulation or abuse
of the military disciplinary framework is more
[E.D. La. No. 15-2512, R. Doc. No. 102, p.11]
connected to "the course of a military activity" than
the after-hours burglary at issue in Lutz.
Furthermore, plaintiff's allegations in this case
inherently involve collateral review of the basis for
the underlying investigation and court-martial,
which factor was also missing in Lutz. See id. at 1485
& n.8 (noting that claims "challenging disciplinary
decisions" "have been found to fall squarely within
the prohibited zone protected by Feres"). Accordingly,
the constitutional violations alleged by plaintiff
necessarily implicate "the unique disciplinary
structure of the Military Establishment and
Appx. 219

Congress' activity in the field," which counsels
against extending the Bivens remedy.
In sum, Bivens remedies are disfavored, De La
Paz, 786 F.3d at 372, and the military disciplinary
context of this matter particularly counsels against
extending Bivens. Stanley, 483 U.S. at 683. Plaintiff's
claims, as stated in his complaint, arise out of
allegations by fellow Marines that he sexually
assaulted and sexually harassed them, which
allegations were allegedly facilitated by civilian
marine employees, and resulted in plaintiff's courtmartial. His claims, taken as true, are sufficiently
"incident to military service" such that the military
context of this matter is a "special factor" which
counsels against extending the Bivens remedy to this
factual and legal context. To conclude otherwise
would be to open the floodgates to a post-courtmartial Bivens claims. Plaintiff has therefore failed
to state a viable Bivens claim; defendants' motion
should be granted and plaintiff's claims against them
should be dismissed.25
C. Effect of Granting Defendants' Motion to
Dismiss
The Court previously granted an earlier motion
to dismiss and substituted the United States
[E.D. La. No. 15-2512, R. Doc. No. 102, p.12]
of America as defendant with respect to plaintiff's
state-law claims as to Rieth, Parrott, Allen, and
Johnson.26 Granting this motion disposes of
plaintiff's Bivens claims against Rieth, Parrott,
Cuevas, Bartucco, and Stucker. Accordingly, the only
Appx. 220

remaining claims in this matter are plaintiff's statelaw tort claims against the United States as a
substituted party.
"Federal courts have jurisdiction to hear suits
against the government only with a clear statement
from the United States waiving sovereign immunity,
together with a claim falling within the terms of the
waiver." Young v. United States, 727 F.3d 444, 447
(5th Cir. 2013) (internal quotation marks omitted).
The Federal Tort Claims Act is a limited waiver of
sovereign immunity, but such waiver does not extend
to "[a]ny claim arising out of assault, battery, false
imprisonment, false arrest, malicious prosecution,
abuse of process, libel, slander, misrepresentation,
deceit, or interference with contract rights." 28
U.S.C. § 2680(h); see also White v. United States, 419
F. App'x 439, 441-42 (5th Cir. 2011) (affirming
substitution of the United States as defendant with
respect to defamation claim and subsequent
dismissal of that defamation claim on sovereign
immunity grounds). Accordingly, the Court's subject
matter jurisdiction over the only remaining claims is
questioned.
In previous briefing, the government has
indicated its intent to assert sovereign immunity,27
but no motion to dismiss on that basis has been filed.
The Court will direct filing of such a motion so as to
be assured of its continuing subject matter
jurisdiction.
CONCLUSION
[E.D. La. No. 15-2512, R. Doc. No. 102, p.13]

Appx. 221

IT IS ORDERED that the motion is
GRANTED and that plaintiff's claims against
defendants, Carrie L. Rieth, Erin E. Parrott, Rachel
J. Allen, Kendra L. Johnson, Margaret "Peggy"
Cuevas, Lindsay Bartucco, and Shanda Stucker, are
DISMISSED WITH PREJUDICE.
IT IS FURTHER ORDERED that counsel for
the United States of America may file a motion to
dismiss on or before Thursday, July 7, 2016.
Plaintiff may file a response on or before Thursday,
July 14, 2016.
New Orleans, Louisiana, June 24, 2016.
/s/_________
LANCE M. AFRICK
UNITED STATES DISTRICT JUDGE
-------Footnotes:
1. R. Doc. No. 85.
2. The first and second amended complaints name Peggy
Cuevas as a defendant. R. Doc. No. 17, at 2; R. Doc. No. 59, at 5.
In the motion to dismiss, counsel for defendants represent that
service was accepted on behalf of Margaret "Peggy" Cuevas. R.
Doc. No. 85-1, at 1 n.1. In his opposition, plaintiff refers to
movant as Margaret Cuevas, R. Doc. No. 93, at 1, and
accordingly there appears to be no dispute that Margaret
Cuevas has been correctly identified and is properly before this
Court.
3. R. Doc. No. 93.
4. R. Doc. Nos. 96, 99.
5. In addition to his original complaint, plaintiff has filed
first and second amended complaints that specifically referred
to and supplemented the original complaint with additional
factual allegations and claims while leaving intact plaintiff's
original allegations. R. Doc. No. 17, at 1; R. Doc. No. 59, at 1.
The Court finds it appropriate to read the original, first
amended, and second amended complaints together, because
both amended complaints "specifically refer to" the original
complaint and cannot be read on their own without
incorporation of the original complaint by reference. See King v.

Appx. 222

Dogan, 31 F.3d 344, 346 (5th Cir. 1994) ("An amended
complaint supersedes the original complaint and renders it of
no legal effect unless the amended complaint specifically refers
to and adopts or incorporates by reference the earlier
pleading.").
6. R. Doc. No. 1, at 5-6.
7. R. Doc. No. 1, at 7-8.
8. R. Doc. No. 1, at 16.
9. R. Doc. No. 17, at 2.
10. R. Doc. No. 17, at 3. Defendants vigorously dispute
plaintiff's characterization of the role of the SAPR program
within the military chain of command. R. Doc. No. 101, at 2-3.
Whether that dispute is one of fact or law, it is immaterial to
resolution of this Rule 12(b)(6) motion to dismiss.
11. R. Doc. No. 17, at 4-5.
12. R. Doc. No. 17, at 3.
13. R. Doc. No. 1, at 14.
14. R. Doc. No. 1, at 15.
15. R. Doc. No. 1, at 15.
16. R. Doc. No. 1, at 16.
17. R. Doc. No. 1, at 15.
18. R. Doc. No. 1, at 1.
19. See R. Doc. No. 57; R. Doc. No. 80 (denying motion for
reconsideration).
20. R. Doc. No. 17, at 7; R. Doc. No. 59, at 2.
21. R. Doc. No. 85-1, at 2-3. In their reply brief, defendants
also raise for the first time entitlement to absolute immunity
with respect to claims based on testimony at the court-martial.
R. Doc. No. 96, at 9-10. Generally, a "reply memorandum is not
adequate to raise entirely new arguments for dismissal." See,
e.g., Ostrowiecki v. Aggressor Fleet, Ltd., 07-6598, 2008 WL
3285900, at *3 (E.D. La. Aug. 7, 2008) (Africk, J.) (internal
quotation marks and citation omitted). However, the question is
moot because the Court need not reach that issue to resolve
defendant's motion and, at any rate, plaintiff has sought and
received leave to respond to the argument.
22. Plaintiff asserts that "it is axiomatic that the protection
of the integrity of the criminal justice process is inarguably
within the judiciary and is, perhaps, the most appropriate area
for the courts to litigate a potential Due Process Clause
violation under Bivens." R. Doc. No. 93, at 16. Suffice it to say,
plaintiff cites no case that remotely suggests that this Court's

Appx. 223

inherent authority to police its own proceedings should be
extended to creating a Bivens remedy for matters arising out of
military court-martial proceedings. To the contrary, as will be
explained below, the military discipline context of this case
counsels against extending a Bivens remedy.
23. The Feres doctrine states that "'the Government is not
liable under the FTCA for injuries to servicemen where the
injuries arise out of or are in the course of activity incident to
service.'" Regan v. Starcraft Marine, LLC, 524 F.3d 627, 633
(5th Cir. 2008) (quoting Feres v. United States, 340 U.S. 135,
146 (1950)).
24. R. Doc. No. 93, at 21.
25. As a result, the Court need not address whether plaintiff
has stated a claim for a constitutional violation of his Fifth
Amendment substantive due process rights as to Rieth, Parrott,
Cuevas, Bartucco, or Stucker, or whether those defendants are
entitled to qualified immunity.
26. R. Doc. No. 57. Although plaintiff reiterated his demand
for relief as to Allen and Johnson in his second amended
complaint, R. Doc. No. 59, at 4, he asserted no additional claims
as to those defendants in that pleading. Accordingly, Allen and
Johnson remain dismissed as defendants.
27. R. Doc. No. 23, at 2, 7.

--------

Appx. 224

[APPENDIX M: Constitutional and
Statutory Provisions]
1. United States Constitution:
Amendment I (1791)
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech,
or of the press; or the right of the people peaceably to
assemble, and to petition the Government for a
redress of grievances.
Amendment V (1791)
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment
or indictment of a Grand Jury, except in cases
arising in the land or naval forces, or in the Militia,
when in actual service in time of War or public
danger; nor shall any person be subject for the same
offence to be twice put in jeopardy of life or limb; nor
shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life,
liberty, or property, without due process of law; nor
shall private property be taken for public use,
without just compensation.
Amendment VI (1791)
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial
jury of the State and district wherein the crime shall
have been committed, which district shall have been
previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be
confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his
Appx. 225

favor, and to have the Assistance of Counsel for his
defence.
2. 5 U.S.C. § 552a:
§552a. Records maintained on individuals
(a) Definitions.—For purposes of this section—
(1) the term "agency" means agency as defined in
section 552(e) of this title;
(2) the term "individual" means a citizen of the
United States or an alien lawfully admitted for
permanent residence;
(3) the term "maintain" includes maintain, collect,
use, or disseminate;
(4) the term "record" means any item, collection, or
grouping of information about an individual that is
maintained by an agency, including, but not limited
to, his education, financial transactions, medical
history, and criminal or employment history and that
contains his name, or the identifying number,
symbol, or other identifying particular assigned to
the individual, such as a finger or voice print or a
photograph;
(5) the term "system of records" means a group of any
records under the control of any agency from which
information is retrieved by the name of the
individual or by some identifying number, symbol, or
other identifying particular assigned to the
individual;
(6) the term "statistical record" means a record in a
system of records maintained for statistical research
or reporting purposes only and not used in whole or
in part in making any determination about an
identifiable individual, except as provided by section
8 of title 13;
Appx. 226

(7) the term "routine use" means, with respect to the
disclosure of a record, the use of such record for a
purpose which is compatible with the purpose for
which it was collected;
(8) the term "matching program"—
(A) means any computerized comparison of—
(i) two or more automated systems of
records or a system of records with nonFederal records for the purpose of—
(I) establishing or verifying the eligibility
of, or continuing compliance with
statutory and regulatory requirements by,
applicants for, recipients or beneficiaries
of, participants in, or providers of services
with respect to, cash or in-kind assistance
or payments under Federal benefit
programs, or
(II) recouping payments or delinquent
debts under such Federal benefit
programs, or
(ii) two or more automated Federal
personnel or payroll systems of records or
a system of Federal personnel or payroll
records with non-Federal records,
(B) but does not include—
(i) matches performed to produce
aggregate statistical data without any
personal identifiers;
(ii) matches performed to support any
research or statistical project, the specific
data of which may not be used to make
decisions concerning the rights, benefits,
or privileges of specific individuals;
(iii) matches performed, by an agency (or
component thereof) which performs as its
Appx. 227

principal function any activity pertaining
to the enforcement of criminal laws,
subsequent to the initiation of a specific
criminal or civil law enforcement
investigation of a named person or
persons for the purpose of gathering
evidence against such person or persons;
(iv) matches of tax information (I)
pursuant to section 6103(d) of the Internal
Revenue Code of 1986, (II) for purposes of
tax administration as defined in section
6103(b)(4) of such Code, (III) for the
purpose of intercepting a tax refund due
an individual under authority granted by
section 404(e), 464, or 1137 of the Social
Security Act; or (IV) for the purpose of
intercepting a tax refund due an
individual under any other tax refund
intercept program authorized by statute
which has been determined by the
Director of the Office of Management and
Budget to contain verification, notice, and
hearing
requirements
that
are
substantially similar to the procedures in
section 1137 of the Social Security Act;
(v) matches—
(I) using records predominantly relating to
Federal personnel, that are performed for
routine administrative purposes (subject
to guidance provided by the Director of the
Office of Management and Budget
pursuant to subsection (v)); or
(II) conducted by an agency using only
records
from
systems
of
records
maintained by that agency; if the purpose
Appx. 228

of the match is not to take any adverse
financial, personnel, disciplinary, or other
adverse action against Federal personnel;
(vi) matches performed for foreign
counterintelligence purposes or to produce
background checks for security clearances
of Federal personnel or Federal contractor
personnel;
(vii) matches performed incident to a levy
described in section 6103(k)(8) of the
Internal Revenue Code of 1986;
(viii) matches performed pursuant to
section 202(x)(3) or 1611(e)(1) of the Social
Security Act (42 U.S.C. 402(x)(3),
1382(e)(1));
(ix) matches performed by the Secretary of
Health and Human Services or the
Inspector General of the Department of
Health and Human Services with respect
to potential fraud, waste, and abuse,
including matches of a system of records
with non-Federal records; or
(x) matches performed pursuant to section
3(d)(4) of the Achieving a Better Life
Experience Act of 2014; 1
(9) the term "recipient agency" means any agency, or
contractor thereof, receiving records contained in a
system of records from a source agency for use in a
matching program;
(10) the term "non-Federal agency" means any State
or local government, or agency thereof, which
receives records contained in a system of records
from a source agency for use in a matching program;

Appx. 229

(11) the term "source agency" means any agency
which discloses records contained in a system of
records to be used in a matching program, or any
State or local government, or agency thereof, which
discloses records to be used in a matching program;
(12) the term "Federal benefit program" means any
program administered or funded by the Federal
Government, or by any agent or State on behalf of
the Federal Government, providing cash or in-kind
assistance in the form of payments, grants, loans, or
loan guarantees to individuals; and
(13) the term "Federal personnel" means officers and
employees of the Government of the United States,
members of the uniformed services (including
members of the Reserve Components), individuals
entitled to receive immediate or deferred retirement
benefits under any retirement program of the
Government of the United States (including survivor
benefits).
(b) Conditions of Disclosure.—No agency shall
disclose any record which is contained in a system of
records by any means of communication to any
person, or to another agency, except pursuant to a
written request by, or with the prior written consent
of, the individual to whom the record pertains, unless
disclosure of the record would be—
(1) to those officers and employees of the agency
which maintains the record who have a need for the
record in the performance of their duties;
(2) required under section 552 of this title;
(3) for a routine use as defined in subsection (a)(7) of
this section and described under subsection (e)(4)(D)
of this section;

Appx. 230

(4) to the Bureau of the Census for purposes of
planning or carrying out a census or survey or
related activity pursuant to the provisions of title 13;
(5) to a recipient who has provided the agency with
advance adequate written assurance that the record
will be used solely as a statistical research or
reporting record, and the record is to be transferred
in a form that is not individually identifiable;
(6) to the National Archives and Records
Administration as a record which has sufficient
historical or other value to warrant its continued
preservation by the United States Government, or
for evaluation by the Archivist of the United States
or the designee of the Archivist to determine whether
the record has such value;
(7) to another agency or to an instrumentality of any
governmental jurisdiction within or under the control
of the United States for a civil or criminal law
enforcement activity if the activity is authorized by
law, and if the head of the agency or instrumentality
has made a written request to the agency which
maintains the record specifying the particular
portion desired and the law enforcement activity for
which the record is sought;
(8) to a person pursuant to a showing of compelling
circumstances affecting the health or safety of an
individual if upon such disclosure notification is
transmitted to the last known address of such
individual;
(9) to either House of Congress, or, to the extent of
matter within its jurisdiction, any committee or
subcommittee thereof, any joint committee of
Congress or subcommittee of any such joint
committee;

Appx. 231

(10) to the Comptroller General, or any of his
authorized representatives, in the course of the
performance of the duties of the Government
Accountability Office;
(11) pursuant to the order of a court of competent
jurisdiction; or
(12) to a consumer reporting agency in accordance
with section 3711(e) of title 31.
(c) Accounting of Certain Disclosures.—Each agency,
with respect to each system of records under its
control, shall—
(1) except for disclosures made under subsections
(b)(1) or (b)(2) of this section, keep an accurate
accounting of—
(A) the date, nature, and purpose of each disclosure
of a record to any person or to another agency made
under subsection (b) of this section; and
(B) the name and address of the person or agency to
whom the disclosure is made;
(2) retain the accounting made under paragraph (1)
of this subsection for at least five years or the life of
the record, whichever is longer, after the disclosure
for which the accounting is made;
(3) except for disclosures made under subsection
(b)(7) of this section, make the accounting made
under paragraph (1) of this subsection available to
the individual named in the record at his request;
and
(4) inform any person or other agency about any
correction or notation of dispute made by the agency
in accordance with subsection (d) of this section of
any record that has been disclosed to the person or
agency if an accounting of the disclosure was made.
(d) Access to Records.—Each agency that maintains
a system of records shall—
Appx. 232

(1) upon request by any individual to gain access to
his record or to any information pertaining to him
which is contained in the system, permit him and
upon his request, a person of his own choosing to
accompany him, to review the record and have a copy
made of all or any portion thereof in a form
comprehensible to him, except that the agency may
require the individual to furnish a written statement
authorizing discussion of that individual's record in
the accompanying person's presence;
(2) permit the individual to request amendment of a
record pertaining to him and—
(A) not later than 10 days (excluding Saturdays,
Sundays, and legal public holidays) after the date of
receipt of such request, acknowledge in writing such
receipt; and
(B) promptly, either—
(i) make any correction of any portion
thereof which the individual believes is
not accurate, relevant, timely, or
complete; or
(ii) inform the individual of its refusal to
amend the record in accordance with his
request, the reason for the refusal, the
procedures established by the agency for
the individual to request a review of that
refusal by the head of the agency or an
officer designated by the head of the
agency, and the name and business
address of that official;
(3) permit the individual who disagrees with the
refusal of the agency to amend his record to request a
review of such refusal, and not later than 30 days
(excluding Saturdays, Sundays, and legal public
holidays) from the date on which the individual
Appx. 233

requests such review, complete such review and
make a final determination unless, for good cause
shown, the head of the agency extends such 30-day
period; and if, after his review, the reviewing official
also refuses to amend the record in accordance with
the request, permit the individual to file with the
agency a concise statement setting forth the reasons
for his disagreement with the refusal of the agency,
and notify the individual of the provisions for judicial
review of the reviewing official's determination under
subsection (g)(1)(A) of this section;
(4) in any disclosure, containing information about
which the individual has filed a statement of
disagreement, occurring after the filing of the
statement under paragraph (3) of this subsection,
clearly note any portion of the record which is
disputed and provide copies of the statement and, if
the agency deems it appropriate, copies of a concise
statement of the reasons of the agency for not
making the amendments requested, to persons or
other agencies to whom the disputed record has been
disclosed; and
(5) nothing in this section shall allow an individual
access to any information compiled in reasonable
anticipation of a civil action or proceeding.
(e) Agency Requirements.—Each agency that
maintains a system of records shall—
(1) maintain in its records only such information
about an individual as is relevant and necessary to
accomplish a purpose of the agency required to be
accomplished by statute or by executive order of the
President;
(2) collect information to the greatest extent
practicable directly from the subject individual when
the
information
may
result
in
adverse
Appx. 234

determinations about an individual's rights, benefits,
and privileges under Federal programs;
(3) inform each individual whom it asks to supply
information, on the form which it uses to collect the
information or on a separate form that can be
retained by the individual—
(A) the authority (whether granted by statute, or by
executive order of the President) which authorizes
the solicitation of the information and whether
disclosure of such information is mandatory or
voluntary;
(B) the principal purpose or purposes for which the
information is intended to be used;
(C) the routine uses which may be made of the
information, as published pursuant to paragraph
(4)(D) of this subsection; and
(D) the effects on him, if any, of not providing all or
any part of the requested information;
(4) subject to the provisions of paragraph (11) of this
subsection, publish in the Federal Register upon
establishment or revision a notice of the existence
and character of the system of records, which notice
shall include—
(A) the name and location of the system;
(B) the categories of individuals on whom records are
maintained in the system;
(C) the categories of records maintained in the
system;
(D) each routine use of the records contained in the
system, including the categories of users and the
purpose of such use;
(E) the policies and practices of the agency regarding
storage, retrievability, access controls, retention, and
disposal of the records;

Appx. 235

(F) the title and business address of the agency
official who is responsible for the system of records;
(G) the agency procedures whereby an individual can
be notified at his request if the system of records
contains a record pertaining to him;
(H) the agency procedures whereby an individual can
be notified at his request how he can gain access to
any record pertaining to him contained in the system
of records, and how he can contest its content; and
(I) the categories of sources of records in the system;
(5) maintain all records which are used by the agency
in making any determination about any individual
with such accuracy, relevance, timeliness, and
completeness as is reasonably necessary to assure
fairness to the individual in the determination;
(6) prior to disseminating any record about an
individual to any person other than an agency,
unless the dissemination is made pursuant to
subsection (b)(2) of this section, make reasonable
efforts to assure that such records are accurate,
complete, timely, and relevant for agency purposes;
(7) maintain no record describing how any individual
exercises rights guaranteed by the First Amendment
unless expressly authorized by statute or by the
individual about whom the record is maintained or
unless pertinent to and within the scope of an
authorized law enforcement activity;
(8) make reasonable efforts to serve notice on an
individual when any record on such individual is
made available to any person under compulsory legal
process when such process becomes a matter of
public record;
(9) establish rules of conduct for persons involved in
the design, development, operation, or maintenance
Appx. 236

of any system of records, or in maintaining any
record, and instruct each such person with respect to
such rules and the requirements of this section,
including any other rules and procedures adopted
pursuant to this section and the penalties for
noncompliance;
(10) establish appropriate administrative, technical,
and physical safeguards to insure the security and
confidentiality of records and to protect against any
anticipated threats or hazards to their security or
integrity which could result in substantial harm,
embarrassment, inconvenience, or unfairness to any
individual on whom information is maintained;
(11) at least 30 days prior to publication of
information under paragraph (4)(D) of this
subsection, publish in the Federal Register notice of
any new use or intended use of the information in
the system, and provide an opportunity for interested
persons to submit written data, views, or arguments
to the agency; and
(12) if such agency is a recipient agency or a source
agency in a matching program with a non-Federal
agency, with respect to any establishment or revision
of a matching program, at least 30 days prior to
conducting such program, publish in the Federal
Register notice of such establishment or revision.
(f) Agency Rules.—In order to carry out the
provisions of this section, each agency that maintains
a system of records shall promulgate rules, in
accordance with the requirements (including general
notice) of section 553 of this title, which shall—
(1) establish procedures whereby an individual can
be notified in response to his request if any system of
records named by the individual contains a record
pertaining to him;
Appx. 237

(2) define reasonable times, places, and requirements
for identifying an individual who requests his record
or information pertaining to him before the agency
shall make the record or information available to the
individual;
(3) establish procedures for the disclosure to an
individual upon his request of his record or
information pertaining to him, including special
procedure, if deemed necessary, for the disclosure to
an individual of medical records, including
psychological records, pertaining to him;
(4) establish procedures for reviewing a request from
an individual concerning the amendment of any
record or information pertaining to the individual,
for making a determination on the request, for an
appeal within the agency of an initial adverse agency
determination, and for whatever additional means
may be necessary for each individual to be able to
exercise fully his rights under this section; and
(5) establish fees to be charged, if any, to any
individual for making copies of his record, excluding
the cost of any search for and review of the record.
The Office of the Federal Register shall biennially
compile and publish the rules promulgated under
this subsection and agency notices published under
subsection (e)(4) of this section in a form available to
the public at low cost.
(g)(1) Civil Remedies.—Whenever any agency
(A) makes a determination under subsection (d)(3) of
this section not to amend an individual's record in
accordance with his request, or fails to make such
review in conformity with that subsection;
(B) refuses to comply with an individual request
under subsection (d)(1) of this section;

Appx. 238

(C) fails to maintain any record concerning any
individual with such accuracy, relevance, timeliness,
and completeness as is necessary to assure fairness
in any determination relating to the qualifications,
character, rights, or opportunities of, or benefits to
the individual that may be made on the basis of such
record, and consequently a determination is made
which is adverse to the individual; or
(D) fails to comply with any other provision of this
section, or any rule promulgated thereunder, in such
a way as to have an adverse effect on an individual,
the individual may bring a civil action against the
agency, and the district courts of the United States
shall have jurisdiction in the matters under the
provisions of this subsection.
(2)(A) In any suit brought under the provisions of
subsection (g)(1)(A) of this section, the court may
order the agency to amend the individual's record in
accordance with his request or in such other way as
the court may direct. In such a case the court shall
determine the matter de novo.
(B) The court may assess against the United States
reasonable attorney fees and other litigation costs
reasonably incurred in any case under this
paragraph in which the complainant has
substantially prevailed.
(3)(A) In any suit brought under the provisions of
subsection (g)(1)(B) of this section, the court may
enjoin the agency from withholding the records and
order the production to the complainant of any
agency records improperly withheld from him. In
such a case the court shall determine the matter de
novo, and may examine the contents of any agency
records in camera to determine whether the records
or any portion thereof may be withheld under any of
Appx. 239

the exemptions set forth in subsection (k) of this
section, and the burden is on the agency to sustain
its action.
(B) The court may assess against the United States
reasonable attorney fees and other litigation costs
reasonably incurred in any case under this
paragraph in which the complainant has
substantially prevailed.
(4) In any suit brought under the provisions of
subsection (g)(1)(C) or (D) of this section in which the
court determines that the agency acted in a manner
which was intentional or willful, the United States
shall be liable to the individual in an amount equal
to the sum of—
(A) actual damages sustained by the individual as a
result of the refusal or failure, but in no case shall a
person entitled to recovery receive less than the sum
of $1,000; and
(B) the costs of the action together with reasonable
attorney fees as determined by the court.
(5) An action to enforce any liability created under
this section may be brought in the district court of
the United States in the district in which the
complainant resides, or has his principal place of
business, or in which the agency records are situated,
or in the District of Columbia, without regard to the
amount in controversy, within two years from the
date on which the cause of action arises, except that
where an agency has materially and willfully
misrepresented any information required under this
section to be disclosed to an individual and the
information so misrepresented is material to
establishment of the liability of the agency to the
individual under this section, the action may be
brought at any time within two years after discovery
Appx. 240

by the individual of the misrepresentation. Nothing
in this section shall be construed to authorize any
civil action by reason of any injury sustained as the
result of a disclosure of a record prior to September
27, 1975.
(h) Rights of Legal Guardians.—For the purposes of
this section, the parent of any minor, or the legal
guardian of any individual who has been declared to
be incompetent due to physical or mental incapacity
or age by a court of competent jurisdiction, may act
on behalf of the individual.
(i)(1) Criminal Penalties.—Any officer or employee of
an agency, who by virtue of his employment or
official position, has possession of, or access to,
agency
records
which
contain
individually
identifiable information the disclosure of which is
prohibited by this section or by rules or regulations
established thereunder, and who knowing that
disclosure of the specific material is so prohibited,
willfully discloses the material in any manner to any
person or agency not entitled to receive it, shall be
guilty of a misdemeanor and fined not more than
$5,000.
(2) Any officer or employee of any agency who
willfully maintains a system of records without
meeting the notice requirements of subsection (e)(4)
of this section shall be guilty of a misdemeanor and
fined not more than $5,000.
(3) Any person who knowingly and willfully requests
or obtains any record concerning an individual from
an agency under false pretenses shall be guilty of a
misdemeanor and fined not more than $5,000.
(j) General Exemptions.—The head of any agency
may promulgate rules, in accordance with the
requirements (including general notice) of sections
Appx. 241

553(b)(1), (2), and (3), (c), and (e) of this title, to
exempt any system of records within the agency from
any part of this section except subsections (b), (c)(1)
and (2), (e)(4)(A) through (F), (e)(6), (7), (9), (10), and
(11), and (i) if the system of records is—
(1) maintained by the Central Intelligence Agency; or
(2) maintained by an agency or component thereof
which performs as its principal function any activity
pertaining to the enforcement of criminal laws,
including police efforts to prevent, control, or reduce
crime or to apprehend criminals, and the activities of
prosecutors, courts, correctional, probation, pardon,
or parole authorities, and which consists of (A)
information compiled for the purpose of identifying
individual criminal offenders and alleged offenders
and consisting only of identifying data and notations
of arrests, the nature and disposition of criminal
charges, sentencing, confinement, release, and parole
and probation status; (B) information compiled for
the purpose of a criminal investigation, including
reports of informants and investigators, and
associated with an identifiable individual; or (C)
reports identifiable to an individual compiled at any
stage of the process of enforcement of the criminal
laws from arrest or indictment through release from
supervision. At the time rules are adopted under
this subsection, the agency shall include in the
statement required under section 553(c) of this title,
the reasons why the system of records is to be
exempted from a provision of this section.
(k) Specific Exemptions.—The head of any agency
may promulgate rules, in accordance with the
requirements (including general notice) of sections
553(b)(1), (2), and (3), (c), and (e) of this title, to
exempt any system of records within the agency from
Appx. 242

subsections (c)(3), (d), (e)(1), (e)(4)(G), (H), and (I)
and (f) of this section if the system of records is—
(1) subject to the provisions of section 552(b)(1) of
this title;
(2) investigatory material compiled for law
enforcement purposes, other than material within
the scope of subsection (j)(2) of this section: Provided,
however, That if any individual is denied any right,
privilege, or benefit that he would otherwise be
entitled by Federal law, or for which he would
otherwise be eligible, as a result of the maintenance
of such material, such material shall be provided to
such individual, except to the extent that the
disclosure of such material would reveal the identity
of a source who furnished information to the
Government under an express promise that the
identity of the source would be held in confidence, or,
prior to the effective date of this section, under an
implied promise that the identity of the source would
be held in confidence;
(3) maintained in connection with providing
protective services to the President of the United
States or other individuals pursuant to section 3056
of title 18;
(4) required by statute to be maintained and used
solely as statistical records;
(5) investigatory material compiled solely for the
purpose of determining suitability, eligibility, or
qualifications for Federal civilian employment,
military service, Federal contracts, or access to
classified information, but only to the extent that the
disclosure of such material would reveal the identity
of a source who furnished information to the
Government under an express promise that the
identity of the source would be held in confidence, or,
Appx. 243

prior to the effective date of this section, under an
implied promise that the identity of the source would
be held in confidence;
(6) testing or examination material used solely to
determine individual qualifications for appointment
or promotion in the Federal service the disclosure of
which would compromise the objectivity or fairness of
the testing or examination process; or
(7) evaluation material used to determine potential
for promotion in the armed services, but only to the
extent that the disclosure of such material would
reveal the identity of a source who furnished
information to the Government under an express
promise that the identity of the source would be held
in confidence, or, prior to the effective date of this
section, under an implied promise that the identity of
the source would be held in confidence. At the time
rules are adopted under this subsection, the agency
shall include in the statement required under section
553(c) of this title, the reasons why the system of
records is to be exempted from a provision of this
section.
(l)(1) Archival Records.—Each agency record which is
accepted by the Archivist of the United States for
storage, processing, and servicing in accordance with
section 3103 of title 44 shall, for the purposes of this
section, be considered to be maintained by the agency
which deposited the record and shall be subject to
the provisions of this section. The Archivist of the
United States shall not disclose the record except to
the agency which maintains the record, or under
rules established by that agency which are not
inconsistent with the provisions of this section.
(2) Each agency record pertaining to an identifiable
individual which was transferred to the National
Appx. 244

Archives of the United States as a record which has
sufficient historical or other value to warrant its
continued preservation by the United States
Government, prior to the effective date of this
section, shall, for the purposes of this section, be
considered to be maintained by the National
Archives and shall not be subject to the provisions of
this section, except that a statement generally
describing such records (modeled after the
requirements relating to records subject to
subsections (e)(4)(A) through (G) of this section) shall
be published in the Federal Register.
(3) Each agency record pertaining to an identifiable
individual which is transferred to the National
Archives of the United States as a record which has
sufficient historical or other value to warrant its
continued preservation by the United States
Government, on or after the effective date of this
section, shall, for the purposes of this section, be
considered to be maintained by the National
Archives and shall be exempt from the requirements
of this section except subsections (e)(4)(A) through
(G) and (e)(9) of this section.
(m)(1) Government Contractors.—When an agency
provides by a contract for the operation by or on
behalf of the agency of a system of records to
accomplish an agency function, the agency shall,
consistent with its authority, cause the requirements
of this section to be applied to such system. For
purposes of subsection (i) of this section any such
contractor and any employee of such contractor, if
such contract is agreed to on or after the effective
date of this section, shall be considered to be an
employee of an agency.

Appx. 245

(2) A consumer reporting agency to which a record is
disclosed under section 3711(e) of title 31 shall not be
considered a contractor for the purposes of this
section.
(n) Mailing Lists.—An individual's name and address
may not be sold or rented by an agency unless such
action is specifically authorized by law. This
provision shall not be construed to require the
withholding of names and addresses otherwise
permitted to be made public.
(o) Matching Agreements.—(1) No record which is
contained in a system of records may be disclosed to
a recipient agency or non-Federal agency for use in a
computer matching program except pursuant to a
written agreement between the source agency and
the recipient agency or non-Federal agency
specifying—
(A) the purpose and legal authority for conducting
the program;
(B) the justification for the program and the
anticipated results, including a specific estimate of
any savings;
(C) a description of the records that will be matched,
including each data element that will be used, the
approximate number of records that will be matched,
and the projected starting and completion dates of
the matching program;
(D) procedures for providing individualized notice at
the time of application, and notice periodically
thereafter as directed by the Data Integrity Board of
such agency (subject to guidance provided by the
Director of the Office of Management and Budget
pursuant to subsection (v)), to—

Appx. 246

(i) applicants for and recipients of financial
assistance or payments under Federal benefit
programs, and
(ii) applicants for and holders of positions as Federal
personnel, that any information provided by such
applicants, recipients, holders, and individuals may
be subject to verification through matching
programs;
(E) procedures for verifying information produced in
such matching program as required by subsection
(p);
(F) procedures for the retention and timely
destruction of identifiable records created by a
recipient agency or non-Federal agency in such
matching program;
(G) procedures for ensuring the administrative,
technical, and physical security of the records
matched and the results of such programs;
(H) prohibitions on duplication and redisclosure of
records provided by the source agency within or
outside the recipient agency or the non-Federal
agency, except where required by law or essential to
the conduct of the matching program;
(I) procedures governing the use by a recipient
agency or non-Federal agency of records provided in
a matching program by a source agency, including
procedures governing return of the records to the
source agency or destruction of records used in such
program;
(J) information on assessments that have been made
on the accuracy of the records that will be used in
such matching program; and
(K) that the Comptroller General may have access to
all records of a recipient agency or a non-Federal
agency that the Comptroller General deems
Appx. 247

necessary in order to monitor or verify compliance
with the agreement.
(2)(A) A copy of each agreement entered into
pursuant to paragraph (1) shall—
(i) be transmitted to the Committee on Governmental
Affairs of the Senate and the Committee on
Government
Operations
of
the
House
of
Representatives; and
(ii) be available upon request to the public.
(B) No such agreement shall be effective until 30
days after the date on which such a copy is
transmitted pursuant to subparagraph (A)(i).
(C) Such an agreement shall remain in effect only for
such period, not to exceed 18 months, as the Data
Integrity Board of the agency determines is
appropriate in light of the purposes, and length of
time necessary for the conduct, of the matching
program.
(D) Within 3 months prior to the expiration of such
an agreement pursuant to subparagraph (C), the
Data Integrity Board of the agency may, without
additional review, renew the matching agreement for
a current, ongoing matching program for not more
than one additional year if—
(i) such program will be conducted without any
change; and
(ii) each party to the agreement certifies to the Board
in writing that the program has been conducted in
compliance with the agreement.
(p) Verification and Opportunity to Contest
Findings.—(1) In order to protect any individual
whose records are used in a matching program, no
recipient agency, non-Federal agency, or source
agency may suspend, terminate, reduce, or make a
final denial of any financial assistance or payment
Appx. 248

under a Federal benefit program to such individual,
or take other adverse action against such individual,
as a result of information produced by such matching
program, until—
(A)(i) the agency has independently verified the
information; or
(ii) the Data Integrity Board of the agency, or in the
case of a non-Federal agency the Data Integrity
Board of the source agency, determines in accordance
with guidance issued by the Director of the Office of
Management and Budget that—
(I) the information is limited to identification and
amount of benefits paid by the source agency under a
Federal benefit program; and
(II) there is a high degree of confidence that the
information provided to the recipient agency is
accurate;
(B) the individual receives a notice from the agency
containing a statement of its findings and informing
the individual of the opportunity to contest such
findings; and
(C)(i) the expiration of any time period established
for the program by statute or regulation for the
individual to respond to that notice; or
(ii) in the case of a program for which no such period
is established, the end of the 30-day period beginning
on the date on which notice under subparagraph (B)
is mailed or otherwise provided to the individual.
(2) Independent verification referred to in paragraph
(1) requires investigation and confirmation of specific
information relating to an individual that is used as
a basis for an adverse action against the individual,
including where applicable investigation and
confirmation of—
(A) the amount of any asset or income involved;
Appx. 249

(B) whether such individual actually has or had
access to such asset or income for such individual's
own use; and
(C) the period or periods when the individual
actually had such asset or income.
(3) Notwithstanding paragraph (1), an agency may
take any appropriate action otherwise prohibited by
such paragraph if the agency determines that the
public health or public safety may be adversely
affected or significantly threatened during any notice
period required by such paragraph.
(q) Sanctions.—(1) Notwithstanding any other
provision of law, no source agency may disclose any
record which is contained in a system of records to a
recipient agency or non-Federal agency for a
matching program if such source agency has reason
to believe that the requirements of subsection (p), or
any matching agreement entered into pursuant to
subsection (o), or both, are not being met by such
recipient agency.
(2) No source agency may renew a matching
agreement unless—
(A) the recipient agency or non-Federal agency has
certified that it has complied with the provisions of
that agreement; and
(B) the source agency has no reason to believe that
the certification is inaccurate.
(r) Report on New Systems and Matching
Programs.—Each agency that proposes to establish
or make a significant change in a system of records
or a matching program shall provide adequate
advance notice of any such proposal (in duplicate) to
the Committee on Government Operations of the
House of Representatives, the Committee on
Governmental Affairs of the Senate, and the Office of
Appx. 250

Management and Budget in order to permit an
evaluation of the probable or potential effect of such
proposal on the privacy or other rights of individuals.
(s) Biennial Report.—The President shall biennially
submit to the Speaker of the House of
Representatives and the President pro tempore of
the Senate a report—
(1) describing the actions of the Director of the Office
of Management and Budget pursuant to section 6 of
the Privacy Act of 1974 during the preceding 2 years;
(2) describing the exercise of individual rights of
access and amendment under this section during
such years;
(3) identifying changes in or additions to systems of
records;
(4) containing such other information concerning
administration of this section as may be necessary or
useful to the Congress in reviewing the effectiveness
of this section in carrying out the purposes of the
Privacy Act of 1974.
(t)(1) Effect of Other Laws.—No agency shall rely on
any exemption contained in section 552 of this title to
withhold from an individual any record which is
otherwise accessible to such individual under the
provisions of this section.
(2) No agency shall rely on any exemption in this
section to withhold from an individual any record
which is otherwise accessible to such individual
under the provisions of section 552 of this title.
(u) Data Integrity Boards.—(1) Every agency
conducting or participating in a matching program
shall establish a Data Integrity Board to oversee and
coordinate among the various components of such
agency the agency's implementation of this section.

Appx. 251

(2) Each Data Integrity Board shall consist of senior
officials designated by the head of the agency, and
shall include any senior official designated by the
head of the agency as responsible for implementation
of this section, and the inspector general of the
agency, if any. The inspector general shall not serve
as chairman of the Data Integrity Board.
(3) Each Data Integrity Board—
(A) shall review, approve, and maintain all written
agreements for receipt or disclosure of agency records
for matching programs to ensure compliance with
subsection (o), and all relevant statutes, regulations,
and guidelines;
(B) shall review all matching programs in which the
agency has participated during the year, either as a
source agency or recipient agency, determine
compliance with applicable laws, regulations,
guidelines, and agency agreements, and assess the
costs and benefits of such programs;
(C) shall review all recurring matching programs in
which the agency has participated during the year,
either as a source agency or recipient agency, for
continued justification for such disclosures;
(D) shall compile an annual report, which shall be
submitted to the head of the agency and the Office of
Management and Budget and made available to the
public on request, describing the matching activities
of the agency, including—
(i) matching programs in which the agency has
participated as a source agency or recipient agency;
(ii) matching agreements proposed under subsection
(o) that were disapproved by the Board;
(iii) any changes in membership or structure of the
Board in the preceding year;

Appx. 252

(iv) the reasons for any waiver of the requirement in
paragraph (4) of this section for completion and
submission of a cost-benefit analysis prior to the
approval of a matching program;
(v) any violations of matching agreements that have
been alleged or identified and any corrective action
taken; and
(vi) any other information required by the Director of
the Office of Management and Budget to be included
in such report;
(E) shall serve as a clearinghouse for receiving and
providing information on the accuracy, completeness,
and reliability of records used in matching programs;
(F) shall provide interpretation and guidance to
agency components and personnel on the
requirements of this section for matching programs;
(G) shall review agency recordkeeping and disposal
policies and practices for matching programs to
assure compliance with this section; and
(H) may review and report on any agency matching
activities that are not matching programs.
(4)(A) Except as provided in subparagraphs (B) and
(C), a Data Integrity Board shall not approve any
written agreement for a matching program unless
the agency has completed and submitted to such
Board a cost-benefit analysis of the proposed
program and such analysis demonstrates that the
program is likely to be cost effective.2
(B) The Board may waive the requirements of
subparagraph (A) of this paragraph if it determines
in writing, in accordance with guidelines prescribed
by the Director of the Office of Management and
Budget, that a cost-benefit analysis is not required.
(C) A cost-benefit analysis shall not be required
under subparagraph (A) prior to the initial approval
Appx. 253

of a written agreement for a matching program that
is specifically required by statute. Any subsequent
written agreement for such a program shall not be
approved by the Data Integrity Board unless the
agency has submitted a cost-benefit analysis of the
program as conducted under the preceding approval
of such agreement.
(5)(A) If a matching agreement is disapproved by a
Data Integrity Board, any party to such agreement
may appeal the disapproval to the Director of the
Office of Management and Budget. Timely notice of
the filing of such an appeal shall be provided by the
Director of the Office of Management and Budget to
the Committee on Governmental Affairs of the
Senate and the Committee on Government
Operations of the House of Representatives.
(B) The Director of the Office of Management and
Budget may approve a matching agreement
notwithstanding the disapproval of a Data Integrity
Board if the Director determines that—
(i) the matching program will be consistent with all
applicable legal, regulatory, and policy requirements;
(ii) there is adequate evidence that the matching
agreement will be cost-effective; and
(iii) the matching program is in the public interest.
(C) The decision of the Director to approve a
matching agreement shall not take effect until 30
days after it is reported to committees described in
subparagraph (A).
(D) If the Data Integrity Board and the Director of
the Office of Management and Budget disapprove a
matching program proposed by the inspector general
of an agency, the inspector general may report the
disapproval to the head of the agency and to the
Congress.
Appx. 254

(6) In the reports required by paragraph (3)(D),
agency matching activities that are not matching
programs may be reported on an aggregate basis, if
and to the extent necessary to protect ongoing law
enforcement or counterintelligence investigations.
(v)
Office
of
Management
and
Budget
Responsibilities.—The Director of the Office of
Management and Budget shall—
(1) develop and, after notice and opportunity for
public comment, prescribe guidelines and regulations
for the use of agencies in implementing the
provisions of this section; and
(2) provide continuing assistance to and oversight of
the implementation of this section by agencies.
(w) Applicability to Bureau of Consumer Financial
Protection.—Except as provided in the Consumer
Financial Protection Act of 2010, this section shall
apply with respect to the Bureau of Consumer
Financial Protection.
3. 10 U.S.C. § 869:
§869. Art. 69. Review in the office of the Judge
Advocate General
(a) The record of trial in each general court-martial
that is not otherwise reviewed under section 866 of
this title (article 66) shall be examined in the office of
the Judge Advocate General if there is a finding of
guilty and the accused does not waive or withdraw
his right to appellate review under section 861 of this
title (article 61). If any part of the findings or
sentence is found to be unsupported in law or if
reassessment of the sentence is appropriate, the
Judge Advocate General may modify or set aside the
findings or sentence or both.
Appx. 255

(b) The findings or sentence, or both, in a courtmartial case not reviewed under subsection (a) or
under section 866 of this title (article 66) may be
modified or set aside, in whole or in part, by the
Judge Advocate General on the ground of newly
discovered evidence, fraud on the court, lack of
jurisdiction over the accused or the offense, error
prejudicial to the substantial rights of the accused, or
the appropriateness of the sentence. If such a case is
considered upon application of the accused, the
application must be filed in the office of the Judge
Advocate General by the accused on or before the last
day of the two-year period beginning on the date the
sentence is approved under section 860(c) of this title
(article 60(c)), unless the accused establishes good
cause for failure to file within that time.
(c) If the Judge Advocate General sets aside the
findings or sentence, he may, except when the setting
aside is based on lack of sufficient evidence in the
record to support the findings, order a rehearing. If
he sets aside the findings and sentence and does not
order a rehearing, he shall order that the charges be
dismissed. If the Judge Advocate General orders a
rehearing but the convening authority finds a
rehearing impractical, the convening authority shall
dismiss the charges.
(d) A Court of Criminal Appeals may review, under
section 866 of this title (article 66)—
(1) any court-martial case which (A) is subject to
action by the Judge Advocate General under this
section, and (B) is sent to the Court of Criminal
Appeals by order of the Judge Advocate General; and
(2) any action taken by the Judge Advocate General
under this section in such case.

Appx. 256

(e) Notwithstanding section 866 of this title (article
66), in any case reviewed by a Court of Criminal
Appeals under this section, the Court may take
action only with respect to matters of law.
Effective Date of 2016 Amendment
Amendment by Pub. L. 114–328 effective on
Jan. 1, 2019, as designated by the President,
with implementing regulations and provisions
relating to applicability to various situations,
see section 5542 of Pub. L. 114–328 and Ex.
Ord. No. 13825, set out as notes under section
801 of this title.
4. 10 U.S.C. § 876:
§ 876. Art. 76. Finality of proceedings, findings,
and sentences
The appellate review of records of trial provided by
this chapter, the proceedings, findings, and sentences
of courts-martial as approved, reviewed, or affirmed
as required by this chapter, and all dismissals and
discharges carried into execution under sentences by
courts-martial following approval, review, or
affirmation as required by this chapter, are final and
conclusive. Orders publishing the proceedings of
courts-martial and all action taken pursuant to those
proceedings are binding upon all departments,
courts, agencies, and officers of the United States,
subject only to action upon a petition for a new trial
as provided in section 873 of this title (article 73) and
to action by the Secretary concerned as provided in
section 874 of this title (article 74) and the authority
of the President.

Appx. 257

5. 28 U.S.C. § 1491:
§1491. Claims against United States generally;
actions involving Tennessee Valley Authority
(a)(1) The United States Court of Federal Claims
shall have jurisdiction to render judgment upon any
claim against the United States founded either upon
the Constitution, or any Act of Congress or any
regulation of an executive department, or upon any
express or implied contract with the United States,
or for liquidated or unliquidated damages in cases
not sounding in tort. For the purpose of this
paragraph, an express or implied contract with the
Army and Air Force Exchange Service, Navy
Exchanges, Marine Corps Exchanges, Coast Guard
Exchanges, or Exchange Councils of the National
Aeronautics and Space Administration shall be
considered an express or implied contract with the
United States.
(2) To provide an entire remedy and to complete the
relief afforded by the judgment, the court may, as an
incident of and collateral to any such judgment, issue
orders directing restoration to office or position,
placement in appropriate duty or retirement status,
and correction of applicable records, and such orders
may be issued to any appropriate official of the
United States. In any case within its jurisdiction, the
court shall have the power to remand appropriate
matters to any administrative or executive body or
official with such direction as it may deem proper
and just. The Court of Federal Claims shall have
jurisdiction to render judgment upon any claim by or
against, or dispute with, a contractor arising under
section 7104(b)(1) of title 41, including a dispute
concerning termination of a contract, rights in
Appx. 258

tangible or intangible property, compliance with cost
accounting standards, and other nonmonetary
disputes on which a decision of the contracting officer
has been issued under section 6 1 of that Act.
(b)(1) Both the Unites 2 States Court of Federal
Claims and the district courts of the United States
shall have jurisdiction to render judgment on an
action by an interested party objecting to a
solicitation by a Federal agency for bids or proposals
for a proposed contract or to a proposed award or the
award of a contract or any alleged violation of statute
or regulation in connection with a procurement or a
proposed procurement. Both the United States Court
of Federal Claims and the district courts of the
United States shall have jurisdiction to entertain
such an action without regard to whether suit is
instituted before or after the contract is awarded.
(2) To afford relief in such an action, the courts may
award any relief that the court considers proper,
including declaratory and injunctive relief except
that any monetary relief shall be limited to bid
preparation and proposal costs.
(3) In exercising jurisdiction under this subsection,
the courts shall give due regard to the interests of
national defense and national security and the need
for expeditious resolution of the action.
(4) In any action under this subsection, the courts
shall review the agency's decision pursuant to the
standards set forth in section 706 of title 5.
(5) If an interested party who is a member of the
private sector commences an action described in
paragraph (1) with respect to a public-private
competition conducted under Office of Management
and Budget Circular A–76 regarding the
performance of an activity or function of a Federal
Appx. 259

agency, or a decision to convert a function performed
by Federal employees to private sector performance
without a competition under Office of Management
and Budget Circular A–76, then an interested party
described in section 3551(2)(B) of title 31 shall be
entitled to intervene in that action.
(6) Jurisdiction over any action described in
paragraph (1) arising out of a maritime contract, or a
solicitation for a proposed maritime contract, shall be
governed by this section and shall not be subject to
the jurisdiction of the district courts of the United
States under the Suits in Admiralty Act (chapter 309
of title 46) or the Public Vessels Act (chapter 311 of
title 46).
(c) Nothing herein shall be construed to give the
United States Court of Federal Claims jurisdiction of
any civil action within the exclusive jurisdiction of
the Court of International Trade, or of any action
against, or founded on conduct of, the Tennessee
Valley Authority, or to amend or modify the
provisions of the Tennessee Valley Authority Act of
1933 with respect to actions by or against the
Authority.

Appx. 260

